<html>
<title> - AN EXAMINATION OF EXISTING FEDERAL STATUTES ADDRESSING INFORMATION PRIVACY</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]




  AN EXAMINATION OF EXISTING FEDERAL STATUTES ADDRESSING INFORMATION 
                                PRIVACY

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                COMMERCE, TRADE AND CONSUMER PROTECTION

                                 of the

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 3, 2001

                               __________

                           Serial No. 107-22

                               __________

      Printed for the use of the Committee on Energy and Commerce


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house

                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
71-499PS                    WASHINGTON : 2001
_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
Internet: bookstore.gpo.gov  Phone: (202) 512-1800  Fax: (202) 512-2250
               Mail: Stop SSOP, Washington, DC 20402-0001




                    COMMITTEE ON ENERGY AND COMMERCE

               W.J. ``BILLY'' TAUZIN, Louisiana, Chairman

MICHAEL BILIRAKIS, Florida           JOHN D. DINGELL, Michigan
JOE BARTON, Texas                    HENRY A. WAXMAN, California
FRED UPTON, Michigan                 EDWARD J. MARKEY, Massachusetts
CLIFF STEARNS, Florida               RALPH M. HALL, Texas
PAUL E. GILLMOR, Ohio                RICK BOUCHER, Virginia
JAMES C. GREENWOOD, Pennsylvania     EDOLPHUS TOWNS, New York
CHRISTOPHER COX, California          FRANK PALLONE, Jr., New Jersey
NATHAN DEAL, Georgia                 SHERROD BROWN, Ohio
STEVE LARGENT, Oklahoma              BART GORDON, Tennessee
RICHARD BURR, North Carolina         PETER DEUTSCH, Florida
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
GREG GANSKE, Iowa                    ANNA G. ESHOO, California
CHARLIE NORWOOD, Georgia             BART STUPAK, Michigan
BARBARA CUBIN, Wyoming               ELIOT L. ENGEL, New York
JOHN SHIMKUS, Illinois               TOM SAWYER, Ohio
HEATHER WILSON, New Mexico           ALBERT R. WYNN, Maryland
JOHN B. SHADEGG, Arizona             GENE GREEN, Texas
CHARLES ``CHIP'' PICKERING,          KAREN McCARTHY, Missouri
Mississippi                          TED STRICKLAND, Ohio
VITO FOSSELLA, New York              DIANA DeGETTE, Colorado
ROY BLUNT, Missouri                  THOMAS M. BARRETT, Wisconsin
TOM DAVIS, Virginia                  BILL LUTHER, Minnesota
ED BRYANT, Tennessee                 LOIS CAPPS, California
ROBERT L. EHRLICH, Jr., Maryland     MICHAEL F. DOYLE, Pennsylvania
STEVE BUYER, Indiana                 CHRISTOPHER JOHN, Louisiana
GEORGE RADANOVICH, California        JANE HARMAN, California
CHARLES F. BASS, New Hampshire
JOSEPH R. PITTS, Pennsylvania
MARY BONO, California
GREG WALDEN, Oregon
LEE TERRY, Nebraska

                  David V. Marventano, Staff Director

                   James D. Barnette, General Counsel

      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

        Subcommittee on Commerce, Trade, and Consumer Protection

                    CLIFF STEARNS, Florida, Chairman

NATHAN DEAL, Georgia                 EDOLPHUS TOWNS, New York
  Vice Chairman                      DIANA DeGETTE, Colorado
ED WHITFIELD, Kentucky               LOIS CAPPS, California
BARBARA CUBIN, Wyoming               MICHAEL F. DOYLE, Pennsylvania
JOHN SHIMKUS, Illinois               CHRISTOPHER JOHN, Louisiana
JOHN B. SHADEGG, Arizona             JANE HARMAN, California
ED BRYANT, Tennessee                 HENRY A. WAXMAN, California
STEVE BUYER, Indiana                 EDWARD J. MARKEY, Massachusetts
GEORGE RADANOVICH, California        BART GORDON, Tennessee
CHARLES F. BASS, New Hampshire       PETER DEUTSCH, Florida
JOSEPH R. PITTS, Pennsylvania        BOBBY L. RUSH, Illinois
GREG WALDEN, Oregon                  ANNA G. ESHOO, California
LEE TERRY, Nebraska                  JOHN D. DINGELL, Michigan,
W.J. ``BILLY'' TAUZIN, Louisiana       (Ex Officio)
  (Ex Officio)

                                  (ii)


                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Fischer, L. Richard, Partner, Morrison and Foerster..........    20
    Fortney, Anne P., Managing Partner, Lovells..................    13
    Lamb, Michael C., Chief Privacy Officer, AT&T Corporation....     7
    Mierzwinski, Edmund, Consumer Program Director...............    75
    Plesser, Ronald L., Piper, Marbury, Rudnick and Wolfe........    40
    Smith, Richard M., Chief Technology Officer, the Privacy 
      Foundation.................................................    24
    Torres, Frank, Legislative Counsel, Consumers Union..........    60
    Varn, Richard, Chief Information Officer, State of Iowa......    51
    Zuck, Jonathan, Jonathan, President, Association for 
      Competitive Technology.....................................    69

                                 (iii)

  

 
  AN EXAMINATION OF EXISTING FEDERAL STATUTES ADDRESSING INFORMATION 
                                PRIVACY

                              ----------                              


                         TUESDAY, APRIL 3, 2001

              House of Representatives,    
              Committee on Energy and Commerce,    
                       Subcommittee on Commerce, Trade,    
                                   and Consumer Protection,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m., in 
room 2123 Rayburn House Office Building, Hon. Cliff Stearns 
(chairman) presiding.
    Members present: Representatives Stearns, Deal, Shimkus, 
Buyer, Pitts, Terry, Tauzin (ex officio), Towns, DeGette, 
Markey, and Gordon.
    Staff present: Ramsen Betfarhad, professional staff; Mike 
O'Rielly, professional staff; Kelly Zerzan, majority counsel; 
Anthony Habib, legislative clerk; and Bruce Gwinn, minority 
counsel.
    Mr. Stearns. The subcommittee will come to order. Good 
afternoon, everybody. Welcome to the Subcommittee on Commerce, 
Trade and Consumer Protections, third in a series of hearings 
on information privacy. I thank the witnesses for appearing 
before the subcommittee today. I especially want to thank 
members for attending a Tuesday afternoon hearing. I know that 
at times it's difficult for many members to be back from their 
home districts in time for a Tuesday afternoon hearing.
    Our witnesses today will explain and examine a number of 
Federal statutes addressing personal information privacy. Their 
collective testimonies present a mere snapshot of the array of 
the existing Federal statutes speaking to the issue of 
information privacy.
    I understand that there are over 30 Federal statutes alone. 
Moreover, there are hundreds of State statutes dealing with 
information privacy in some form or another. Those Federal and 
State statutes have a wide range, both in their scope and depth 
of coverage. They implicate personal information used across 
many sectors of the economy and for differing commercial 
activities, while offering varied levels of protection 
depending on the type and use of the personal information.
    Among the 30-odd Federal statutes are ones addressing the 
disclosure of sensitive personal financial information used for 
substantive purposes such as credit and employment decisions. 
There are such statutes protecting children's personal 
information on line, students' information, certain personal 
data garnered by communications providers, date stored on-line, 
medical information privacy and so on.
    As for the State statutes, they tend to govern the personal 
information, the rich world of public records. For example, the 
collection and use of personal information relating to real 
estate transaction or divorce proceedings are all governed by 
State statutes.
    The disclosure and use of information required by licenses 
such as those for business, hunting, fishing, professional 
practices such as medicine, are all governed by State statute. 
The universe of both Federal and State statutes speaking to 
information privacy is instructive for three important reasons. 
First, the existence of those statutes suggest that concerns 
over information privacy are not new.
    Second, the statutes tell us that both the Congress and 
statute legislatures have acted to protect the privacy of 
certain types of personally identifiable information upon 
finding a harm. And finally, the review of existing statutes 
permits the subcommittee to hone in on areas where there is no 
existing legal regime protecting information.
    Upon identification of the implicated area, or type of 
information and its usage not protected by law, the 
subcommittee's inquiry will shift to investigating whether 
consumers are harmed by the lack of such legal protections. If 
harm is found, then any legal fix contemplated must meet a cost 
and benefit analysis. That is to say, that the extent of the 
identified harm must be measured against the benefits accruing 
to our economy from the free flow of the implicated type 
information.
    The testimony today clearly shows that the information 
privacy debate is rich in history and has evolved throughout 
many years. In the subcommittee's first information privacy 
hearing we learned that the first amendment sets the outer 
limits of our information privacy inquiry today as the first 
amendment sets the outer parameters of the debate.
    The existing Federal and State statutes addressing 
information privacy narrow our inquiry and debate even further. 
On a different note, I wish to commend the Administration for 
taking a more proactive approach in dealing with the 
ramifications for American businesses of the European 
Commission's data protection directive. The joint letter by the 
Treasury and Commerce Departments to Mr. John Mogg of the 
European Union Commission dated March 23 regarding ``model 
contracts'' is important because it signals the 
Administration's interest in and concern over this matter.
    The subcommittee in its March 8 hearing was the first 
congressional forum to focus on the ramifications of the EU 
data protection directive for international commerce and just 
as I said at that hearing, I am very concerned about the 
potentially regressive impact of the directive and its 
implementing statutes. I'm pleased that the Administration has 
begun to engage the issue.
    This subcommittee will continue its examination of not only 
the data protection directive, but also other nuances, legal or 
regulatory impediments on international commerce and especially 
dealing with E-commerce.
    And I'm pleased to recognize the ranking member, the 
gentleman from New York, Mr. Towns.
    Mr. Towns. Thank you very much, Mr. Chairman. I would also 
like to thank all of the witnesses. I look forward to your 
testimony.
    When this subcommittee was charged with discussing the 
issue of privacy, I made it a priority to meet with many of the 
New York Silicon Alley companies and consumers to hear diverse 
views on this topic. And while many had different views on how 
privacy should be protected and what was necessary to protect 
it, each side agreed that every company doing business in the 
on-line and off-line world should have a public/private policy 
that is written in plain English and adhered to once the policy 
is made public.
    When a company such as TiVo acts in bad faith and breaks 
their own privacy policy, misleading its customers, the FTC and 
the courts should hold them accountable. While bad actors have 
always been burdensome to legitimate business, I am heartened 
by new technologies that are being developed so that the public 
will have more control over when and to whom they dispense 
their valuable personal information.
    Microsoft's platform for privacy protection or P3P and 
Hailstorm and dot net technology will allow consumers to see a 
particular website's privacy policy in a clear, effective 
manner and allow them to set privacy limits which will provide 
consumers with clear information as to the privacy practices of 
an on-line company, giving individuals more control over their 
personally identifiable information.
    Location privacy is another concern of my constituents as 
well. The wireless industry has been aware of the public's 
concern and worked with members of the committee to enact CPNI 
standards. They also voluntarily with principles such as notice 
consent, security and integrity. These are just two examples of 
industry understanding their privacy and the protection of 
privacy can be positive not only for the consumer, but for 
their bottom line as well.
    Another concern of my constituents is making sure that we 
protect kids both on-line and off-line from predatory business 
practices. Many have spoken to me about COPPA and complain 
about how government quickly passed a law without consulting 
businesses, simply tossing aside the notion of self-regulation. 
I plainly point out to my friends that on two separate 
occasions the previous Administration asked industry to clean 
itself up and protect children and much to my chagrin the 
majority of the industry took little or no notice of that fact.
    I want to avoid drowning in the wash of misguided privacy 
legislation in this Congress. Let's listen to all sides of the 
debate and if we can agree on a sensible legislation, let's 
make sure we get it right the first time, rather than have to 
do it over a month or a year from now because we did not do it 
right the first time.
    Mr. Chairman, on that note, I will yield back the balance 
of my time.
    Mr. Stearns. The gentleman yields back. Thank you. The 
ranking member, Mr. Deal of Georgia is recognized for an 
opening statement.
    Mr. Deal. I have no statement.
    Mr. Stearns. Ms. DeGette?
    Ms. DeGette. Thank you, Mr. Chairman. I'd like to thank you 
for holding another, in a series of privacy hearings that we've 
undertaken in the subcommittee and right out of the gate too. 
The Privacy Foundation, who we'll hear from today is based out 
of Colorado and has been working with the University of Denver 
Privacy Center on the Report on TiVo, Inc. that will be 
referred to in the hearing. I want to thank the Foundation for 
its good work and especially welcome Mr. Smith who is sitting 
here, our witness, the Chief Technology Officer of the Privacy 
Foundation, who unfortunately is not my constituent, I 
understand is from all of our good friend, Ed Markey's home 
district.
    An examination of existing Federal statutes should prove to 
be quite informative, although I think it's a rather large task 
to undertake in one hearing. I think that we probably could 
have benefited from having witnesses from the Federal agencies 
responsible for carrying out some of these congressionally 
mandated statutes and I hope we'll be able to include such 
witnesses at related hearings in the future.
    The issue of privacy gets more timely every day. I'm sure, 
Mr. Chairman, you and my other colleagues saw the article in 
the Washington Post this morning reporting on the new Pew 
Foundation Report entitled ``Fear of On-Line Crime'' which 
addresses Americans' views on the need for on-line privacy 
protection.
    This report gives some very interesting insights into how 
the American consumer feels about privacy. On the one hand, a 
large percentage of people think that action definitely needs 
to be taken to protect their personal information from being 
exploited on-line. By the same token, it appears as if they do 
not really trust the government, business or anyone else to do 
the right thing on this issue.
    I gave a speech this morning, for example, to the American 
Teleservices Association and got to hear their concerns with 
privacy, both from a business standpoint regarding their fears 
that legislation could undermine the competitiveness of their 
companies and also their fears about State legislation and 
creating a patchwork of oftentimes competing statutes. But 
also, they were concerned as individuals about their personal 
information getting out. And so the one thing that has really 
struck me recently is how truly conflicted people are about the 
issue of privacy and that's convinced me even further that we 
as Federal legislators needs to be very careful. I'd like to 
echo my colleague Mr. Towns. We need to be very careful as we 
proceed down this road toward privacy regulation. We need to 
make sure we know what we are doing, not always readily 
apparent with Congress, and when we act we need to do it right 
the first time.
    I'm looking forward to hearing the testimony of the 
witnesses, Mr. Chairman, and yield back the balance of my time.
    Mr. Stearns. The gentle lady yields back the balance of her 
time and I would indicate to her that we intend to have a 
hearing on the Pew Internet and American Life Project Survey as 
well as others at a future date and I appreciate bringing that 
to the committee's attention.
    Now I recognize the distinguished chairman of the full 
committee, Mr. Tauzin of Louisiana.
    Mr. Tauzin. Thank you, Mr. Chairman, and let me thank you 
for conducting this series of hearings. This is the third 
hearing on privacy already this year. And the thoughtful 
approach is, I think, absolutely called for here. Obviously, 
looking back and seeing what we have done in privacy, how it 
has worked, what is left to be done are critical elements of 
these hearings. And I think those are the three themes, I 
think, we ought to think about today.
    What have we done in critical areas and what is left to be 
done and what have we done wrong? What's really not working 
well, before we go forward with new proposals to enact new 
privacy legislation. We're going to get enlightened today and 
I'm particularly pleased to hear from folks like those at AT&T 
who are going to give us a look at how corporate America can 
tell a good story about how they are protecting the privacy of 
citizens and perhaps a story that isn't often focused on when 
we hear the horror stories about how privacy sometimes gets 
violated.
    We know, for example, that corporate America is learning 
very quickly good privacy protection is good for business, that 
consumers who focus on security and privacy of their 
information do tend to gravitate toward companies that respect 
the privacy of that information and provide security for that 
information where privacy needs protection.
    It's important also to note that the issue of privacy is 
not new to this committee or to Congress, in general. It's not 
something we just dreamed up this year or the last five or 10 
years because of the Internet. U.S. privacy laws have literally 
developed pretty much in the piecemeal basis, as we saw the 
need, as we saw a problem. A good example is the Video Privacy 
Act.
    You recall the efforts to review a Supreme Court nominee's 
video rentals and how this offended not just that nominee, but 
I think the American public, in general, that anyone should be 
making public the video rentals of a citizen of a country just 
to expose some dirt that might disable their career.
    I frankly think that approaching privacy on this piecemeal 
basis has had some merit. We can, for example, learn that 
privacy means something different in different areas of our 
human activities. We also learn, Mr. Chairman, I want to thank 
you for that great hearing on the EU comprehensive regime. We 
learned how a comprehensive approach can sometimes present real 
problems when it comes to specific elements of commercial and 
human activity. And on that note, let me comment on the dispute 
regarding the EU data privacy directive that was the subject of 
your last hearing. We're very pleased to see that the new 
Administration's letter to our European colleagues questioning 
the so-called model contracts and seeking additional 
discussions on the matter.
    This subcommittee, in fact, highlighted the need for the 
Administration to be on top of that issue and it looks like you 
got their attention, Cliff. I'm very pleased for that. As 
presented to us, it seems that the model contracts are an 
effort to undercut the so-called safe harbor and further impose 
a European privacy approach on the United States and I think 
it's clear that Europeans do not understand U.S. business 
practices, behaviors or policies or even our customers and they 
seem also to be unaware of the vast benefits of informational 
exchanges.
    I see, I think, now the Administration sees the need for 
negotiations on this issue in the near future, as this will 
have a larger and larger impact on our trade relations with the 
Europeans.
    I want to also compliment the Administration on their 
attention and their additional involvement to find indeed an 
acceptable outcome for all the parties.
    Last, I hope we get a chance at this hearing or future 
ones, to touch upon the real and potential unintended 
consequences in current statutes. For example, while everyone 
agrees that protecting the privacy of children as they navigate 
the Internet, evidence now suggests that the existing statute, 
the Child On-Line Privacy Protection Act, COPPA, has now forced 
companies to discontinue a number of products targeted toward 
children. Instead of complying with the statute, a number of 
sites just stopped serving users who are less than 13 years of 
age and while this sounds positive, there's some downsides to 
it that we ought to be concerned about.
    If we end up forcing private companies and nonprofits to 
eliminate beneficial products such as crime prevention 
material, have we done a good thing? If teen-friendly sites, 
those that totally respect the privacy of the users stop 
offering e-mail services to children, is that a good thing? And 
if kids end up lying about their age just to qualify for 
certain features, is that a good thing?
    I suppose, Mr. Chairman, what I'm saying is we can learn a 
lot from the experience of the privacy statutes that we've 
already passed and the more we learn about those statutes, the 
more thoughtfully and carefully we can navigate what remains to 
be done. The universe of areas where citizens still are urging 
us to legislate.
    Mr. Chairman, this is a good line up as I know your future 
hearings will be and as I am certain your past hearings have 
been.
    Thank you for this one and I yield back the balance of my 
time.
    Mr. Stearns. And I think the chairman. I think your 
statement, learning from privacy statutes that already have 
passed is extremely important and we're delighted to do that.
    The gentleman from Tennessee, Mr. Gordon, is recognized.
    Mr. Gordon. I'll make my statement a part of the record and 
I'm ready to move to the witnesses.
    Mr. Stearns. All right, the gentleman yields back. Mr. 
Terry?
    Mr. Terry. Same.
    Mr. Stearns. Same, okay.
    Mr. Pitts?
    Mr. Pitts. Thank you, Mr. Chairman, I'll submit my opening 
statement for the record.
    Mr. Stearns. Okay, Mr. Buyer?
    Mr. Buyer. Add me in.
    Mr. Stearns. Okay. I'm delighted to welcome the first panel 
and as our distinguished chairman has talked about, it's not 
often that you have a hearing in Congress where you actually 
look at existing statutes that have already passed and people 
might say well, this might be a dry hearing and that possibly 
be true, but before you're going ahead to pass new statutes, 
it's fundamental, I think, in Congress to go and look at what's 
existing. I'm delighted to have Michael Lamb, Chief Privacy 
Officer for AT&T Corporation; Ms. Anne Fortney, Managing 
Partner, Lovells; Mr. Rick Fischer, Partner, Morrison and 
Foerster; and Mr. Richard Smith, Chief Technology Officer, The 
Privacy Foundation.
    So welcome and we'd like to have each of you provide your 
opening statement and I would--hopefully, you can stay within 5 
minutes.
    Mr. Lamb?

  STATEMENTS OF MICHAEL C. LAMB, CHIEF PRIVACY OFFICER, AT&T 
  CORPORATION; ANNE P. FORTNEY, MANAGING PARTNER, LOVELLS; L. 
RICHARD FISCHER, PARTNER, MORRISON AND FOERSTER; AND RICHARD M. 
    SMITH, CHIEF TECHNOLOGY OFFICER, THE PRIVACY FOUNDATION

    Mr. Lamb. Thank you, Mr. Chairman and members of the 
committee for this opportunity. I applaud the committee's 
examination of the privacy issues in industry and that our 
consumers face under the existing statutes. It's a complex area 
and it affects every business and every consumer that we serve 
and we take it seriously, but it deserves the thorough and 
thoughtful process that I see underway here.
    I've been asked to discuss, in particular, the Federal 
statutes that apply to AT&T's scope of activities which makes 
sense, in particular, telephony, wireless services, our array 
of broadband services, both cable programming and broadband 
telephony and broadband data as well as the Internet and on-
line services. And in particular, I want to touch on four 
Federal statutes. By definition, it will be a whirlwind tour to 
discuss four fairly detailed statutes in this time. So I just 
want to touch on highlights and how these statutes overlap and 
how they treat privacy slightly differently.
    Each statute was enacted with the right goal, preserve 
privacy, help consumers' expectations be met with respect to 
privacy. They all took a somewhat different approach. In 
industry, we work within this framework, but sometimes we find 
that two or three different, and indeed conflicting, statutes 
will sometimes apply to a single service and that makes our 
lives difficult.
    I'm going to discuss the Customer Proprietary Network 
Information or CPNI rules in the Communications Act. They apply 
to telephony services. The Cable Act privacy provisions, the 
Electronic Communications Privacy Act or ECPA which deals in 
particular with privacy of e-mail and voice mail and advanced 
electronic communications. And then finally, I'll touch on the 
Telephone Consumer Protection Act which is really a consumer 
choice statute that goes across industry and deals with 
telephone solicitations and how companies can use the data or 
not use it in their telephone solicitations.
    And I think you'll see differences in approaches and some 
overlaps in these statutes that we live with today. There's 
room for refinement, but it is a system that works and I think 
we can all learn from what's been done.
    The CPNI rules in Section 222 of the Communications Act 
apply to telecommunications services offered by a carrier. And 
it's a very detailed privacy statute that in turn gave 
authority to an agency to enact even more detailed rules. That 
gives us some degree of certainty about the nature of the 
obligation, but it also leads to complications as we apply 
these in our data bases and customer bills and the like.
    In a nutshell, the CPNI rules define certain information 
such as whom customers call and their location and how much 
they spend as data that will be subject to extra privacy 
protections and then define certain other data including name, 
address and telephone number and aggregated information as not 
being CPNI, where the companies are free to use that 
information subject to their own public/privacy policies.
    Without customer approval, a carrier may only use CPNI for 
the service category from which they obtained it. Therefore, 
AT&T, for example, can only use our long distance data as we 
market and provide long distance services and could not use 
that even internally to offer local exchange service, for 
example.
    So this is both an internal restriction and a restriction 
on our disclosure to third parties.
    The CPNI Act contains no disclosure obligations and no 
restrictions on collecting information. You'll see in that 
respect it varies somewhat from some of the other statutes.
    Now our discussion gets a little more interesting when we 
look at the interplay between the CPNI rules and the next 
section I wanted to discuss which is Section 631 of the Cable 
Act. Section 631 applies to all cable services and other 
services offered over cable facilities and instantly from that 
definition we can see that when one turns to telephone service 
offered over a cable facility, you're under two different 
statutory frameworks. And indeed, we'll see that when you look 
at data services, you also are under multiple frameworks. In 
some ways we can comply with both sets. You'll see a couple of 
conflicts where we have difficulty resolving the differences in 
approach.
    Section 631 has a notice obligation. As a cable operator, 
AT&T sends an annual, written privacy notice that describes our 
practices to each of our cable customers and both how we use it 
internally and what data we collect. It also somewhat more 
flexibility on a company's internal use of data which is 
consistent with what we've seen consumer concerns. Consumers 
sometimes are much more concerned about disclosing to third 
parties than they are the use of data within a single company 
with whom they know they're doing business.
    One particular problem arises under the Cable Act in the 
law enforcement sections. Under the Cable Act, a company like 
AT&T can only disclose personally identifiable data concerning 
our cable customers to law enforcement if there's a court order 
which we have no issues with, but also if we have given prior 
notice to our customers.
    And where we run into difficulties is when law enforcement 
requests data and provides a court order and asserts that 
notifying a customer could compromise an on-going law 
enforcement investigation and there is no exception in the 
statute and that leads me to my third statute which is ECPA 
which arguably governs data services such as e-mail and the 
like provided over a cable system. And ECPA also has detailed 
rules on when we provide data to law enforcement and it says 
that typically for e-mail contents, for example, prior notice 
must be given unless law enforcement tells us that such notice 
would endanger an on-going investigation or compromise it.
    So law enforcement agencies will come to AT&T with an 
appropriate court order and claim that ECPA applies to an e-
mail that was sent over a cable system and then we're faced 
actually with a devil's choice between two conflicting statutes 
and our approach has been to let the courts decide. If a court 
orders us to turn over data and a court orders us not to 
disclose that to our customer, then we have to comply with the 
lawful court order. But there indeed is a conflict between the 
two statutes on that point.
    We also see under ECPA----
    Mr. Stearns. I just want you to sum up, if you can. I know 
how difficult considering the complexity of it.
    Mr. Lamb. Absolutely. The last statute I want to turn to is 
the TCPA which basically allows customers or other individuals 
to be put on a do not call list for companies and that really 
is a choice statute. It applies across industries. It says you 
may have information about me, but I don't want you to call me 
using that information. And it boils down to that basic 
approach, the statute has worked.
    But also see unintended consequences even in that statute 
when a customer requests to be put on a do not call list, the 
telephone number is put on a list and it applies for 10 years. 
However, customers move. Some 15 to 20 percent of telephone 
numbers change every year, so we find that after 3 or 4 years, 
the vast, vast majority of the phone numbers on our list are 
completely out of date and no longer belong to the people who 
made the request. And just to sum up, I just want to say that 
responsible companies such as AT&T realize that privacy 
commitments are important to our customers and they're 
important to us. They are good business. We are under three or 
four or indeed a myriad of privacy regimes in the industries in 
which AT&T operates, but all of our customers receive a high 
standard of privacy and that is because of the self-regulation 
efforts that we partake in with our own voluntary privacy 
policy as supplemented by the statutes and you can't look at 
any one set in isolation.
    Thank you.
    [The prepared statement of Michael C. Lamb follows:]
  Prepared Statement of Michael C. Lamb, Chief Privacy Officer, AT&T 
                                 Corp.
    Thank you, Mr. Chairman. I am Michael Lamb, Chief Privacy Officer 
of AT&T Corporation. I applaud this Committee's examination of existing 
federal statutes that govern information privacy in various industry 
sectors.
                      i. introduction and summary
    The Committee has asked me to discuss certain existing Federal 
statutes on information privacy that apply to AT&T's principal 
businesses. Today, my goal is to describe these statutes, and to point 
out some differences and overlaps in their terms. These statutes 
complement a regimen of self-regulation and voluntary privacy 
commitments by AT&T and other privacy leaders. For example, AT&T 
participates in the self-regulatory efforts of the Direct Marketing 
Association and BBBOnline, which supplement and strengthen the 
statutory privacy obligations. As a result, despite the different sets 
of statutory privacy requirements, AT&T's different categories of 
customers all enjoy very high standards of privacy protection.
    Given AT&T's scope of activities, we may be unique in the degree to 
which different sets of federal statutory privacy rules apply to key 
aspects of our operations. AT&T serves both consumers and businesses of 
all sizes; our business includes traditional telephony services, 
wireless communications, broadband cable services, and a wide array of 
Internet and online services. My testimony provides a brief overview of 
the privacy provisions of the following four federal statutes that 
apply to parts of AT&T's operations:

<bullet> Communications Act provisions regarding Customer Proprietary 
        Network Information;
<bullet> Cable Communications Policy Act;
<bullet> Telephone Consumer Protection Act; and the
<bullet> Electronic Communications Privacy Act.
    The privacy provisions in each of these federal statutes were 
designed to increase the protection for information that companies may 
possess about customers and other consumers. There are both 
similarities and differences among these four statutes, however. The 
TCPA is narrowly focused and designed principally to restrict 
communications between firms and consumers--restrictions on 
telemarketing, for example. Other statutes, such as ECPA, are designed 
principally to protect information from interception by or disclosure 
to unauthorized third parties, including law enforcement agencies. The 
CPNI rules serve to restrict the use of customer information by 
telephone companies, both internally and vis-a-vis disclosure to third 
parties. And the Cable Act mandates detailed annual privacy disclosures 
to customers and imposes restrictions on disclosures to third parties 
but provides flexibility for a cable operator to use information 
internally.
                 ii. the communications act cpni rules
    Section 222 of the Communications Act requires telecommunications 
carriers to protect the confidentiality of customer proprietary network 
information (``CPNI''), such as the telephone numbers called by 
customers and the length of time of the calls. Section 222 is an 
example of a detailed privacy statute which gave authority to the 
Federal Communications Commission (``FCC'') to enact even more detailed 
privacy rules.
    Section 222 defines ``CPNI'' as information that relates to the 
quantity, technical configuration, type, destination, location, and 
amount of use of a telecommunications service that is made available to 
the carrier by the customer solely by virtue of the carrier-customer 
relationship. The Act excludes from the definition of CPNI several 
categories of information, including:

<bullet> subscriber list information such as name, address and 
        telephone number;
<bullet> aggregate customer information from which individual customer 
        identities have been removed; and
<bullet> data from other sources such as data from non-telecom services 
        and data purchased from third parties.
    Section 222 provides that, except with customer approval, a carrier 
receiving or developing CPNI by virtue of providing a 
telecommunications service shall use individually identifiable CPNI 
only to provide the type of service from which the CPNI is derived. In 
applying this rule, the FCC divided telecom services into three 
categories: local; long distance and wireless services. Under the FCC 
approach, long distance CPNI can be used to provide and market long 
distance services, but generally may not be used to market local or 
wireless service, for example. The FCC also ruled that when a customer 
purchased service in more than one category from a carrier, the CPNI 
rules did not prevent the carrier from dealing with the customer on the 
basis of the overall service relationship, even though that 
relationship covered multiple service categories.
    The FCC decided that customer consent for the purpose of Section 
222 should mean express affirmative opt-in consent given after the 
customer has received notice of what the customer's CPNI rights were. 
These consent rules, together with the FCC's other implementing rules, 
were vacated on appeal by the Court of Appeals. See U.S. West, Inc. v 
FCC, 182 F3d 1224 (10th Cir. 1999). The Court held that the FCC's 
requirement of an affirmative opt-in consent violated the First 
Amendment by restricting protected commercial speech. The FCC has not 
yet acted on remand from the Court, although it believes that its 
rules, with the exception of the affirmative opt-in consent 
requirement, are still in effect.
    Having restricted how information may be used by a carrier, Section 
222 contains no further obligation on carriers to inform customers 
about how information is used and contains no restrictions on the 
collection of CPNI, just on its use and disclosure. There is no private 
right of action against carriers for violations of Section 222 and no 
express preemption of state laws.
                           iii. the cable act
    As is true in the telecommunications industry, the historical 
commitment to consumer privacy in the cable industry is very strong. 
That historical commitment is bolstered by detailed privacy rules in 
Section 631 of the Cable Communications Policy Act of 1984, as amended 
by the Cable Television Consumer Protection and Competition Act of 1992 
(47 U.S.C. 551, et seq.). Section 631 applies to cable services and to 
``other services'' provided by the cable operator over cable 
facilities. Such ``other services'' arguably include not only 
traditional cable services but also broadband Internet service, 
telephony service and interactive television when these services are 
provided over cable facilities. As new services are provided via cable 
facilities, there may be some decisions about which privacy regime 
should apply. For example, Internet/online services offered over cable 
facilities are arguably subject to detailed strict Cable Act privacy 
rules that do not apply to other types of online services delivered via 
other media.
    Section 631 requires cable operators to give each subscriber an 
annual notice concerning the personally identifiable information 
(``PII'') that the operator collects. The notice must also describe how 
the subscribers' PII will be used and disclosed. Upon request by a 
subscriber, a cable operator also must give access to all PII about the 
subscriber that the cable operator collects and maintains.
    The Cable Act generally prohibits the collection or disclosure of 
subscribers' PII without their prior written or electronic consent. 
There are, however, broad exceptions to this prior consent obligation. 
The exceptions include:

<bullet> the disclosure of customer names and addresses if customer 
        notice and an opt-out opportunity is first provided and 
        disclosure does not reveal viewing patterns or the nature of 
        transactions performed by the customer; and
<bullet> disclosures that are ``necessary to render, or conduct a 
        legitimate business activity related to a cable service or 
        other service provided by a cable operator.''
    Under the Cable Act, PII may only be disclosed to law enforcement 
officials pursuant to a court order. Moreover, the Act requires that 
such an order should only issue if the subscriber has been afforded an 
opportunity to appear and contest the law enforcement request for 
information.
    A cable operator that violates the privacy protections set forth in 
Section 631 is subject to actual and punitive damages and to awards of 
attorneys' fees to prevailing plaintiffs. The statute defines 
``actual'' damages to include liquidated damages computed at the higher 
of $100 a day for each day of violation or $1,000, whichever is higher. 
Thus, no actual harm arguably needs to be demonstrated to collect such 
``actual damages.''
    The broad scope of Section 631 creates certain tensions. Telephony 
service provided over telephone facilities is subject only to the CPNI 
rules set forth in Section 222 of the Communications Act. Telephony 
service provided by a cable operator over cable facilities appears also 
to be subject to Section 631, an entirely different set of rules. 
Although the details of CPNI implementation are currently unclear, the 
now-vacated rules issued by the FCC had different consent mechanisms, 
different notice procedures and different use restrictions than those 
in Section 631.
               iv. electronic communications privacy act
    The Electronic Communication Privacy Act of 1986 (``ECPA''), 18 
U.S.C. 2510-2522; 2701; was enacted to address potential privacy issues 
related to the growing use of computers and other new forms of 
electronic communications. It added provisions to the federal criminal 
code that extended the prohibition against the unauthorized 
interception of communications to specific types of electronic 
communications, including e-mail, pagers, cellular telephones, voice 
mail, remote computing services, private communication carriers, and 
computer transmissions. The Act also identified situations and types of 
transmissions that would not be protected, most notably an employer's 
monitoring of employee electronic mail on the employer's system.
    ECPA extended Title III privacy protections to the transmission and 
storage of e-mail and other digitized textual information. ECPA 
restricted government access to subscriber and customer records 
belonging to electronic service providers. Unless they have the consent 
of the subscriber or customer, government agencies must first secure a 
criminal warrant, court order, or an authorized administrative or grand 
jury subpoena to access service provider records.
    ECPA requires the government to give a subscriber or user fourteen 
days' notice before information is disclosed, but it allows delayed 
notice if there are exigent circumstances such as cases in which notice 
may: endanger the life or physical safety of an individual; lead to 
flight from prosecution or destruction or tampering with evidence; or 
otherwise seriously jeopardize an investigation. 18 U.S.C. sec. 
2705(a)(2). ECPA also states that a service provider has a defense to 
an ECPA violation if it provides information in good faith in response 
to a request by an investigative or law enforcement officer in 
emergency situations such as immediate danger of death or serious 
bodily injury to any person.
    Thus, law enforcement agencies have the ability to obtain 
subscriber information under ECPA with an appropriate court order 
without notifying a subscriber in advance. In contrast to ECPA, the 
Cable Act has no provisions that allow information to be provided to 
law enforcement without notice to a subscriber if such notice would 
threaten an investigation or that address emergency situations.
    This statutory approach creates an issue when law enforcement 
agencies seek the contents of e-mails from broadband Internet service 
providers who offer their services over cable facilities--the Cable Act 
mandates that the subscriber be notified before information is 
disclosed to an agency and ECPA contemplates only that the agency 
obtain a court order.
    While ECPA was designed to protect the content of electronic 
communications, it revised the definition of content to specifically 
exclude the existence of the communication itself, as well as the 
identity of the parties involved. This means that government entities 
such as the Department of Justice and other law enforcement entities 
have a greater ability to obtain information about a subscriber's 
identity and about whether or not the subscriber sent or received a 
particular e-mail than the agencies have to obtain the contents of an 
e-mail itself.
    Oddly, under ECPA, private parties have greater rights to obtain 
the contents of e-mails than law enforcement agencies. The Act requires 
law enforcement agencies to obtain a criminal warrant or court order 
whereas a private party in civil litigation can obtain such information 
simply by having a clerk issue a subpoena. Companies with a commitment 
to privacy, such as AT&T, address this situation by voluntarily 
committing to notify customers in advance of releasing personally 
identifiable information in response to a civil subpoena.
                  v. telephone consumer protection act
    The Telephone Consumer Protection Act of 1991 (47 U.S.C. 227) 
(``TCPA'') was created to govern telephone solicitations and give the 
Federal Communications Commission rulemaking authority to prescribe 
regulations necessary to protect residential individuals' privacy by 
avoiding telephone solicitations to which they object. TCPA in essence 
is a consumer choice statute. It allows consumers to tell companies: 
you may have some personal information about me, but I have the right 
to restrict how you use it, at least with respect to telemarketing.
    The Act, together with the FCC's implementing rules, require 
companies to maintain do not call lists of all individuals who have 
requested to be put on such lists. Unless a specific request is made, 
the individual's do not call request applies to the particular business 
making the call and not to affiliated entities. Under the FCC's rules, 
the do-not-call list obligations apply to the specifically-identified 
telephone numbers of the requesting individuals and thus do not 
continue to apply to all telephone numbers associated with a person's 
name. The do not call obligation lasts for ten years after a request is 
made.
    The TCPA also prohibits telemarketing solicitations to consumers 
before 8 a.m. or after 9 p.m., local time. In addition, it bans 
unsolicited fax messages.
    A person who has received more than one telephone call from a given 
company within any twelve-month period after making a do not call 
request may sue for a TCPA violation. The person may recover the 
greater of actual damages or $500.
    A company must not only establish a do not call list, but also 
establish a do not call policy and make that policy available on 
demand. It also must train telephone solicitation personnel in the 
existence and use of the do not call list. A company has an affirmative 
defense to a TCPA violation if it can show that it established and 
implemented, with due care, reasonable practices and procedures to 
effectively prevent telephone solicitations in violation of the TCPA 
rules.
    The do not call rules have worked fairly well. The ability to rely 
on the affirmative defense of having reasonable TCPA compliance 
procedures in effect is very important for a large company such as 
AT&T. If a complaining individual is on AT&T's do not call list and we 
believe that we did not call the person, it nevertheless is hard to 
prove a negative when a consumer claims that we DID place a call.
    The ten year prohibition in the Act is an example of a provision 
that may warrant re-examination in light changed circumstances, such as 
of the pace with which people move and change telephone numbers in 
today's world. Do not call lists are based on telephone numbers. If 20% 
of the individuals on a do not call list move and get new numbers each 
year, the list will be almost entirely outdated well before the ten-
year restriction expires.
                             vi. conclusion
    AT&T operates under a number of different, and sometimes 
conflicting, federal statutes governing information privacy. These 
statutes restrict AT&T's actions in some respects and impose costs on 
AT&T for customer notices and other requirements. Each one of these 
statutes was enacted to bolster the privacy protections for 
individuals, a goal that AT&T whole-heartedly shares. AT&T has a strong 
corporate commitment to privacy, founded on our view that respecting 
the concerns and interests of our customers is not only the right thing 
to do, but it also makes good business sense. In addition, we take 
seriously our various statutory privacy obligations. We understand that 
consumers want to know how private information about them will be used 
and we recognize that in the competitive marketplace we can only keep 
our customers happy by using such private information with integrity.
    Indeed, AT&T's substantive privacy commitments for the services 
covered by these statutes, and for AT&T's other services, exceed the 
obligations set forth in these privacy statutes.
    Again, I thank the Committee for the opportunity to participate in 
this hearing. I believe it is particularly important to understand the 
scope and overlaps of existing federal statutes before addressing 
potential changes in privacy rules. This hearing provides a valuable 
opportunity to discuss the practical consequences of the existing 
federal privacy statutes as part of a considered and thoughtful 
evaluation of privacy issues. AT&T looks forward to continuing to work 
with the Committee in its review of privacy issues.

    Mr. Stearns. Thank you, Mr. Lamb.
    Ms. Fortney, you're recognized for 5 minutes.

                  STATEMENT OF ANNE P. FORTNEY

    Ms. Fortney. Thank you, Mr. Chairman. Members of the 
subcommittee, I am Anne Fortney. I'm a partner in the 
Washington, DC office of the Lovells law firm. I appreciate the 
opportunity to be here today to talk about information----
    Mr. Stearns. Ms. Fortney, I'm just going to ask you to take 
the microphone just move it a little to your right.
    Ms. Fortney. Can you hear me now?
    Mr. Stearns. Yes, that's much better.
    Ms. Fortney. Thank you. Thank you for telling me that. 
Thank you also again for allowing me to participate into 
today's hearing.
    My testimony discusses the Fair Credit Reporting Act. I 
have more than 25 years' experience working with the Fair 
Credit Reporting Act and other consumer financial services' 
laws. This experience includes enforcing the Fair Credit 
Reporting Act while serving as Associate Director for Credit 
Practices at the Federal Trade Commission and interpreting the 
Act while working as in-house counsel for a national retail 
creditor. More recently in the private practice of law, I have 
helped clients in the consumer reporting and credit granting 
industries comply with this complex law. Based on this 
experience I can say that the Fair Credit Reporting Act is a 
remarkable statute, but it is also a unique statute carefully 
tailored to a unique industry.
    There are several ways in which the consumer reporting 
industry is unique. The first is the significance of a consumer 
report information to this industry. While other businesses may 
collect and disclose consumers' confidential information 
obtained in the course of their dealings with consumers, in the 
course of the consumer reporting industry, this confidential 
information is the stock and trade of the companies involved. 
Consumer reporting agencies collect the information for the 
purpose of selling it to creditors, employers and others with 
legitimate uses for the information. This fact is significant 
in terms of the industry's desire that the information be as 
accurate and complete as possible.
    In addition, consumer report information is usually housed 
in central repositories. This fact is germane to the relative 
ease with which consumer reporting agencies may give consumers 
access to records held concerning them. And this is in contrast 
to other businesses which may not have other information 
compiled in such a central location. The fact that consumer 
reporting agencies house this information in a central data 
base is also relevant in terms of the ability of these 
companies to successfully limit disclosure to those having a 
permissible purpose for the information and to record the 
identity of each person that receives a report on a consumer.
    The consumer reporting industry is also unique because of 
the highly sensitive data involved and the manner in which the 
information is used. This information consists of credit 
reports and other detailed data bearing on consumers' 
confidential personal characteristics. Consumer reports benefit 
consumers as they enable consumers to purchase homes, buy cars, 
rent houses, cash checks and engage in many of the activities 
we take for granted in our day to day lives. At the same time, 
because this information is used to determine consumers' 
eligibility for credit, insurance, employment and similar 
essential economic transactions, consumers could suffer 
significant financial harm if the information is inaccurate.
    In addition, because the data is so highly sensitive, 
consumers could be seriously harmed if the information is not 
kept confidential or is not properly used.
    The Fair Credit Reporting Act provides for the 
confidentiality, the accuracy and relevancy of consumer report 
data. The FCRA protects the confidentiality of consumer 
reports, by permitting them to be disclosed only to those 
persons with a statutorily defined purpose for the information 
involved. The Fair Credit Reporting Act also contains 
provisions designed to promote the maximum possible accuracy of 
the information disclosed and it gives consumers the 
opportunity to see and correct the information on them.
    The FCRA provides for notices to consumers when the 
information is used in a way that is adverse to a consumer's 
interest. Consumers also receive a notice summarizing their 
rights under the FCRA when they obtain their files from a 
consumer reporting agency. These notices and a comprehensive 
enforcement scheme assure the effectiveness of the FCRA in 
protecting consumers' rights in the confidentiality and 
accuracy of the data.
    While these are the essential elements of the Fair Credit 
Reporting Act, it is a detailed and complicated statute. My 
written statement describes more fully the ways in which the 
FCRA works to protect the confidentiality, accuracy and use of 
consumer report information.
    I want to emphasize that the Fair Credit Reporting Act is a 
unique statute, providing protection in a special area of the 
marketplace. It is unique because of the nature of the industry 
involved. It is unique because of the sensitivity of the 
information governed by the statute and it is unique because of 
the harm that improper use of the information can cause 
consumers. The FCRA is also unique because it balances the 
value of a healthy consumer reporting industry against the 
potential harm caused by the misuse of the reported information 
and it carefully tailors its requirements and restrictions to 
this special industry.
    For these reasons, I believe that while the Fair Credit 
Reporting Act works well in protecting consumers' privacy in 
the consumer reporting area, it should not be viewed as a 
paradigm for other privacy legislation in other industries Mr. 
Chairman, that concludes my opening statement. I'd be happy to 
answer any questions from you or other members of the 
subcommittee.
    Mr. Stearns. Ms. Fortney, thank you very much. I think your 
25 years of experience will be useful for us, this country to 
develop another privacy bill.
    [The prepared statement of Anne P. Fortney follows:]
        Prepared Statement of Anne P. Fortney, Partner, Lovells
    Mr. Chairman and Members of the Subcommittee, I am Anne Fortney. I 
am a partner in the Washington, DC office of the international law 
firm, Lovells.<SUP>1</SUP> Thank you for inviting me to participate in 
this Subcommittee's examination of existing federal statutes addressing 
information privacy. My testimony discusses the Fair Credit Reporting 
Act (FCRA) <SUP>2</SUP>.
---------------------------------------------------------------------------
    \1\ My law practice concentrates primarily in the consumer 
financial services field, including the federal consumer protection 
laws and privacy. I have more than twenty five years' experience in 
this area. I have served as the Associate Director for Credit Practices 
at the Federal Trade Commission, have worked as in-house counsel for a 
national retail creditor and more recently have been engaged in the 
private practice of law. A copy of my c.v. is attached.
    \2\ 15 U.S.C. 1681 et seq.
---------------------------------------------------------------------------
    The FCRA governs credit records and similar personal information on 
consumers that is collected and reported by consumer reporting 
agencies. These records contain detailed information about consumers' 
credit accounts, such as outstanding indebtedness, credit limits, 
payment histories, foreclosures, judgments and bankruptcies. The 
records may also include income, employment, insurance data and even 
criminal arrests and convictions.<SUP>3</SUP>
---------------------------------------------------------------------------
    \3\ As evident from this description, consumer reports include more 
than just credit reports. A consumer report is any communication by a 
consumer reporting agency bearing on a consumer's ``credit worthiness, 
credit standing, credit capacity, character, general reputation, 
personal characteristics, or mode of living'' which is used or expected 
to be used or collected for the purpose of serving as a factor in 
establishing the consumer's eligibility for credit or insurance, for 
employment purposes, or for any other purpose authorized under the 
FCRA. FCRA Sec. 603(d)(1); 15 U.S.C. Sec. 1681a(d)(1).
    ``Consumer report'' does not include information solely about 
transactions or experiences between a consumer and the person making 
the report. For example, if a bank reports about a consumer's payment 
history on a credit card issued by the bank, that is not a consumer 
report. The ``transaction'' or experience information is also not a 
consumer report when it is shared among corporate affiliates. In 
addition, corporate affiliates may share consumer report information if 
the consumer involved is notified that this information may be shared 
in this manner, and the consumer is given an opportunity to opt-out of 
its being shared and does not do so. In that case, the information 
involved is not considered a ``consumer report'' for most purposes of 
the Act. FCRA Sec. 603(d)(2); 15 U.S.C. Sec. 1681a(d)(2).
---------------------------------------------------------------------------
    Acting essentially as information clearinghouses, consumer 
reporting agencies <SUP>4</SUP> obtain consumer data on a regular basis 
from creditors, employers, insurers, government agencies, public 
records and similar sources. They then supply this information, upon 
request, to creditors, employers, insurers and others. In the past, 
most consumer reporting agencies were credit bureaus, providing credit 
reports. Today, consumer reporting agencies may also offer employment 
screening, tenant screening, check verification and similar information 
services.
---------------------------------------------------------------------------
    \4\ A consumer reporting agency is ``any person, which, for 
monetary fees, dues, or on a cooperative nonprofit basis, regularly 
engages in whole or in part in the practice of assembling or evaluating 
consumer credit information or other information on consumers for the 
purpose of furnishing consumer reports to third parties, and which uses 
any means or facility of interstate commerce for the purpose of 
preparing or furnishing consumer reports.'' FCRA Sec. 603(f); 15 U.S.C. 
Sec. 1681a(f).
---------------------------------------------------------------------------
    Some consumer reporting agencies also prepare ``investigative 
consumer reports.'' These reports, which are regularly obtained by 
employers and insurance companies, contain information about a 
consumer's character, lifestyle, morals, and general reputation. The 
information reflected in these reports is generally collected through 
personal interviews with friends, neighbors, and associates of the 
consumer.<SUP>5</SUP>
---------------------------------------------------------------------------
    \5\ FCRA Sec. 603(e); 15 U.S.C. Sec. 1681a(e).
---------------------------------------------------------------------------
    The comprehensive consumer reporting network is an essential 
element of our consumer credit system, enabling creditors to make 
credit granting decisions quickly, accurately and efficiently. The 
benefits of this network include greater competition among creditors, 
lower credit costs for consumers and enhanced access to credit. The 
public also benefits when insurers, employers, landlords, merchants, 
banks, and others use the information to determine a consumer's 
eligibility for insurance, employment, a government license or for some 
other business transaction with the consumer (such as to cash a check 
or rent an apartment).
    While the benefits derived from this information network are clear, 
it is also evident that consumers could be significantly harmed if this 
highly confidential, sensitive data were inaccurate, were freely 
disseminated or were to be misused. Inaccuracies in a consumer report 
could result in a consumer being denied credit wrongfully or being 
offered credit on less favorable terms. Inaccurate consumer reports 
could also result in denial of employment, insurance or important 
government benefits. Consumers could be substantially harmed if their 
consumer reports were obtained by former spouses, litigation opponents 
or others if they lack a legitimate purpose for the reports.
    The FCRA was enacted to protect consumers from this kind of 
potential injury. However, because of the important public benefits 
derived from the consumer reporting network, the FCRA does not restrict 
the kind of information that is furnished to consumer reporting 
agencies and generally does not restrict the content of consumer 
reports.<SUP>6</SUP> Instead, the FCRA carefully addresses the 
potential consumer harm resulting from inaccuracies, improper access 
and misuse, and thus is designed to protect consumers in the accuracy, 
confidentiality and proper use of consumer reports. To ensure the 
protection of consumer data used in credit, employment, insurance, and 
other transactions, the FCRA imposes substantial obligations on credit 
bureaus, persons who furnish consumer data to credit bureaus, and 
persons who use consumer reports.
---------------------------------------------------------------------------
    \6\ There are certain limitations on ``obsolete'' information, 
discussed below. See FCRA Sec. 605; 15 U.S.C. Sec. 1681c.
---------------------------------------------------------------------------
    Enacted thirty years ago, the FCRA is remarkable in that it 
embodies many of the privacy concepts considered important today, 
including confidentiality, accuracy, relevance, notice, and access. It 
is important to note that the FCRA's original provisions were largely 
adapted from pre-existing voluntary guidelines of the consumer 
reporting industry, and the privacy concepts embodied in those 
provisions were carefully tailored to the special nature of the 
industry, the sensitive information involved and the significant manner 
in which it was used.
    While the FCRA functions well for the consumer reporting industry, 
it should not be adopted as a paradigm for privacy legislation in other 
industries, where the information may be less sensitive and the uses to 
which it is put may be of less consequence for consumers.
                     confidentiality of information
    The FCRA protects consumers' privacy by restricting the 
distribution of sensitive information maintained by consumer reporting 
agencies. Consumer reporting agencies may provide consumer report 
information only to persons <SUP>7</SUP> who intend to use that 
information for one or more of the ``permissible purposes'' set forth 
in the statute,<SUP>8</SUP> and no person may obtain or use a consumer 
report for any purpose unless the report is obtained for a permissible 
purpose.<SUP>9</SUP> Permissible purposes include determining a 
consumer's eligibility for credit, insurance, or 
employment.<SUP>10</SUP> Users of consumer reports must certify to 
consumer reporting agencies the purposes for which they intend to use 
reports,<SUP>11</SUP> and consumer reporting agencies must maintain 
procedures to ensure that they do not provide consumer report 
information to persons who do not have a ``permissible purpose'' to 
obtain such information.<SUP>12</SUP> The FCRA also effectively 
restricts the onward transfer of consumer report information once a 
user obtains the report.<SUP>13</SUP>
---------------------------------------------------------------------------
    \7\ The term ``person'' means any individual, government entity, or 
business entity. FCRA Sec. 603(b); 15 U.S.C. Sec. 1681a(b).
    \8\ FCRA Sec. 604(a); 15 U.S.C. Sec. 1681b(a).
    \9\ FCRA Sec. 604(f); 15 U.S.C. Sec. 1681b(f).
    \10\ FCRA Sec. 604(a); 15 U.S.C. Sec. 1681b(a).
    \11\ FCRA Sec. Sec. 604(f), 607(a); 15 U.S.C. Sec. Sec. 1681b(f), 
1681e(a).
    \12\ FCRA Sec. 607(a); 15 U.S.C. Sec. 1681e(a).
    \13\ If a user of a consumer report regularly supplied consumer 
reports to an unaffiliated third party, that user could become a 
consumer reporting agency because of the Act's definition of that term. 
See FCRA Sec. 603(f); 15 U.S.C. Sec. 1681a(f). The FCRA's intricate 
compliance responsibilities for consumer reporting agencies discourage 
users from assuming that burden of becoming a consumer reporting agency 
and thus prevent the onward transfer of consumer report information to 
those that do not have a permissible purpose.
---------------------------------------------------------------------------
    The FCRA recognizes that some businesses may obtain consumer 
reports for the purpose of reselling them to others. For example, 
mortgage reporting companies may procure reports from more than one 
credit bureau, and combine them into one report, deleting duplicative 
information. The combined report would be sold to a mortgage lender. 
The FCRA provides for confidentiality of that report in several ways. 
Because the combined report would be a consumer report, its contents 
would be subject to the same protections as other consumer reports. 
Moreover, because the mortgage reporting company is reselling the 
consumer reports that it obtains from the credit bureaus, it must 
certify to each credit bureau from which it obtains a report that it 
will resell the report only for a permissible purpose and must identify 
the end-user of the report.<SUP>14</SUP>
---------------------------------------------------------------------------
    \14\ FCRA Sec. 607(e); 15 U.S.C. Sec. 1681e(e).
---------------------------------------------------------------------------
    The FCRA also imposes restrictions on ``prescreened'' reports, 
limiting the information they may contain.<SUP>15</SUP> Moreover, 
consumer reporting agencies must give consumers the opportunity to opt 
out of receiving ``prescreened'' unsolicited offers of credit or 
insurance.<SUP>16</SUP> When consumer reports are used in connection 
with credit or insurance prescreening, the user must give the consumer 
a clear and conspicuous statement of the consumer's rights with each 
written solicitation and must maintain certain records with respect to 
the solicitation.<SUP>17</SUP>
---------------------------------------------------------------------------
    \15\ FCRA Sec. 604(c); 15 U.S.C. Sec. 1681b(c). Prescreened 
consumer reports may contain only name and address, a unique identifier 
code (not the consumer's social security number), and other data that 
does not identify the relationship or experience of the consumer with 
respect to a particular creditor or other entity.
    \16\ FCRA Sec. 604(e); 15 U.S.C. Sec. 1681b(e).
    \17\ FCRA Sec. 615(d); 15 U.S.C. Sec. 1681m(d).
---------------------------------------------------------------------------
    In addition to limiting the use of consumer reports to those with 
``permissible purposes'' and imposing other restrictions on use, the 
FCRA imposes obligations under specific circumstances, such as in the 
case of ``investigative consumer reports.'' <SUP>18</SUP> Special 
obligations are also imposed on consumer reporting agencies and users 
of consumer reports when the reports are used for employment 
purposes.<SUP>19</SUP>
---------------------------------------------------------------------------
    \18\ FCRA Sec. 606; 15 U.S.C. Sec. 1681d. Before anyone may obtain 
an investigative consumer report, he must notify the consumer of the 
consumer's right to request a complete disclosure of the nature of the 
investigation requested.
    \19\ FCRA Sec. 604(b); 15 U.S.C. Sec. 1681b(b). For example, the 
consumer must have authorized in writing that the report may be 
obtained, and the user of the report must give the consumer an 
opportunity to review the report before taking an adverse action based 
on the report.
---------------------------------------------------------------------------
    The FCRA also protects consumers' confidentiality by making it a 
crime for anyone to obtain a consumer report from a consumer reporting 
agency under false pretenses.<SUP>20</SUP> It is also a crime for an 
employee of a consumer reporting agency to knowingly and willfully 
provide a consumer report to an unauthorized person.<SUP>21</SUP> In 
addition, anyone who obtains a consumer report from a consumer 
reporting agency under false pretenses or knowingly without a 
permissible purpose would be liable to the consumer reporting agency 
for actual damages or for $1,000, whichever is greater.<SUP>22</SUP> 
These provisions create an effective deterrent against deliberate 
misappropriation of consumer reports.
---------------------------------------------------------------------------
    \20\ FCRA Sec. 619; 15 U.S.C. Sec. Sec. 1681q.
    \21\ FCRA Sec. 620; 15 U.S.C. Sec. 1681r.
    \22\ FCRA Sec. 616(b); 15 U.S.C. Sec. 1681n(b).
---------------------------------------------------------------------------
                        accuracy of information
    Because of the ways in which consumer reports are used and the 
significance of their use in consumers' lives, accuracy is a key 
concern. Because consumer reporting agencies are the secondary source 
of the information they report, they must take steps to ensure that 
errors are not made in recording or transmitting data and to ensure 
that the information reported is not misinterpreted by the inquirer. 
However, given the billions of items of information transmitted 
electronically to and from consumer reporting agencies, perfect 
accuracy is impossible, and the FCRA recognizes this fact. For that 
reason, the FCRA does not impose strict liability on consumer reporting 
agencies for report inaccuracies. Rather, the statute requires consumer 
reporting agencies to follow ``reasonable procedures to assure maximum 
possible accuracy of the information'' they report.<SUP>23</SUP>
---------------------------------------------------------------------------
    \23\ FCRA 607(b); 15 U.S.C. 1681e(b).
---------------------------------------------------------------------------
    Recognizing that even accurate information may be misunderstood if 
it is not complete, the FCRA also requires consumer reporting agencies 
to disclose certain information when it pertains to the consumer 
reports they supply. Specifically, they must disclose the chapter of 
any bankruptcy they report (such as Chapter 7 or Chapter 13), whether a 
closed account was closed voluntarily by a consumer, and whether report 
information is disputed by a consumer.<SUP>24</SUP>
---------------------------------------------------------------------------
    \24\ FCRA Sec. Sec. 605(d)(e)(f); 15 U.S.C. 
Sec. Sec. 1681c(d)(e)(f).
---------------------------------------------------------------------------
    When the FCRA was enacted, obligations to assure accuracy of 
consumer reports were limited to consumer reporting agencies. Over 
time, however, it became evident that consumer report inaccuracies 
could also be due to errors by furnishers in providing data to these 
agencies. (Furnishers are, for example, banks that provide credit 
account payment histories.) For that reason, Congress amended the FCRA 
to impose certain duties on furnishers as well. These duties include 
furnishing accurate data, not knowingly reporting false data, 
correcting and updating data, and notifying consumer reporting agencies 
if consumers dispute the accuracy of the information they 
furnish.<SUP>25</SUP>
---------------------------------------------------------------------------
    \25\ FCRA Sec. 623(a); 15 U.S.C. Sec. 1681s-2(a).
---------------------------------------------------------------------------
    From the beginning, the FCRA recognized that consumers are in the 
best position to correct inaccurate information or require that it be 
updated. For that reason, the FCRA requires consumer reporting agencies 
to give consumers reasonable access to their files and to see all the 
information that could be reported on them.<SUP>26</SUP>
---------------------------------------------------------------------------
    \26\ FCRA Sec. Sec. 609, 612; 15 U.S.C. Sec. Sec. 1681g, 1681j. 
However, credit scores need not be disclosed.
---------------------------------------------------------------------------
    Because of the potential harm resulting from inaccuracies in 
consumer reports when the reports are used as a basis for declining 
applications for credit, employment, insurance or for similar uses, the 
FCRA requires users of consumer reports to notify a consumer when they 
take an adverse action based on his or her consumer 
report.<SUP>27</SUP> A similar notice is required when the adverse 
action is based on certain information that the user obtained from a 
corporate affiliate.<SUP>28</SUP> Consumer notice is also required when 
credit is denied or the charge for credit is increased based on certain 
information from a third party other than a consumer reporting 
agency.<SUP>29</SUP>
---------------------------------------------------------------------------
    \27\ FCRA Sec. 615(a); 15 U.S.C. Sec. 1681m(a).
    \28\ FCRA Sec. 615(b)(2); 15 U.S.C. Sec. 1681m(b)(2).
    \29\ FCRA Sec. 615(b)(1); 15 U.S.C. Sec. 1681m(b)(1).
---------------------------------------------------------------------------
    Consumer reporting agencies and furnishers of consumer information 
must reinvestigate information when a consumer disputes the accuracy or 
completeness directly to the consumer reporting agency.<SUP>30</SUP> If 
the information cannot be verified, it must be deleted.<SUP>31</SUP> If 
the dispute is not resolved to the consumer's satisfaction, consumer 
reporting agencies must allow consumers to include in their file a 
brief statement to the effect that the consumer believes the 
information to be incomplete or inaccurate.<SUP>32</SUP>
---------------------------------------------------------------------------
    \30\ FCRA Sec. Sec. 611, 623; 15 U.S.C. Sec. Sec. 1681i, 1681s-2.
    \31\ FCRA Sec. 611(a)(5); 15 U.S.C. Sec. 1681i(a)(5).
    \32\ FCRA Sec. 611(b); 15 U.S.C. Sec. 1681i(b).
---------------------------------------------------------------------------
    Consumer reporting agencies have special obligations with respect 
to the accuracy of public record data used for employment purposes 
which is likely to have an adverse effect on a consumer. (Examples of 
public record information include bankruptcies, DUI and other criminal 
arrests and convictions.) <SUP>33</SUP> For instance, consumer 
reporting agencies must maintain strict procedures to ensure that 
public record data is up-to-date and accurate, or they must notify the 
consumer of the person to whom the adverse information is being 
reported.<SUP>34</SUP>
---------------------------------------------------------------------------
    \33\ FCRA Sec. 613; 15 U.S.C. Sec. 1681(k).
    \34\ Id.
---------------------------------------------------------------------------
                        relevance of information
    The FCRA reflects a Congressional determination that, at some 
point, adverse information about a consumer's past credit history 
becomes so old that it should not be relied upon as an indicator of the 
consumer's present creditworthiness. To address this concern about 
reliance on ``obsolete'' information, the FCRA prohibits reporting 
certain adverse information that is more than seven years old. For 
example, civil judgments, charged-off accounts, or paid tax liens that 
are more than seven years old may not be reported. Statutory exceptions 
to this general rule permit unlimited reporting in connection with 
credit or insurance transactions for more than $150,000 and employment 
transactions for more than $75,000. In addition, bankruptcies may be 
reported for ten years, and criminal convictions are not subject to any 
time limit.<SUP>35</SUP>
---------------------------------------------------------------------------
    \35\ FCRA Sec. 605; 15 U.S.C. Sec. 1681c. Consumer reporting 
agencies must maintain procedures to ensure that they do not report 
obsolete information. FCRA Sec. 607(a); 15 U.S.C. Sec. 1681e(a).
---------------------------------------------------------------------------
    Special relevance obligations are imposed on consumer reporting 
agencies with respect to ``investigative consumer reports.'' 
<SUP>36</SUP> For instance, they may not reuse investigative consumer 
report data unless it is a matter of public record, is less than 3 
months old, or has been verified in the process of making the 
subsequent consumer report.<SUP>37</SUP>
---------------------------------------------------------------------------
    \36\ FCRA Sec. 614; 15 U.S.C. Sec. 1681l.
    \37\ Id.
---------------------------------------------------------------------------
                              enforcement
    The FCRA establishes an effective enforcement system based on 
notice of rights and obligations, federal administrative enforcement, 
state attorney general enforcement and private right of action.
    The FCRA's notice requirements are comprehensive. Consumer 
reporting agencies must give consumers a summary of their rights 
whenever they disclose the contents of a consumer's file to the 
consumer.<SUP>38</SUP> In order to ensure that furnishers of 
information and users of consumer reports understand their obligations 
under the FCRA, the statute requires consumer reporting agencies to 
give them written notice of these obligations.<SUP>39</SUP>
---------------------------------------------------------------------------
    \38\ FCRA Sec. 609(c); 15 U.S.C. Sec. 1681g(c).
    \39\ FCRA Sec. 607(d); 15 U.S.C. Sec. 1681e(d).
---------------------------------------------------------------------------
    The FCRA empowers the FTC, the federal banking agencies and other 
federal agencies to bring enforcement actions against consumer 
reporting agencies, furnishers of data, users of consumer reports, and 
any other person who violates the FCRA.<SUP>40</SUP> State attorneys 
general may also sue to enjoin FCRA violations and may sue for damages 
on behalf of their citizens.<SUP>41</SUP> The federal agencies and 
state attorneys general have all of the investigative power that they 
have under their organic or enabling statutes.<SUP>42</SUP>
---------------------------------------------------------------------------
    \40\ FCRA Sec. 621; 15 U.S.C. Sec. 1681s.
    \41\ FCRA Sec. 621(c)(1); 15 U.S.C. Sec. 1681s(c)(l).
    \42\ FCRA Sec. 621; 15 U.S.C. Sec. 1681s.
---------------------------------------------------------------------------
    The FCRA creates a private right of action against consumer 
reporting agencies, furnishers of data, and users of consumer reports. 
Consumers may recover actual damages for negligent violations and 
statutory damages for willful violations. Punitive damages may also be 
recovered as allowed by the court. Successful litigants may also 
recover attorneys fees.<SUP>43</SUP>
---------------------------------------------------------------------------
    \43\ FCRA Sec. Sec. 616, 617; 15 U.S.C. Sec. Sec. 1681n, 1681o.
---------------------------------------------------------------------------
                            state preemption
    The FCRA provides for limited preemption of state laws. Generally, 
the FCRA does not preempt state laws governing the collection, use or 
distribution of any information, except to the extent that those state 
laws are inconsistent with the federal statute.<SUP>44</SUP> In 
addition, the FCRA preempts state laws with respect to the following 
areas: prescreening (Sec. Sec. 604(c) and (e)) and notices contained in 
solicitations to prescreened consumers (615(d)), investigation of 
consumer disputes (611), duties of persons who take adverse action 
based on consumer reports (Sec. Sec. 615(a) and (b)), content of 
consumer reports, and duties of persons who furnish information to 
consumer reporting agencies (623).<SUP>45</SUP> This limited preemption 
may sunset on January 1, 2004 if states enact new laws after that date 
and if the state law explicitly provides that the provision is intended 
to supplement the FCRA and the state law gives greater protection to 
consumers than the FCRA.<SUP>46</SUP>
---------------------------------------------------------------------------
    \44\ FCRA Sec. 624(a); 15 U.S.C. Sec. 1681t(a).
    \45\ FCRA Sec. 624(b), 15 U.S.C. Sec. 1681t(b).
    \46\ Id.
---------------------------------------------------------------------------
                         uniqueness of the frca
    As I have described, the FCRA uniquely governs the confidentiality, 
accuracy, and relevance of consumer credit information and similar 
highly confidential data. The FCRA restricts the disclosure of this 
highly sensitive information to those individuals and companies with 
specific permissible purposes. The FCRA establishes requirements for 
consumer reporting agencies and furnishers of data to assure the 
maximum possible accuracy of the information. Because of the vast 
quantity of data involved, the FCRA recognizes the potential for error 
and creates mechanisms for correcting errors and eliminating inaccurate 
information. The FCRA also imposes time limits for clearing old data 
from consumer records, thus allowing consumers to ``get well'' after 
financial difficulties.
    The FCRA recognizes that faulty credit reports could seriously 
impact the ability of consumers to purchase a house, acquire a car, 
cash checks, or conduct many of the other financial activities we take 
for granted in this country. On the other hand, the FCRA recognizes the 
value of the consumer reporting industry in effecting quick credit 
checks, accurate sharing of crucial financial information, and 
identifying individuals who are bad credit risks. Thus, the FCRA is a 
balanced statute, protecting individuals while allowing the proper 
functioning of an industry that is essential to this country's economic 
machinery. It is important to remember that the original provisions of 
the FCRA were derived from industry voluntary standards, which allowed 
the law to incorporate reasonable business practices.
    The FCRA is a unique statute, providing protection in a special 
area of the market place. It is unique because of the sensitivity of 
the information governed by the statute and unique because of the harm 
that improper use of the information could cause consumers. The FCRA is 
also unique because it has balanced a healthy consumer reporting 
industry with necessary protections for consumers.
    I caution that this effective law for the consumer reporting 
industry should not be adopted as a paradigm for privacy legislature in 
other industries. The unique sensitivity of the information covered by 
the FCRA and the serious harm that could result from improper use of 
this kind of information are generally not duplicated in other 
industries.
    Mr. Chairman, I thank you for the opportunity to provide this 
information to the Subcommittee.

    Mr. Stearns. Mr. Fischer?

                 STATEMENT OF L. RICHARD FISCHER

    Mr. Fischer. Mr. Chairman, members of the committee, my 
name is Richard Fischer. I'm a partner in the law firm of 
Morrison & Foerster. Like Anne, I've worked in this area for 
some time, nearly three decades. I'm also the author of a 
leading treatise in this area, the Law of Financial Privacy. 
I'm very pleased to be here. I have an easier task. I've been 
asked to address a recent statute, one more familiar with this 
group, the Gramm-Leach-Bliley privacy provisions.
    But first, I want also to applaud you and the committee on 
this series of hearings. As someone who has spent three decades 
on privacy issues, I've learned one thing. Privacy seems 
deceptively simple, but it's the most complex issue that I've 
ever worked on.
    In terms of Gramm-Leach-Bliley, it establishes the most 
comprehensive financial privacy requirements of any Federal 
legislation ever enacted. It requires each financial 
institution to provide every customer with a written statement 
of its policies for protecting consumer privacy. In addition, 
every financial institution must give its customers the 
opportunity to prohibit, that is to opt out, of the disclosure 
of information to third parties beyond a series of exceptions 
that are set forth in the statute itself. These requirements 
become fully effective on July 1 of this year, that is in just 
88 days.
    Many financial institutions, however, have provided 
customers with privacy policies well before Gramm-Leach-Bliley. 
But the new law has required financial institutions, in fact, 
every institution, to reassess its policies and to implement 
extensive compliance programs to satisfy the Act's new notice 
and opt-out requirements.
    For larger institutions, compliance has been a multi-phased 
effort involving literally hundreds of individuals throughout 
the organization. Both the scope and intensity of these efforts 
can only be described as Herculean. In my experience, no other 
piece of consumer legislation has ever engendered or required 
this magnitude of response.
    Financial institutions have had to fully examine their 
information practices that flow into and out of financial 
institutions; make difficult business judgments attempting to 
weigh possible consumer privacy concerns against the 
efficiencies and consumer benefits of using this information; 
and, establish their policies to set forth this judgment.
    Financial institutions have developed privacy notices 
explaining their policies to customers, and are not in the 
process of putting into place programs to ensure that employees 
adhere to these policies in a rigorous way.
    This has also been quite a competitive process. I have 
reviewed literally scores of privacy policies and they vary 
greatly. Many financial institutions are going beyond the 
requirements of the Gramm-Leach-Bliley Act. They're also making 
extra efforts to explain their policies to their customers and 
to explain, in particular, the benefits of information sharing 
to those customers. In many cases, institutions have further 
reduced the information available to others including their 
servicing companies. And in virtually all cases, institutions 
have increased controls over the use and the disclosure of 
information.
    As a result, even though the Act is not yet fully 
effective, it's already increased the historically high level 
of confidentiality employed by financial institutions.
    But this is only the beginning. Under the Act itself, 
companies receiving information from financial institutions 
must also ensure that the use of that information is limited to 
the purpose for which it's provided. This requires segregation 
of information according to the purpose for which it was 
received, tagging of information to identify its origin and 
permissible uses.
    It is far too early to assess the full effect of Gramm-
Leach-Bliley on financial privacy. Consumers are just beginning 
to receive their initial privacy notices. Tens of thousands of 
financial institutions will be mailing billions of privacy 
notices to their customers over the course of the next 3 
months. And I did say billions of privacy notices. Most 
consumers will receive 20 or more notices in this context. The 
notice will evidence a variety of choices and in fact, how 
consumers exercise those choices will tell us an awful lot 
about consumer privacy preferences and in particular about 
their appreciation of the benefits of information. Financial 
institutions also will be watching the actions of their 
competitors, because in fact, this has become a very, very 
competitive issue. In other words, market transparency and the 
role of market forces in shaping privacy practices will 
dramatically increase over the next several months.
    Thank you again for the opportunity to appear here and I 
also would be pleased to answer any questions.
    [The prepared statement of L. Richard Fischer follows:]
    Prepared Statement of L. Richard Fischer, Partner, Morrison and 
                                Foerster
    My name is L. Richard Fischer. I am a partner of Morrison & 
Foerster and I practice in the firm's Washington, D.C. office. I have 
nearly three decades of experience in advising banks and other 
financial services companies on retail banking matters, including 
privacy, and I am the author of the leading treatise on this subject--
The Law of Financial Privacy. I am pleased to have the opportunity to 
appear before you today to address the issue of information privacy and 
the requirements of the recently enacted Gramm-Leach-Bliley Act.
    As you are aware, the Gramm-Leach Bliley Act (the ``GLBA'') 
established the most comprehensive financial privacy provisions of any 
federal legislation ever enacted by Congress. The GLBA requires each 
financial institution to provide every customer with a clear and 
conspicuous statement of the institution's policies and practices for 
protecting the privacy of customer information. In addition, each 
financial institution must provide its customers with notice, and an 
opportunity to prohibit, or opt out of, the disclosure of information 
to nonaffiliated third parties. Under regulations promulgated to 
implement the GLBA, these requirements become fully effective on July 
first of this year. Currently the financial services industry is in the 
midst of readying itself for this July 1, 2001 effective date. Not only 
are financial institutions putting in place programs to comply with the 
notice and opt out requirements of the GLBA, but they also are 
reviewing and revising their corporate information policies and 
practices. In fact, it simply is not possible for a financial 
institution to craft a privacy notice without first conducting an 
inventory of its current information practices and shaping those 
practices prospectively in a manner consistent with that privacy 
notice. As a result, financial institutions have been reviewing, and 
where appropriate restructuring, their relationships with third party 
servicers and other companies to further limit the disclosure of 
information about consumers, and to increase their control over 
information when it is disclosed.
    The full effects of the implementation of the GLBA will not be 
apparent for some time. Nevertheless, from first hand experience in 
working with a wide variety of financial institution clients, I can 
attest that the changes in market practices that already have resulted 
from the GLBA have increased the high level of confidentiality with 
which financial institutions have historically treated their customer 
information. Further, the privacy notices required by the GLBA, which 
consumers have already begun to receive, can be expected to raise 
consumer awareness of privacy-related issues. This will enable market 
forces to further shape information practices to reflect even more 
closely consumer expectations.
                       the gramm-leach-bliley act
    The GLBA applies to a broad range of financial institutions. It 
sweeps within its coverage not only traditional banks, securities 
firms, and insurance companies, but also all other providers of 
financial products and services as defined under section 4(k) of the 
Bank Holding Company Act. As a result, retailers issuing credit cards, 
money transmitters, check cashers, mortgage brokers, real-estate 
settlement services, appraisers, tax preparation services and even 
online companies that offer aggregation, funds transfer or payment 
services are all financial institutions under the GLBA.
    Because of the GLBA, no company that provides financial products or 
services to individuals for personal family or household purposes may 
provide non-public information about those individuals to a 
nonaffiliated third party for any purpose outside of a specific list of 
exceptions without first giving the individuals an opportunity to opt 
out of that disclosure of information.
    In addition, at the time of establishing a retail customer 
relationship with an individual, and at least annually thereafter 
throughout the entire life of that relationship, a financial 
institution must provide the customer with a clear and conspicuous 
disclosure of the institution's policies and practices with respect to 
the disclosure of personal information to both affiliates and 
nonaffiliated third parties. This detailed notice must describe, among 
other things, the categories of information collected by the 
institution, the categories of information to be disclosed, the 
categories of persons to whom information may be disclosed and the 
institution's policies for protecting the confidentiality and security 
of the information. And this disclosure obligation applies even if the 
financial institution discloses no information to third parties. Where 
information is disclosed to third parties, it is subject to reuse and 
redisclosure limitations to ensure that the use to which information is 
put is consistent with the purpose for which the information was 
disclosed.
    These statutory requirements are implemented by regulations adopted 
by seven federal agencies, including the bank supervisory agencies, the 
Securities and Exchange Commission and the Federal Trade Commission, as 
well as by rules adopted by the States for insurance companies.
    Many financial institutions adopted privacy policies and 
communicated them to their customers well before the adoption of the 
GLBA, and they have a long history of treating customer information as 
confidential. However, the specific requirements of the GLBA and the 
implementing agency regulations have required all financial 
institutions to reassess their policies and practices concerning the 
collection and use of customer information, and to implement compliance 
programs to satisfy the new GLBA requirements for notices and opt-outs.
                     the implementation experience
    I have been deeply involved in advising a wide variety of financial 
institutions on their efforts to comply with the GLBA. For larger 
institutions, compliance has been a multiphased effort involving 
individuals from throughout the organization, including its policy, 
operations, information management, legal, and compliance functions. 
Both the scope and intensity of these efforts have been Herculean; so 
will the resulting communication onslaught--tens of thousands of 
financial institutions sending billions of privacy notices to consumers 
throughout the country. In my experience no other piece of consumer 
legislation has engendered or required a response of this magnitude.
    Financial institutions have conducted comprehensive surveys of 
every aspect of their practices concerning consumer information and 
evaluated those practices in terms of the expectations and preferences 
of their customers. They have made difficult business judgments 
weighing the possible privacy concerns of their customers against the 
efficiencies and consumer benefits of using customer-related 
information to identify and respond to the needs of those 
customers,<SUP>1</SUP> and established policies and practices to 
reflect those judgments. Financial institutions have developed notices 
explaining these policies and practices to their customers, and have 
put in place programs to ensure that the notices are delivered to 
customers and that their employees adhere to these policies and 
practices, not only in spirit, but in a rigorous way.
---------------------------------------------------------------------------
    \1\ Recent studies have begun to explore and detail the consumer 
benefits of collecting and using consumer information, including a 
survey by Ernst & Young of the banking, insurance and securities firms 
that are members of the Financial Services Round Table (A copy of this 
study is attached to my testimony). Other benefits are catalogued in a 
recent paper prepared for the American Enterprise Institute by 
Professor Fred H. Cate of the Indiana University School of Law, 
entitled Privacy in Perspective (a copy of the paper also is attached 
to my testimony). [The study and the paper are available on the 
Committee on Energy and Commerce website.]
---------------------------------------------------------------------------
    This also has proved to be a highly competitive process. Although I 
have reviewed scores of privacy notices, few look alike. Financial 
institutions have designed their privacy notices to address the 
preferences and concerns of their customers as they perceive them. Some 
financial institutions are even establishing tailored policies and 
providing special notices for different types of financial products or 
programs in order to ensure that the privacy expectations of those 
customers are met. Many financial institutions have tested their 
policies on focus groups in order to determine whether they have 
assessed their customer preferences correctly, and some of these 
institutions have had to return to the drawing boards when they 
concluded that they did not access those preferences correctly.
    Even where information about consumers will be shared with 
servicers and other third parties, many financial institutions are 
going well beyond the regulatory requirements for disclosure to explain 
their practices to consumers and to explain how consumers benefit from 
those practices. In many cases institutions have curtailed the flow of 
information and restructured business relationships to limit the 
disclosure of information about their customers, particularly to 
nonaffiliated third parties. In virtually all cases, the process has 
lead to increased controls over the use and disclosure of information 
about consumers, even where that information is necessary to service 
and maintain customer relationships.
    But the efforts to date are only the beginning. Because of the 
importance that the GLBA places on limiting the subsequent use and 
redisclosure of information about consumers, financial institutions and 
the outside companies that assist them in servicing their customers, 
must review and revise their outsourcing agreements and implement 
procedures to ensure that customer information is used only in 
accordance with applicable privacy policies. They also must ensure that 
they comply with the reuse and redisclosure limitations in the GLBA and 
the implementing agency regulations. In many cases, this requires the 
segregation of information according to the purpose for which it was 
received, or separately tagging information to indicate its origin and 
permissible uses.
                             going forward
    At this time, it is far too early to assess the full effect that 
the GLBA will have on financial privacy. Consumers are just beginning 
to receive their initial privacy notices for their existing customer 
relationships. Most consumers will receive several notices--perhaps 20 
or more privacy notices each. These privacy notices will evidence a 
variety of choices with respect to the sharing of information about 
them with third parties. How consumers exercise those choices will tell 
us much about consumer privacy preferences and their appreciation of 
the many benefits of information sharing. In addition, financial 
institutions will be watching the actions of their competitors, as well 
as the responses of their customers, and then carefully revising or 
adjusting their policies accordingly. In other words, market 
transparency--and accordingly the role of market forces in shaping 
privacy practices--will increase dramatically over the next few months.

    Mr. Stearns. Thank you, Mr. Fischer.
    Mr. Richard Smith of the Privacy Foundation, the Chief 
Technology Officer, we're pleased to have your opening 
statement.

                  STATEMENT OF RICHARD M. SMITH

    Mr. Smith. First off, I'd like to thank the committee and 
the chairman for the opportunity to speak today. I am not a 
lawyer, so I'm going to be talking more about technology, but I 
was asked to talk about the TiVo service in a recent privacy 
advisory put out about it. But I think what it really 
illustrates here is how new technology is going to be putting 
pressure on existing laws. I'm a technologist and clearly we 
can all see the Internet and what it's done for privacy and 
also cell phones.
    What we're seeing now with services like TiVo is that some 
of these Internet surveillance techniques that are used are 
coming to our consumer electronic devices. TiVo is basically a 
VCR on steroids, if you will. It allows, it has a computer and 
it's used to store TV programs on a hard disk. And it's what 
VCRs should have been 20 years ago, rather than having a 
blinking light saying what time is it, this device allows us to 
very easily record TV programs. And it does this by having 
electronic program guide. So all we do is if we just point our 
remote control at the electronic program guide, it allows us to 
record our TV programs. Now what's interesting about this VCR 
is the fact that it has a telephone connection, that it has to 
have a telephone connection in order to get the electronic 
program guide information. So at the Privacy Foundation, 
whenever we see a telephone line, we wonder well, what kind of 
information is going back and forth. And so we took a look at 
actually sniffing or listening in on that conversation between 
a TiVo box and the TiVo service to learn the information 
transfer in both directions. So of course, we saw the 
electronic program guide information coming down, but we also 
saw other information going back, such as the internal 
temperature of the box and keys that are being pressed on the 
remote control and also viewing information of what programs we 
had watched on our VCR unit. And we found this very 
interesting.
    So we then went and took a look at in the TiVo service to 
try to understand what kind of notice and choice provisions 
TiVo was giving to consumers about this action. So I'll just 
read here real briefly a statement from the manual. It says 
``Will the TiVo service collect information about my viewing 
habits?'' And this is in the manual that came with the box and 
I'll skip over some of the initial things that were said, but 
the sentence that really caught our eye says, ``Unlike the 
Internet, all your personal viewing information remains on your 
PTP receiver in your home.'' PTP receiver being the TiVo box. 
To our mind, that statement contradicts directly what we had 
seen. But if you go back and read the privacy promise that they 
have in the manual which is more of a legal agreement, it's 
about five pages long, they actually go through and describe 
what they actually mean here. And the issue here gets down to--
they give a very mixed message. The TiVo service and the 
privacy policy, if you read it, if you go through those five 
pages, you'll learn that they anonymize this viewing 
information. So even though this information is about the TV 
programs you watch, they strip off any names or addresses 
associated with it. But you would never really know that if you 
simply read the operational instructions that came with the 
device.
    So from our perspective, there was a real problem here of 
properly alerting consumers about how information is being 
used. And this is a device that's being put in our house and 
it's one of the first devices that are going in our house this 
way besides our home computers that are going to report back 
information. And so we felt that in our advisory that there had 
to be a much better way of doing this, to let consumers know so 
that they trust these devices that we're dropping into our 
houses. And we said well, this is a TV device, it hooks up to 
the TV. Why can't the TV screen say what it's doing? So what we 
recommended to the company that they put a notice on the TV 
screen at the time you set up the box saying we'd like to have 
the TiVo service be better and one way we can do that is learn 
about what TV shows you watch. Would you like to participate in 
this program, yes or no? And we thought that a much better 
approach than the current approach that we have here with the 
TiVo being kind of doing it on the sly.
    The TiVo debate is like a lot of the other privacy debates 
that we've had of opt-in and opt-out. They do offer an opt-out, 
you know, which is described in that five-page legal agreement. 
It's kind of funny that our VCRs now need a five-page legal 
agreements to describe how they work. But in there, there's an 
800 number you can call up and opt-out of this collection 
process. Again, there's a TV set, we felt that that was much 
more appropriate, just a button to push on the TV set. We 
called up and it took close to 15 minutes to opt-out of this 
data collection practice on the time that we did. So again, we 
look at fairness issues here with these devices.
    We're not opposed to necessarily the device wants to 
collect this information as long as it does it with adequate 
notice, an important notice to really let a consumer know 
what's going on and the ability to opt-out.
    Now TiVo, we just look at the tip of the iceberg. What we 
really see over this next decade is consumer electronics 
becoming web-enabled and using the Internet to communicate back 
information. So we don't look at it this is just a TiVo issue, 
but the on-going issue of digital television, digital cable.
    Thank you very much for this opportunity. I'd be happy to 
answer questions.
    [The prepared statement of Richard M. Smith follows:]
   Prepared Statement of Richard M. Smith, Chief Technology Officer, 
                           Privacy Foundation
    The Privacy Foundation today released its first Privacy Advisory 
regarding a set-top box: the TiVo personal video recorder. It seems 
clear from our research that many of the privacy issues dogging the 
Internet (tracking individual behavior, opt-in/opt-out, and murky 
privacy policies) are headed straight for your TV set.
    The best way to describe TiVo is as a VCR on steroids. Rather than 
using video tape to record TV programs, it uses a hard disk, with up to 
60 hours of recording time in one model. The box is controlled by an 
internal computer that comes with sophisticated software, along with an 
electronic programming guide, that makes it easy to identify and record 
TV programs and watch them later. You can even program it to record 
shows up to two weeks in advance.
    TiVo has the TV industry very concerned because TiVo viewers can 
easily fast-forward through ads. But TiVo's investors and partners 
include some of the biggest players in the game: NBC, AOL Time Warner 
and Nielsen Media Research. I'll tell you what I think is going on with 
them later in the column.
    But first, the snoopy part.
    Because a TiVo box plugs into the phone line, we were very 
interested in learning what our TiVo box says when it phones home to 
TiVo. The phone line is primarily used to download TV schedules to the 
box, but it can also upload information back to TiVo. In particular, we 
wanted to find out if it reports back to TiVo what we are watching on 
TV. We also wanted to know out how up-front TiVo is in telling 
subscribers about any tracking that might be done. This meant reading 
marketing literature, TiVo manuals, terms of service agreements, and 
TiVo's filings with the SEC.
    To read the advisory in full, click here. I'll summarize some of 
the key findings below.
    To answer our first question, ``Does a TiVo box spy?,'' Dr. David 
Martin, the technical lead at the Privacy Center at the University of 
Denver, created a modem sniffer set-up that allowed him to watch all 
the data that passed back and forth between his TiVo box and TiVo 
servers. He found that the TiVo box was very talkative. He saw that it 
was sending back the following types of information back to the TiVo:

<bullet> His customer ID number for the TiVo service
<bullet> Times and dates when he was using the TiVo box
<bullet> The internal temperature of the box
<bullet> Some button presses on the TiVo remote control
<bullet> Information about what TV programs he was watching
    Much of the data being sent back looked like telemetry from a NASA 
rocket launch. Pretty amazing stuff for a consumer electronics gadget! 
Dr. Martin then put on his detective hat and figured out how all this 
data was organized. He discovered that the TiVo box actually sends out 
two separate files during its nightly phone call.
    When comparing the data collected by TiVo with its stated privacy 
policies, Dr. Martin drew the following conclusion: ``TiVo receives all 
of the information necessary to attribute the viewing information to a 
particular subscriber during this phone call but gives no indication of 
this fact in any of its documentation.''
    What's going on? Part of the mystery is solved in the ``TiVo 
Privacy Promise'' in the back on the user manual. Basically, TiVo 
claims it doesn't use ``personal viewing information'' that could be 
tied to a particular individual. However, it does use ``anonymous 
viewing information,'' which is that same information, stripped of 
personal identifiers, and aggregated for data mining purposes. A phone 
call to TiVo executives confirmed that this is how it works. TiVo 
allows subscribers to opt-out of providing ``anonymous viewing 
information,'' though the company admits that only a small percentage 
of subscribers do that. Probably that's because TiVo doesn't exactly 
promote this opt-out feature in their marketing materials and legal 
agreements.
    My bottom line here is that TiVo isn't playing very fair with their 
customers, who number more than 150,000. Even if it is ``anonymous'' 
information about what TV shows people are watching, TiVo needs to do a 
better job of explaining what is going on. Why not use the TV screen 
itself? During system setup the TiVo box could show a couple of screens 
that explain how TiVo does anonymous tracking. Then they could ask 
consumers if they would like to participate in this program or not. 
Seems pretty simple to me!
    But what is TiVo's goal in collecting all this data, particularly 
given its alliances with big media partners? I think TiVo is collecting 
``anonymous'' viewing information as a bargaining chip in their 
negotiations with the TV industry. By collecting this data, TiVo knows 
more about the TV industry's customers than they do. TiVo's viewing 
data is more easily quantified than Nielsen's statistical samples, 
which is one reason that Nielsen is partners with TiVo in an opt-in 
viewer survey analysis.
    Yet, TiVo acknowledges that they really aren't making much money 
from the anonymous data today. And, due to technical issues and the 
uncertainty of viewer acceptance, it is doubtful that TiVo will be able 
to effectively use such information to target commercials to individual 
viewers, even though this was one of their original ideas.
    One potential payday would be if TiVo collected specific viewer 
information, tied to demographics and psychographics, then sold that 
data for a variety of direct marketing purposes. But company officials, 
including co-founder and CTO James Barton, claim that is not going to 
happen. One of TiVo's legal disclosures gives a little more wiggle room 
for the future, stating, ``Under our current policy, we do not access 
[viewer] data or release it to third parties.''
    The privacy issues around TiVo may soon apply to a range of 
consumer electronics devices. Are our TV sets, digital cable boxes, 
satellite TV receivers, and MP3 players all going to becoming data 
collection devices for marketers and advertisers? I certainly hope not. 
Internet-enabled devices should be designed to minimize the amount of 
data they send back about us. If companies want to spy on us, they are 
going to have to make it very clear what's going on and ask if it is 
okay.
    If companies try to slide snooping devices into our homes on the 
sly, I think they'll only hurt themselves. If consumers can't tell 
which Internet-enabled devices will spy and which ones won't, maybe 
they won't buy them at all.

    Mr. Stearns. Thank you, Mr. Smith.
    Let me start with my set of questions and first to Richard 
Fischer. You had mentioned something about the Gramm-Leach-
Bliley Act and as a result thereof, companies have curtailed 
the flow of customer information to third parties, even beyond 
what is required by the Act, I think you indicated.
    How has that changed, impacted the customer for good or for 
bad?
    Mr. Fischer. That, Mr. Chairman, is a great question 
because that's to be seen as this plays out. But just to give 
you an example, the Gramm-Leach-Bliley Act allows you beyond 
the exceptions to share information with third parties so long 
as you give the consumer notice and a chance to opt out. There 
are many financial institutions that have said we don't want to 
do that. In other words, we're going to cut back even though we 
have the ability under the Act to disclose that information to 
the third parties, we would have to give the notice to opt-out 
and we would prefer not to have to give a notice to opt-out at 
all, therefore, we're not sharing. And if you look at it from a 
privacy perspective, you could say that's good, that's 
information not going out to a third party, but as you 
indicated in your opening statement, it really is a cost 
benefit analysis always because what it really means then is 
somebody isn't getting an opportunity in this context because 
the information is not going out. As we see that balance, the 
Gramm-Leach-Bliley Act and particularly the regulations could 
have permitted a cookie cutter approach to disclosures, but 
that's not has happened. The disclosures are really all over 
the place and I think that as consumers receive these things, 
look at them, make decisions, we'll see what it means.
    Mr. Stearns. Gramm-Leach-Bliley At, do you think Congress 
should do something to change or amend the Act? Just yes or no?
    Mr. Fischer. Presently, I think the answer is no.
    Mr. Stearns. Mr. Smith, in your TiVo, they're getting 
information through the telephone line, but I have a television 
where I just push a button and it gives the entire programming 
for the day and I assume that's coming through transmission to 
the television and not through the phone line. Are all the 
TiVos set up that they are connected to a telephone line?
    Mr. Smith. Yes, that's correct. And the reason they go 
through a telephone line is different cable systems and 
satellite systems have different ways of sending down the 
electronic program guide, so TiVo only wants one way to get 
them and so they go through the phone line.
    Mr. Stearns. And so it costs the customer money? It's just 
a local call. Do you get a separate telephone line for a TiVo?
    Mr. Smith. No, it makes the phone call like at 2 in the 
morning, so it uses your standard phone line.
    Mr. Stearns. I see.
    Mr. Smith. There's a subscription service for TiVo. It's 
$10 a month, basically.
    Mr. Stearns. I see. If we enact comprehensive privacy laws, 
should this privacy law pre-empt all other privacy laws and if 
not, what laws should be kept? Are you capable, maybe some of 
the other panel can answer this, but it seems to me that 
there's probably conflicting privacy laws and which laws should 
be followed?
    Mr. Smith. Well, I'm not a lawyer, so on the preemption 
question, that's a tough one. Sometimes it's appropriate, 
sometimes it's not. I just--I'll get a lawyer to get an answer 
for there.
    Mr. Stearns. Yes. Ms. Fortney, do you want to try and take 
that or Mr. Fischer, either one?
    Mr. Fischer. If you're looking at enforcement, Mr. 
Chairman, I think that multiple laws are terrific because as 
you said earlier, actually, Mr. Towns, if this was you, if you 
had an issue like this and somebody is violating the statute, 
it ought to be enforced.
    When you're talking about substantive disclosures, I think 
preemption is essential. The notice that I talked about now is 
2 to 6 pages. If you have multiple additional disclosure to be 
included, they really become worthless.
    Mr. Stearns. To think that in 1 year consumers are going to 
receive over 20 separate notices on privacy. That just seems 
like an overkill, in my opinion.
    Mr. Fischer. Congress decided that education and 
transparency was important here.
    Mr. Stearns. Right.
    Mr. Fischer. And the only way that you can do that is to 
allow notices across the broad range, all financial 
institutions.
    Mr. Stearns. Who can understand that, the average consumer?
    Mr. Fischer. That's a good question, Mr. Chairman. I think 
what it's going to come down to are those who are seriously 
concerned about privacy, will look at these carefully. If you 
look at those who are not, frankly, in that context, I think 
what Congress will come back to, after we go through this 
process is an alternative for others which is much shorter.
    Mr. Stearns. Especially those people who are not paying 
attention and could care less. Just worrying about their car 
starting in the morning, that's not going to be something they 
read too carefully.
    Ms. Fortney, you concluded your statement by saying ``I 
caution that this effective law for consumer reporting industry 
should be adopted as a paradigm for privacy legislation in 
other industries.'' You added that ``the unique sensitivity of 
information covered by the FCRA and the serious harm that could 
result from proper use of this kind of information are 
generally not duplicated in other industries.''
    Would you care to comment on that statement because we're 
looking for those kind of statements which are all inclusive 
and emphatic, so that we can work off of them.
    Ms. Fortney. Okay, I'd be glad to add to what I just said. 
As I indicated, the consumer reporting industry is unique in 
several respects and I think we need to focus first on the 
nature of the information involved. Consumer reports contain 
highly detailed information about consumers' credit records and 
other very sensitive financial information. But perhaps even 
more importantly is the way in which that information is used 
because the information is used in a way that can determine 
whether a consumer is able to purchase a home, get a job, get 
insurance and other really very crucial economic transactions 
that consumers need to enter into. If the information is 
misused, then that information can have a very immediate 
serious negative impact on consumers' lives. I think in 
contrast to a lot of the information that we're discussing 
generally in this area where we're talking about the use of 
information for marketing purposes, or the use of information 
for similar purposes that have less dire economic 
circumstances, that it's not appropriate, it would not be 
appropriate to take a statute that is as comprehensive as the 
Fair Credit Reporting Act and try to apply it across the board 
to all other industries.
    Mr. Stearns. My time has expired. Mr. Towns?
    Mr. Towns. Thank you. Let me begin with you, Mr. Fischer. 
You talked about the financial institutions going to implement 
privacy provisions of the Gramm-Leach-Bliley Act. It is my 
understanding the situation pertaining to insurance is not so 
bright. The National Association of Insurance Commissioners has 
adopted a model regulation for the states to implement which 
would require insurance company complies with these privacy 
provisions. It's my understanding that the State of New York is 
the only State so far to have implemented this model regulation 
entirely.
    Mr. Fischer. Mr. Towns, there are a handful of other states 
that have taken that step, but you're absolutely right and no 
industry has it more difficult right now than the insurance 
industry in complying with Gramm-Leach-Bliley. We do represent 
insurance companies as well. For banks, for example, there's 
one set of regs to deal with. For insurance companies, they 
could end up with 50 sets of laws that are quite different and 
88 days left for compliance, the law applies to the insurance 
companies and you're absolutely right, sir, in many states 
there's no guidance yet.
    Mr. Towns. What are your expectations? How many states by 
the end of the year do you feel would be in compliance? Do you 
have any idea? I know--based on your experience.
    Mr. Fischer. I think that you will find that one way or the 
other that you'll have at least three quarters of the states 
with regulations in place by the end of the year. If we're 
fortunate, it could be closer to 45 to 48 of the states, but 
there will be some stragglers.
    The good news is it will be the State insurance 
commissioners that will be enforcing that. It's very difficult 
for somebody to try to force a law that they haven't given you 
guidance on yet. The bad news is there are still private 
plaintiffs out there that can enforce it after July 1.
    Mr. Towns. How many of these would you expect to include 
the protection of medical information which I think is very, 
very important?
    Mr. Fischer. I think that you will see eventually all of 
them. Some of them have a cross reference to HIPAA so that you 
don't have to comply with conflicting guidelines, but I think 
in time you'll find, maybe not this year, that all of the 
states will cover medical information because the State 
insurance commissioners are coming to the same conclusion you 
have about the sensitivity.
    Mr. Towns. Thank you. Mr. Lamb, AT&T operates a cable 
service, am I correct?
    Mr. Lamb. Yes.
    Mr. Towns. It must definitely comply with the Cable Act, am 
I correct on that?
    Mr. Lamb. And we do.
    Mr. Towns. Are you familiar with the privacy conditions the 
FCC put on its approval of the AOL-Time/Warner merger?
    Mr. Lamb. Generally familiar but because they didn't apply 
to us I didn't study them in detail.
    Mr. Towns. But Time/Warner had to actually stipulate in 
writing that it would provide the Cable Act privacy protections 
which require disclosure and an opt-out, opt-in, I'm sorry, for 
the collection of--dissemination of personally identifiable 
information of which are codified in Section 631 of the 
Communication Act to all its customers, not just its customer 
cables. Are you aware of that?
    Mr. Lamb. I did not follow that, no.
    Mr. Towns. Do you agree then with the FCC's imposition of 
this requirement?
    Mr. Lamb. The issue really is--when you ask whether I 
agree, beside the merger, is that a good rule for the cable 
industry, perhaps or for the information communications 
industry, once they go beyond the----
    Mr. Towns. I'll accept that. But go ahead, answer that.
    Mr. Lamb. And I would say there is no one size fits all. 
The consumer concerns vary dramatically by industry. The 
industry practices, there is a history of high privacy 
compliance in telephony that frankly is not the case in on-
line. The on-line industry has made great strides in the last 2 
years, but there is no reason to think that either consumer 
concerns in one industry are the same or that the need for a 
fix or a solution is the same from one industry to another.
    Mr. Towns. This is a very difficult situation as you know 
and I think that we want to move very cautiously and we want to 
sort of make certain that we touch every area and that's the 
reason why I raise those questions. It's not to--no more than 
to try to do what's right because I don't want to be involved 
in a situation where we do something and then a month from now 
we come back and realize--we have to come back and try and do 
something else. We want to try to move very carefully and 
slowly and get it right. That's the reason I'm raising this 
question and it's not a trick question in any way.
    Mr. Lamb. No sir, I agree. We share your goal. All 
responsible companies across industries should be telling their 
customers how they use private information. The only question 
is how to get to that place.
    Mr. Towns. My time has expired. I just want to ask one 
question to----
    Mr. Stearns. By unanimous consent. Go ahead.
    Mr. Towns. Mr. Smith, let's say a criminal investigation is 
being conducted into a series of sexual assaults. TiVo cable 
have given law enforcement personnel all TiVo's home viewers 
serial numbers that viewed certain types of sexually explicit 
programs in a given location during a given period of time. And 
let me just add while I have this chance, what TiVo calls 
anonymous information includes not only viewing information, 
but also the home viewers' TiVo serial number. Is this not 
correct?
    Mr. Smith. No, the serial number would not be. That's 
personally identifiable because it's tied to your name and 
address.
    So in the case, the way the service works today, they could 
find out well, there's a thousand people watching sexually 
explicit movies, but they couldn't really tie it back to who 
they were. Now they do have a new marketing program in place 
where they do want to match up with what you watch on TV and 
your name and address. And in that case, customers are putting 
themselves, data is being collected about them that used to not 
be collected. Five years ago, our TV sets didn't remember what 
we watched.
    So if you choose to participate in that program whenever 
TiVo chooses to release it, there are some issues there that 
that could end up in court, either in civil or criminal cases.
    Mr. Towns. Thank you, Mr. Chairman.
    Mr. Stearns. The vice chairman of the committee, Mr. Deal.
    Mr. Deal. Thank you. This has been a very interesting 
dialog here and reading the testimony that you have submitted. 
In listening to this whole issue of privacy, I can't help but 
be reminded of a flashback to a scene that all of us have lived 
on the playground as children which somebody asks a question 
and the response was ``it's none of your business'' to which 
the next response was ``well, I'm making it my business.''
    It seems to me that the question has to be asked here why 
are so many people making it their business to know something 
about people that perhaps they don't want them to know? And 
certainly none of us would suggest that every consumer is an 
exhibitionist to the extent that he wants everything that he 
consumes to be known to everybody and certainly I don't think 
any of us would imply that all businesses are voyeurs who want 
to be Peeping Toms knowing everything about everything.
    Mr. Fischer made the statement and our chairman alluded to 
this patchwork quilt that we have now in terms of regulatory 
processes as being issue and industry specific type regulations 
and that's the nature of the drafting of the legislation up to 
this point. But as I listen to your testimony, it seems that 
the information gathering process has primarily two focuses. 
One, that is as Mr. Fortney points out, in consumer credit line 
information, information that a business person needs to know 
in order to make a solid business judgment about a creditor 
purchase transaction that they may be a party to, with an 
unknown consumer for the protection of the industry that is 
engaging in that.
    The second seems to be in its general nature that of being 
able to utilize information for further marketing purposes and 
several of you, of course, have alluded to that.
    Are there other general areas where this information is 
needed or is used and if so, have we touched on the regulatory 
process that relates to them and second, if those are the two 
generally broad categories, we seem to have addressed the one 
rather well as Ms. Fortney outlined in existing regulatory 
fashion. We have addressed the other in this patchwork process. 
So my question would be is it then possible to draft a uniform 
piece of legislation that would deal with the merchandising, 
marketing, collecting information arena and avoid some of these 
conflicting statutory situations as one type industry moves and 
becomes a hybrid or a totally different industry all together 
and therefore transitions from one regulatory statute maybe to 
another. Is it reasonable or is it even desirable then that we 
attempt to consolidate this regulatory format into one uniform 
approach or is the patchwork quilt the better way to go and 
several of you have alluded to that and I don't care who 
responds.
    Mr. Fischer. Let me step out on that first--the first half 
of your question was are there other areas that are important 
and there are lots of them and the easiest place to see a 
summary of them actually is in the exceptions of Gramm-Leach-
Bliley, for example, fraud control. The need to have the 
information to administer the account, government's access to 
information which is always a class of consumer desires and 
concerns. So you have all of those and you have lots of them 
out there.
    Second, whether it's possible to come up with one single 
rule that governs all information I think it would be extremely 
difficult to do that just because the sensitivities, for 
example, that we've seen on health-related information is 
different than almost everything else. And so that alone would 
make a difference. To the extent that you would have to explain 
in any detail the one concern that I have about Gramm-Leach-
Bliley, particularly, the size of the notice and whether 
consumers will actually be able to read them, if you were to do 
that, you would have to have a statement that was so short and 
so simple that no one could miss and you could apply it across 
lines. It would have to be something like we do have this 
information on you. We do provide to third parties for 
marketing purposes. If you don't want us to do that, please 
call the following number. Period. And so you could have 
something like that, but then you'd have to look at it, go 
through the same sort of cost benefit analysis we've talked 
about and say what benefits are no longer going to be there and 
at the end of that discussion you may well find that that's 
exactly what you want to do.
    Mr. Deal. Thank you.
    Mr. Stearns. Would you like any more response to your 
question?
    Mr. Deal. Are we going to have a second round?
    Mr. Stearns. I'm not sure yet. You asked your question. If 
there's any others that want to respond to that, I think that's 
fair.
    Mr. Deal. Yes, if anyone else would like to respond?
    Ms. Fortney. I agree with what Rick has said and I think 
also part of your question dealt with the fact that if we had 
one comprehensive regulatory scheme that industries that are 
involved in multiple areas which are now regulated by different 
laws might find it easier to comply or it might make more sense 
in terms of uniformity. And I think that what we see today is 
that industries are very accustomed to working under many 
different statutes in many different areas, in both the Federal 
and the State level. And what they do is apply the laws or 
interpret the laws as they apply to those particular areas and 
the work that I do with clients, it does seem to function, I 
think it works much better than perhaps trying to have one 
piece of legislation that would fit all types of biosciences 
involved.
    Mr. Lamb. I was just going to comment that the difficulty 
that we see with one size fits all is that the benefits of 
personalization and other aspects of information use vary so 
dramatically by product and service and industry that the cost 
benefit analysis may be different. And hen the tools that you 
have for implementing rules also very dramatically, from a 
computer in the Internet space, where communications is very 
easy, to the difficulties of dealing with somebody, for 
example, on a data service, on a hand-held wireless phone, 
where if you have one set of rules applying to both situations, 
the cost benefit might not work out in the same way in both 
places.
    Mr. Smith. I just want to comment really quickly on the 
issue of information use for marketing purposes. I think you 
can come up with some good general principles where you can 
cover a lot of different areas, but I just see the sensitivity 
of information is going to be a problem, that you need special 
cases for financial health, almost surely, but also on the 
qualitative and quantitative amount of information, on the 
Internet you get a lot of information about what people want, 
what articles they read and what they search for, this sort of 
thing, very, very details. It doesn't necessarily have to be 
personally identifiable. In the off-line world though 
everything is personally identifiable and you have very 
different kinds of information there that would probably 
require different rules or people would expect different rules.
    Mr. Stearns. The gentleman from Massachusetts, Mr. Markey.
    Mr. Markey. Thank you, Mr. Chairman, very much. Thank you 
for having this very important hearing. As we all know, there 
is no omnibus privacy bill that has ever passed Congress. 
Instead, what we do is in each individual area try as best we 
can when an opportunity arises or a crisis arises, to pass 
legislation that adds to the privacy protection of Americans 
and that's why we have a Drivers' Protection Act, the Video 
Privacy Protection Act, the Fair Credit Reporting Act, the 
Privacy Rules in Gramm-Leach-Bliley, the On-Line Child 
Protection Privacy Protection Act for kids 12 and under, the 
laws against divulging information about which cable programs 
we are flipping to and fro and the Customer Proprietary Network 
Information where all of our telephone calls, who we're calling 
can't be divulged as well. So obviously over the years this 
Congress has looked at numerous areas that are in need of 
privacy protection. And I know that Mr. Smith has done great 
work in looking at the TiVo issue. One the one hand it can be 
advertised to each of us as a wonderful new service that allows 
us to watch any show we want any time we want without 
commercials, isn't that great? We're only thinking about you, 
in more ways than one, huh? So they can gather all this 
additional information about you as well, if they want, only 
with the promise that they won't divulge it.
    Let me ask this, do you all agree that different types of 
information have different degrees of sensitivity, that health 
and financial data, TV viewing habits, web surfing data are 
more sensitive than other types of data such as a billing 
address? In other words, where my cell phone is billed to is 
less sensitive than where I call from and to whom I place 
calls, when and for how long I speak to whomever I might be 
talking to. Knowing that I subscribe to cable is less sensitive 
than what shows I might be watching, especially later on at 
night. So do you all agree that there's a big distinction 
between those two categories of information?
    Mr. Lamb. I would agree that consumers draw that 
distinction, but the distinction is different for each 
consumer, they make different choices. We have some consumers 
who, for example, in our case buy our $4.95 a month Internet 
access service which tracks, sends targeted ads to consumers 
and that's why we can offer it at that price and we disclose it 
very clearly to those consumers. Other consumers buy our more 
expensive service because they don't want to receive targeted 
ads, so they make that choice.
    Mr. Markey. Right, so you work for AT&T, I know that.
    Mr. Lamb. Yes.
    Mr. Markey. But if I wanted you to give me Michael 
Armstrong's private telephone number you might not want to give 
that to me?
    Mr. Lamb. I would say ask him.
    Mr. Markey. I thought you would. Or if I ask you how much 
money you make, could you tell all of us because we could go 
on-line, maybe and find out if there weren't real privacy----
    Mr. Lamb. Every consumer makes their choice.
    Mr. Markey. That's what I'm saying is that almost all 
consumers are going to make the same choice you're making in 
those cases.
    Mr. Lamb. Oh, I think in many cases, financial, medical, I 
agree.
    Mr. Markey. That's the point I'm making. Yes?
    Ms. Fortney. I agree that there are different sensitivities 
related to different types of information and also the detail 
that's involved in the information.
    Mr. Fischer. Agree.
    Mr. Markey. Mr. Smith?
    Mr. Smith. Yes.
    Mr. Markey. Do you think, Mr. Smith, it makes sense for us 
to have an omnibus privacy bill or should we do it piece by 
piece?
    Mr. Smith. Well, I think the golden rule is to where we 
start. I think a lot of privacy gets down to just expectations 
between people. I'm not sure that we can have an absolute omni 
bill. I think we can set aside some good principles in a bill, 
but back it up with specific bills that address specific areas.
    Mr. Markey. Can each of you answer that question, please?
    Mr. Fischer. Yes sir, I'd be happy to. I do not think that 
you could have an omnibus bill. I think that given the variety 
of issues that we've talked about, the differences and 
sensitivity and the like, I think there really have to be 
differences and one of the things that I've discovered in my 
years of working this issue here is when the U.S. passes 
privacy laws, they expect them to be followed and they expect 
them to be enforced and that makes it really important. Europe 
might be a different approach where they pass the laws to feel 
good, but maybe not enforce them at all. Here, it is serious 
stuff and you really have to deal with them one at a time.
    Mr. Markey. Let me ask one final question, Mr. Chairman, 
recently Mr. Dingell and Mr. Towns and I wrote a letter to the 
Federal Trade Commission requesting that the Federal Trade 
Commission analyze TiVo's services and data collection 
practices. We did that because the monitoring of the television 
viewing habits of Americans is very serious business. And when 
people make their choices and their purchases, they should be 
aware of what the risks are that they're running.
    Do you all agree that this is a serious issue, the TiVo 
issue in terms of their collection of data about Americans and 
that perhaps protections should be put on the books? Mr. Lamb?
    Mr. Lamb. Absolutely. We don't have a relationship with 
TiVo, so I don't know what disclosures they made, but I 
absolutely agree with Mr. Smith that it is very important that 
you disclose to consumers what data you're collecting and it's 
only on that basis that consumers are going to be using these 
new products and services.
    Mr. Markey. Thank you. Ms. Fortney?
    Ms. Fortney. Let me just add to that. I agree that it is 
very serious, and also again I've not seen the TiVo disclosure, 
but based on Mr. Smith's description, I think it's important to 
recognize that if a company such a TiVo is using and disclosing 
information in a manner that's inconsistent with what it has 
told consumers and agreed to consumers that it would do, that 
would be a violation of Section 5 of the Federal Trade 
Commission Act which prohibits unfair deceptive acts or 
practices.
    Mr. Markey. Okay, Mr. Fischer?
    Mr. Fischer. I think that if you have the delivery of an 
ad, as you do in a computer context, so that it is anonymous, 
but I'm still getting the benefit of the ad of something that I 
may be interested in given where I visited, it doesn't bother 
me.
    If on the other hand as Mr. Smith said, there's information 
that's going to be tied to me by my identity, I would be very 
concerned.
    Mr. Markey. So I want to congratulate you, Mr. Smith, on 
the excellent work which you've been doing on this issue.
    Mr. Smith. Thank you.
    Mr. Markey. And Mr. Chairman, I would ask that my opening 
statement be placed in the record.
    Mr. Stearns. By unanimous consent, so ordered.
    Mr. Towns. I'd like to have one thing cleared up, yes. I'd 
like to ask Mr. Smith----
    Mr. Stearns. By unanimous consent, 30 second.
    Mr. Towns. All right. I'd like to ask Mr. Smith to clarify 
his response to my question regarding TiVo collection of home 
viewing information and home viewer serial numbers and let me 
quote from the Privacy Foundation Report, the reason I want to 
make certainly clear this up. It says, ``however, the viewing 
information filed is nonetheless transmitted during a session 
identified by the home viewers' TiVo serial numbers. In fact, 
the serial number is transmitted multiple times during the 
single phone call. TiVo receives all of the information 
necessary to attribute the viewing information to a particular 
subscriber during this phone call, but gives no indication of 
this fact in any of its documentation. Therefore, the home 
viewing information can only be truly anonymous when TiVo 
Headquarters intentionally treats it as such. TiVo's current 
procedure does not change that fact.''
    Mr. Smith. Okay, what's going on there, as we mentioned 
before, when the TiVo box phones the home, the first thing it 
does it get the program guide information. So it has to log in 
to the TiVo service to identify who the customer is, otherwise, 
people would get the TiVo service for free. So that's why the 
ID number is sent in. In that same phone call, it also uploads 
this diagnostic log information which is giving some button 
presses and then in addition, it's sending up the viewing 
information and what they do is they make an effort to send 
that viewing information and deposit it in a way so that it's 
not tied directly to that ID number. That's a choice that they 
make at their servers, not in the box itself. So when we 
observed what was going on, all we saw was the data stream and 
we said there's no--they have to make that promise that they 
won't make that connection and after talking to them 
afterwards, that's what we learned. They said yes, we do not 
make that connection, but everything goes up in that same phone 
call. If these are computers talking, it's unlike human beings. 
They can kind of forget the first half of the conversation or 
the second half. Computers can do that. Human beings can't.
    Mr. Towns. Mr. Chairman, I don't want to prolong this, but 
I'd like to get that answer in writing.
    Mr. Smith. Okay. From me?
    Mr. Towns. Yes.
    Mr. Smith. Okay.
    Mr. Towns. I don't want to prolong because I have some 
other parts. Thank you, Mr. Chairman.
    Mr. Stearns. The gentleman from Nebraska.
    Mr. Terry. Thank you, Mr. Chairman. Mr. Smith, real quick, 
once you opted-out, were you able to sniff and determine if 
they continued to keep track of programming?
    Mr. Smith. We haven't gotten that far yet. David Barton, 
who has the box just opted-out last week and went on vacation 
this week.
    Mr. Terry. Will you be doing that?
    Mr. Smith. Absolutely, but at the same time we trust TiVo 
to make that--if we do see something, I think it would be----
    Mr. Terry. Would you let us know if you find out?
    Mr. Smith. If it isn't, then there was a mistake made, I 
would say.
    Mr. Terry. I appreciate that. I was just curious. If there 
were any findings to that effect and obviously, I think, 
probably a key part of our discussion here or our conclusion is 
the legislative body is probably to create significant 
penalties when a violation, contract, whatever between the 
service and the customer is breached. I think that has to be a 
large component of whatever policy we adopt here.
    Mr. Lamb, you seem to be left out of a lot of these 
questions, so I'm going to gear them toward you and then let it 
flow down the table.
    I've reached the conclusion from everybody's testimony that 
it's going to be difficult to develop a comprehensive omnibus 
uniform whatever language you want to use. So it looks like 
we'll continue in a world of specific regulations for specific 
areas of which AT&T is showing us that in this world of 
technology today, many of those items overlap. They may be 
under the same umbrella. So you have to deal with the world of 
specialized privacy legislation. Can you describe in more 
detail how AT&T deals with overlapping and conflicting rules, 
what are the costs associated to it, do you develop a different 
standard so you can try and comply to all of them at one time, 
set up separate silos? How do you deal with it and what are the 
costs?
    Mr. Lamb. We do deal with it and the costs are substantial. 
What we end up doing is we have compliance with all the various 
statutory and rule structures and then across the company we 
have an overlay which is compliance with our own voluntary 
privacy policies on issues such as disclosure of personally 
identifiable data to third parties.
    What happens though is that we have one account for a 
customer who might be buying wireless and cable and telephony 
for us in same cases, sometimes in a bundled price. So we have 
to flag data within that account and say this data can be used 
internally to market what we choose. This other data can only 
be used to market long distance, and this other data can only 
be used to market cable services, for example. So there is some 
probably artificial restrictions and query whether these 
internal restrictions really provide significant benefits to 
the consumers.
    I know on issues such as disclosures to third parties, 
consumers have very real concerns. They want to know who has my 
data and what are they doing with it? We have not heard 
consumers telling us that they want to tie our hands internally 
to any great extent on what we do with their data, but in 
compliance with these statutes, we have to do exactly that.
    Mr. Terry. Do you think we can break it down? We may not be 
able to have a uniform policy on privacy that can cover both 
financial, medical, cable, broadcasts, telephony, wireless, all 
of that, but can we do it by industry, do you think? Do you 
think we could come up with one uniform policy that would 
enable AT&T to have one specific policy for wireless, 
telephone, cable?
    Mr. Lamb. The difficulty is that industries aren't that 
clearly defined, at least in our experience and when they are, 
Internet versus telephony all of a sudden you cross Internet 
telephony and ask where that falls in the mix. So it is very 
difficult.
    We do see the very high level principle of disclose what 
you're doing as being one that either is a result of self-
regulation and voluntary actions or where necessary regulation 
and statutes, can be implemented. The details that we see in 
existing privacy statutes would not work and would have serious 
costs to have to try to apply the same set of rules across 
different technologies, but general concept of disclose what 
information you're collecting and what you're doing with it is 
one that we follow voluntarily and we don't think that really 
impedes anyone from doing business.
    Mr. Terry. Thank you.
    Mr. Stearns. Mr. Buyer?
    Mr. Buyer. I always become a very good listener when I hear 
Mr. Deal give a Southern story. I know he's going to try to 
break down the complex and make it very simple and he made me 
reflect for a moment. I remember one of the first things of law 
school when we were discussing constitutional law and it was 
Justice Stewart said with regard to obscenity, ``I know it when 
I see it.'' It's almost like privacy, it's so subjective, so 
when you gave your little rendition of the playground, that's 
what privacy is and each person's standard or belief of what 
privacy is is so subjective. What one person thinks is private, 
another person doesn't really seem to care. We even learned you 
might come up to someone and actually touch them like this on 
the shoulder and say how are you doing and you didn't realize 
you've just offended them because you touched them.
    Mr. Deal. Yeah.
    Mr. Buyer. Because I'm a damn Yankee, is that why?
    Just haven't gotten over it yet.
    But that's what I find in this. So Mr. Chairman, I really 
appreciate you having this hearing. It's one thing when we 
don't want to create more laws that are overlapping and make 
things more confusing and complicated and costly in 
implementation for you. However, I just want you to know from 
my perspective as we try to address these issues, sometimes we 
try to legislate in areas that's pretty difficult. I don't have 
a particular question for you, I just want to let you know that 
we're being very cautious as we approach this area. I don't 
believe that we really can--or the chairman asked you this 
question about sort of comprehensive approach. I don't think 
that you're going to be able to do that because every industry 
has its own unique set of problems and I don't know how we 
begin to measure harm. How do you do that? How do you decide--I 
just--I will elicit your comments because I don't know how we 
actually sit down to address this when, in fact, we want to 
give freedom. We want the Internet. We want the technology 
renaissance to continue, but how do we begin to address a 
society with one standard for harm when a lot of people care 
and some don't? I elicit your response.
    Mr. Fischer. Let me try that. If you look at Gramm-Leach-
Bliley and you look at the notices that are out there and what 
people will be focusing on, you see paper. But ultimately what 
it's going to come down to is exactly what you said, what's the 
reaction going to be? So that frequently when I talk to people 
about what they're doing on information practices, what I saw 
is think about the family table, think about what it's like to 
tell everybody around the table what you intend to do with 
information and with whom and what do you think the reaction is 
going to be? If you feel good about that reaction around your 
table, then you probably are on safe ground. If you feel pretty 
queasy about it, then you shouldn't go there.
    Mr. Lamb. I would just like to comment that we agree that 
privacy is a very subjective personal choice and I was recently 
asked how we balance the benefits of personalization against 
the loss of privacy and I said our basic approach is to try to 
let the consumer make that decision. We tell them what we're 
doing with a particular service and they tell us by buying the 
service or not, as long as we're very clear on our disclosure 
and with tools like P3P with which we've worked with Microsoft 
on that empower consumers to make their own privacy choices, I 
think that is the path that works best for us.
    Mr. Buyer. Mr. Fischer, your answer to me, so when the 
Supreme Court Justice said ``obscenity, I know it when I see 
it''--privacy, I know it when I feel it?
    Mr. Fischer. Yes sir, that's right.
    Mr. Buyer. And that's what makes this so difficult. The one 
real plus about enforcement, it's very uncomfortable when 
you're there trying to advise somebody, but the real important 
thing about enforcement is when you see what happens to someone 
when they cross the line, you remember that, and you don't want 
to be there.
    Mr. Fischer. That's true.
    Mr. Buyer. Ma'am?
    Ms. Fortney. I would just like to add that I think a lot of 
the approach, what you're talking about here is really 
reflected in the approach of Gramm-Leach-Bliley which is for 
most information if you tell consumers what you're going to be 
doing and you give them the opportunity opt out. As in the case 
of Gramm-Leach-Bliley, that seems to be adequate. It really 
gets back to what Rick said and that is that if companies are 
uncomfortable telling consumers this is the information we 
have, this is how we're going to use the information, then that 
is going to have an effect on the ways in which they use the 
information. And then to set aside for more detailed and 
substantive regulation those areas which involve very sensitive 
financial, medical, similar types of information and to subject 
those to a different regulatory scheme.
    Mr. Buyer. The great thing about notice, if I may, Mr. 
Chairman, is when people have this expectation of privacy, 
notice always begins to neutralized that.
    Ms. Fortney. Right.
    Mr. Buyer. Thank you. I yield back.
    Mr. Stearns. Mr. Smith, did you want to answer his 
question?
    Mr. Smith. Yes. I wanted to hit up real quick on the TiVo 
thing, our experience there. We got e-mail in on sort of both 
sides of the fence on that. Some people actually said we'd like 
TiVo to learn about our TV, what we watch on TV because we know 
this information is going to be passed on to the TV networks 
and our favorite shows won't get canceled then. So there 
clearly is even on something like this, there is multiple 
schools of thought. So we keep coming back to like a good 
notice on the TV set. They got the perfect device for doing 
notice and just a remote control to say yes or no. They have a 
good place to do it. Our concern was much more about how they 
did notice.
    Mr. Stearns. I thank Panel 1. We have a second panel here 
for members and we'd like to keep moving here, so we want to 
thank you very much for your time and your interest and we'll 
now move on to the second panel which is Ronald Plesser who is 
Partner, Piper, Marbury, Rudnick and Wolfe; Mr. Richard Varn, 
Chief Information Officer, State of Iowa; Mr. Frank Torres, 
Legislative Counsel, the Consumers Union; Mr. Jonathan Zuck, 
President, Association for Competitive Technology; and, Mr. Ed 
Mierzwinski, Consumer Program Director, U.S. Public Interest 
Research Group.
    I want to thank you for your patience and waiting and we'll 
start off, Mr. Plesser, with you with your opening statements I 
remind all the second panel that we would like them to keep it 
within 5 minutes. You're welcomed.

 STATEMENTS OF RONALD L. PLESSER, PIPER, MARBURY, RUDNICK AND 
WOLFE; RICHARD VARN, CHIEF INFORMATION OFFICER, STATE OF IOWA; 
 FRANK TORRES, LEGISLATIVE COUNSEL, CONSUMERS UNION; JONATHAN 
 ZUCK, PRESIDENT, ASSOCIATION FOR COMPETITIVE TECHNOLOGY; AND 
         EDMUND MIERZWINSKI, CONSUMER PROGRAM DIRECTOR

    Mr. Plesser. Thank you very much and I very much appreciate 
attending and being asked to testify this afternoon. My name is 
Ron Plesser and I'm a Partner at Piper, Marbury, Rudnick and 
Wolfe and I was General Counsel of the United States Privacy 
and Protection Study Commission in the mid-1970's which was the 
last really organized omnibus, if you like, look at privacy 
laws and I've been asked today to talk about COPPA, the 
Children's On-Line Privacy Act. I'd also like to give a couple 
of overview observations and talk about the FTC Act, just 
slightly.
    Let me start with the FTC Act. Anne Fortney mentioned it 
before and I think it is incredibly important as a privacy law 
and is often forgotten. It is clearly the basis that make self-
regulatory efforts work. It is the basis, at least in part for 
the European acceptance of the safe harbor and what it does it 
prohibits deceptive and unfair statements.
    A recent poll done by the FTC showed that I think over 80 
percent of websites had some type of notice and what that means 
is that those notices, they don't have to be there, but once 
they're there, they have to be followed and they have to be 
enforced. The FTC has brought action in GeoCities, Liberty 
Financial and other cases where they have brought actions 
against people who have done something differently than they 
said and it is a very simple, but fairly potent piece of 
legislation.
    COPPA is a very important piece of legislation and it has 
some flaws. I know several other people on the panel are going 
to discuss it. I'd like to just go through it fairly quickly 
and others can throw more detail on it. It does require notice. 
It does prohibit the collection of information from children 
without consent and I think the word collection is important. 
It's not just marketers collecting information. It's also 
facilitating the public accessibility of a kid's communication, 
chat rooms, postings, and these are areas that I think were 
consistent with some of the concerns that we have where we 
legislate where there is a problem. Clearly, in the chat room 
an don-line posting for kids 12 and under, there was problems. 
They were giving out home addresses. They were giving out 
information that at some level could harm them. This law meant 
to limit that. It also limited telemarketer collection of 
information. It's very important to note that it covered two 
situations, one where the website is aimed or directed at 
children and that's kind of a multi-luck of the graphics, of 
the content, is this directed at kids? The second is where the 
site could be a general site, not directed at kids, but where 
they ask age and are informed that the kids register as being 
12 or under. So those are the two circumstances. Verifiable 
consent is really the core of the restriction and hopefully 
I'll have a minute to give some observations about it.
    One of the good things that the FTC did do is create a 
sliding scale in verifiable consent. They had a separate 
hearing on it in July, I guess of 1999, where they found there 
was no real technology to allow verifiable consent on line, 
that the best you could do is kind of download a form, print 
and send and then fax it in with the parent's signature. So 
here was a law that required electronic verifiable consent, but 
yet, there was really no technology that permitted it and what 
the FTC did is created a sliding scale and did something very, 
very interesting. They've committed that they'll look at the 
issue again in April 2002 to determine if there's any new 
technology that will allow them to adjust the scale.
    There are several exceptions for one time use in order to 
obtain the parent's consent for security purposes and with an 
opt-out for kind of subscription of repeated services and all 
of those cases the information can be retained, but it can only 
be retained for those purposes.
    What are the important things about the COPPA that I think 
this committee could just use if I could just sum up. Couple of 
factors, one is technical flexibility. I think that's critical. 
The second is the roles of the Attorney General. It gave the 
Attorney Generals the right to enforce the Federal statute in 
Federal courts. As a result, we have seen very little State 
legislation developing on kids' privacy. We have a Federal 
standard with the Attorney Generals able to enforce it and the 
opt-in has worked the way I think most of us have thought, that 
it really has acted as a prohibition. The consumer, if it's not 
in 1 of the 4 exceptions, the chances are and I know Mr. Zuck 
will testify to this, that products and services have been 
discontinued. If a site knows that a kid's under 12, they just 
wire them out, take them out of the service. That's much easier 
than getting verifiable consent. I think it's a great example 
of opt-in.
    The last issue that I would like to hopefully get back to 
in questions and answers is the defining issue of government 
access. We can do a lot in self-regulation, industry can do a 
lot. Programs like Carnivore, programs like the FBI collection 
of information, are difficult and I think if you look at most 
of the laws that we've enacted over the last 15 or 20 years, 
government access, the ability of government to demand those 
laws have been a defining part of it.
    Thank you.
    [The prepared statement of Richard L. Plesser follows:]
Prepared Statement of Ronald L. Plesser, Piper Marbury Rudnick & Wolfe 
                                  LLP
                          Federal Privacy Laws
    The United States takes a sectoral approach to privacy regulation, 
adopting regulations only to deal with specific problems, subjecting 
some industries to extensive regulation and others to lighter or 
minimal regulation. This testimony will provide particular focus on 
regulation of children's privacy on the Internet and privacy regulation 
of electronic communications.
    Since the 1970s, privacy regulation has generally been measured by 
five ``fair information practice'' elements articulated by the U.S. 
Privacy Protection Study Commission in 1977 and recently re-enunciated 
by the Federal Trade Commission. All federal privacy regulation 
encompasses at least two of the following features:

<bullet> Notice to the consumer regarding collection, use and 
        disclosure to third parties of individually identifiable 
        information obtained from him/her;
<bullet> Consumer choice either to opt out or opt in to use or 
        disclosure to third parties of such information (in some cases 
        disclosures to affiliates are subject to the choice 
        requirement, in some cases they are exempt);
<bullet> Access to individually identifiable information collected 
        about that particular consumer and an opportunity to correct 
        inaccurate information;
<bullet> Security adequate to protect the information from unauthorized 
        disclosure; and
<bullet> Enforcement of applicable privacy obligations.
    A variety of other requirements--most often prohibitions against 
collection of information--apply in unique circumstances where a 
statute seeks to advance other policy goals. For example, the 
Children's Online Privacy Protection Act prohibits use of an activity 
to solicit from children more information than reasonably necessary to 
participate in the activity. Similarly, the Fair Housing Act prohibits 
collection of information used to engage in racial discrimination.
    Finally, consumer protection law and the Federal Trade Commission 
Act offer a backdrop of limited protection even where no sector-
specific privacy law applies. If a company posts a privacy policy, it 
can be held to its commitment to follow that policy under deceptive 
trade practice laws. Both the Federal Trade Commission and state 
attorneys general have begun bringing civil enforcement actions for 
deceptive trade practices against companies whose privacy practices 
have fallen short of their stated policies in a material way. Section 5 
of the Federal Trade Commission Act gives the Commission authority in 
the context of commercial transactions to protect consumers against 
unfair and deceptive acts. This section 5 authority is what is the 
backbone of self-regulatory programs. While these programs, such as the 
Direct Marketing Association's privacy promise and the BBB OnLine 
program, are voluntary to begin with, they are thereafter enforceable 
if a company fails to do what it had said it would do. The FTC has 
proceeded against several Web sites that did not follow through on 
their commitments. This FTC authority is also the basis for the safe 
harbor program agreed to by the European Union and the Department of 
Commerce.
                a. electronic communications privacy act
    Congressional concern about technological advances in the years 
following enactment of the 1968 wiretap statute led to the enactment of 
the Electronic Communications Privacy Act of 1986 
(``ECPA'').<SUP>1</SUP> Through ECPA, Congress sought to extend the 
telephone network privacy safeguards codified in existing law to the 
new technology, including electronic mail and other computer-to-
computer data transmissions. These communications are in many ways the 
electronic counterparts to letters, memoranda, or files transported via 
the postal system. ECPA addresses the problem of persons gaining 
unauthorized access--or exceeding their authorized access--to those 
electronic communications that, like personal or business 
correspondence, are intended to be kept confidential.
---------------------------------------------------------------------------
    \1\ Pub. L. No. 99-508, 100 Stat. 1860.
---------------------------------------------------------------------------
    Specifically, ECPA's stored communications provisions <SUP>2</SUP> 
prohibit the unauthorized access to or use of stored electronic 
communications such as ``voice mail'' and electronic mail.<SUP>3</SUP> 
The exceptions to the rule of nondisclosure fall into three categories: 
(1) disclosures that are authorized by the sender or the receiver of 
the message; (2) disclosures that are necessary for the efficient 
operation of the communications system; and (3) disclosures to the 
government.
---------------------------------------------------------------------------
    \2\ 18 U.S.C. Sec. Sec. 2701 et seq.
    \3\ Compare Steve Jackson Games, Inc. v. U.S. Secret Service, 36 
F.3d 457 (5th Cir. 1994) (in connection with e-mail, the offense of 
``accessing'' covered by Sec. 2701 governs the retrieval of 
communications while in electronic storage whereas the offense of 
``interception'' covered by Sec. 2511 governs the retrieval of 
communications while in progress), with U.S. v. Smith, 155 F.3d 1051 
(9th Cir. 1998), cert. denied 119 S. Ct. 804 (1999) (in connection with 
voice mail, the offense of ``accessing the facilities'' is a lesser 
included offense of ``intercepting the contents of the communication''; 
``intercept'' entails actually acquiring the contents of the 
communication whereas ``access'' entails being in a position to acquire 
the contents of the communications).
---------------------------------------------------------------------------
    With regard to governmental requests for information, the Act 
usually requires that the customer be notified and given an opportunity 
to contest in court a government entity's request for access to 
electronic mail or other stored communications in the control of a 
provider of electronic communications services or remote computing 
services.
    The law creates a civil cause of action against any party 
committing a ``knowing or intentional'' violation of these 
provisions.<SUP>4</SUP> The aggrieved party may seek injunctive relief 
and actual monetary damages (for amounts above the minimum award of 
$1,000) as well as attorneys' fees and costs.
---------------------------------------------------------------------------
    \4\ See 18 U.S.C. Sec. 2707. But see, Boehner v. McDermott, 1998 WL 
436897 (D.D.C. 1998) (federal legislator held to have a First Amendment 
right to publicly disclose content of illegally obtained cell phone 
conversation of Newt Gingrich).
---------------------------------------------------------------------------
 b. implementation of the children's online privacy protection act of 
                                  1998
    In October 1999, the Federal Trade Commission completed its 
rulemaking implementing the Children's Online Privacy Protection Act of 
1998 (``COPPA''). The FTC's Final Rule largely tracks the plain 
language of the statute, while providing additional detail on important 
issues such as who is covered by the Act, and acceptable forms of 
notice and of consent, among others.
    The Rule went into effect on April 21, 2000, and online services 
and Web site operators who have actual knowledge that they are 
collecting personally identifiable information online from children or 
who target their Web sites or services or portions thereof to children 
under 13 years of age without complying with its requirements face the 
risk of prosecution by the FTC and State Attorneys General (``State 
AGs'').
    The Final Rule takes a practical and flexible approach to 
compliance with COPPA. Key elements include its application only 
prospectively to collection of personal information collected online 
from children, and adoption of a ``sliding scale'' approach to the 
statute's verifiable parental consent requirement, which allows the use 
of e-mail consent from a parent in certain circumstances for at least a 
two-year period. This ``sliding scale'' approach enables sites and 
online services to use an ``e-mail-plus'' mechanism for consent to 
internal uses of the data, while requiring sites and services to use 
print-and-send forms and other ``more reliable methods of consent'' for 
activities that allow children to provide information to third parties 
or that give children free e-mail accounts or chat room access.
1. Overview of the Rule
    The statute and the Final Rule apply only to individually 
identifiable information collected online from a child (``personal 
information'') by a Web site or online service that is targeted to 
children under 13 or that has actual knowledge that it is collecting 
personally identifiable information from a child under 13. Collecting 
information includes providing a child with the ability to have an e-
mail account or the ability to post to a chat room, bulletin board or 
other online forum.
    The Rule's primary goal is to require parental consent before a 
child can make personal information publicly available through chat 
rooms or e-mail. In addition, the Rule, subject to several exceptions, 
limits what information a commercial site can collect without prior 
parental consent even though there is no evidence of harm to children 
resulting from data collection from children.
    It requires Web site operators and online service providers who 
engage in this form of online data collection to do the following:

a) Notice. Provide notice of their collection, use and disclosure 
        practices;
b) Consent. As a general rule, obtain ``verifiable parental consent'' 
        for the collection, use or disclosure of personal information 
        subject to certain exceptions (some of which substitute a 
        notice and opt-out requirement for consent);
c) Information Collected. Provide parents with a description of, and in 
        some cases, the actual information that they have collected 
        online from the child;
d) Opt Out. Allow parents to opt out of further use of the information;
e) Limit Collection. Avoid conditioning participation in an activity on 
        disclosure of more information than reasonably necessary to 
        participate; and
f) Security. Use reasonable data confidentiality, security and 
        integrity procedures.
    The FTC Rule lists acceptable means by which operators can obtain 
``verifiable parental consent.'' These means vary depending upon the 
intended use of the information. For internal uses of information, 
including marketing back to a child, Web sites may use e-mail consent 
accompanied by additional steps to provide assurances that the parent 
is providing the consent. These steps include sending a delayed 
confirmatory e-mail to the parent once the site has received the e-mail 
consent, or obtaining a postal address or telephone number from the 
parent and confirming consent by letter or telephone call.
    By contrast, where a site offers chat rooms, message boards, or 
other similar features that enable children to make personal 
information collected online publicly available, or where the site 
discloses the information to third parties, it must obtain consent 
through sending back a printed form via postal mail or facsimile, the 
use of credit card numbers or toll-free phone numbers, digital 
signatures, or e-mails containing PINs or passwords obtained through 
any of these means.
    Violators are subject to enforcement actions by the FTC or certain 
federal regulators with jurisdiction over particular industries and by 
State AGs. Web sites and online services may comply with the Rule 
either by following the Rule in its entirety or by following self-
regulatory guidelines approved by the FTC.
2. Who Is Covered by the Final Rule's Obligations?
    a. Commercial Sites and Online Services--The Final Rule exempts all 
non-commercial sites and online services. This is consistent with FTC 
authority, which extends only to commercial activities. Nonprofit 
status alone may not exempt prohibited practices. The Rule does not 
define specifically the line between commercial and non-commercial 
sites, and whether a nonprofit engaged in commercial activity would be 
subject to the Rule.
    b. ``Directed to Children''--The Final Rule applies to all Web 
sites and online services, or portions of sites and online services 
that are targeted to children under the age of 13 within the meaning of 
312.2 of the Rule. This is a flexible inquiry that involves assessment 
of ``the overall character of the site,'' including whether:

<bullet> there is child-oriented content on the site, which includes an 
        assessment of the age of models on the site, presence of 
        animated characters, children's music, and/or child-oriented 
        activities and incentives (such as puzzles, games, or trivia);
<bullet> the ads appear to be targeted at children under 13;
<bullet> the language is targeted toward an audience under 13;
<bullet> there is reliable empirical evidence regarding the age of the 
        site's visitors; and
<bullet> there is evidence regarding the intended audience.
    The Rule does not look only to whether a site or service is 
targeted to children in its entirety. If a portion of a site or service 
(such as a child-oriented pen pal service) is targeted to children, 
then the requirements of the Final Rule will apply to that portion 
only. Merely referring or linking users to a site that is targeted to 
children does not subject an operator to the Rule, and linking to a 
site that violates the Rule creates no liability. However, if other 
elements of a site indicate that the site is a child-oriented 
directory, then it would be considered targeted to children under the 
Rule.
    Web sites and services that are targeted to children and that have 
not obtained prior parental consent will be required to monitor their 
chat rooms, message boards and similar services and delete individually 
identifiable information that children post about themselves.
    c. Not ``Directed to Children''--The great majority of operators of 
general audience sites and online services that do not target their 
offerings to children are regulated under the Rule only if they have 
actual knowledge that they are collecting information online from a 
child. Sites and services that ask the age of visitors are therefore 
subject to the Rule's requirements if they allow respondents who 
indicate that they are under 13 onto the site or service. In addition, 
the Final Rule indicates that receiving information ``from a concerned 
parent who has learned that his child is participating at the site'' 
gives the site actual knowledge. It does not indicate whether notice 
from third parties provides such knowledge.
    The commentary on the Rule indicates that the FTC will ``closely 
examine'' sites that appear to be determining through ``age-identifying 
questions'' whether a visitor is a child ``without specifically asking 
for the visitor's age'' to determine whether these sites in fact have 
actual knowledge. For example, asking whether a visitor attends 
elementary school may give a site actual knowledge that it is 
collecting information from children. Similarly, the FTC ``will look 
closely at'' sites that ask for age ranges that include both children 
and teens (e.g., ``15 and under'') to determine whether they ``are 
trying to avoid compliance with the Rule.''
    d. Collecting Information Online from Children--The Rule defines 
the act of collection as any means ``enabling children to make personal 
information publicly available through a chat room, message board, or 
other means, except where the operator deletes all individually 
identifiable information from postings by children before they are made 
public, and also deletes such information from the operator's 
records.''
    This means that if an operator obtains actual knowledge that it has 
collected personally identifiable information online from a child, it 
may either comply with the substantive requirements of the Rule or 
delete the information from its own records before it is made public.
    Therefore, online fora (such as chat rooms, message boards and 
similar services) targeted to children that do not obtain prior 
parental consent will need to put in place a process for: (1) 
moderating and monitoring ``real time'' postings by children; (2) 
delaying making postings containing personal information publicly 
available until such information has been stripped from them; and (3) 
deleting that information promptly from the operator's records.
    Similarly, sites and services that are not targeted to children 
under 13 years of age, but that obtain ``actual knowledge'' that a 
posting contains personal information disclosed by a child may redact 
it of personal information both at the site and in their own databases 
as an alternative to complying with the Rule's requirements.
    e. Responsibilities of Intermediaries and Third Parties Who Receive 
Personal Information--Often information collected at an online site 
passes through several entities who could be deemed to collect the 
information--for example, the Web site host, Web site content provider 
and its affiliates, and advertisers on the site. The Rule adopts a 
case-by-case, functional approach to determining what entity in these 
situations is actually subject to the Rule, examining ownership and 
control of the information, payment for and contractual arrangements 
for collection and maintenance, and whether the site ``is merely a 
conduit through which the information flows to another entity.''
    Internet access providers who do not target children or have actual 
knowledge that they are collecting personal information from children 
are exempt from the Rule. In addition, third parties that receive 
information from operators are exempt from the Rule's requirements, 
although they may find that operators often restrict by contract their 
ability to use the information or disclose it to others.
3. The Rule's Requirements
    Operators that are covered by the Rule, must comply with the Rule's 
five principal functional requirements: (1) providing notice, (2) 
obtaining prior parental consent in most circumstances or complying 
with notice and opt out in most other circumstances, (3) affording 
parents access to personal information collected online from their 
child and the opportunity to opt out of further maintenance and use of 
that information, (4) following the Rule's security requirements, and 
(5) avoiding conditioning participation in an activity on disclosure of 
more personal information than reasonably necessary to participate in 
the activity.
    a. Notices--Operators must provide notice, both on their Web site 
at each point of collection and directly to parents in circumstances 
where parental consent or notice and opt out are required, of their 
collection, use and disclosure of personal information. The FTC's Final 
Rule prescribes in considerable detail the content of the privacy 
notice that operators must provide on their Web site and directly to 
members. The notice:

1) Must be located on the operator's home page and accessible at all 
        data collection points;
2) When provided directly to parents as discussed in section b below, 
        must be provided via e-mail or as part of a print-and-send form 
        where the site or service is subject to consent or notice and 
        opt out.
3) Must be labeled specifically as a notice of the site's information 
        practices regarding children;
4) Must disclose, directly or through the operator of another site 
        (whose name, address, phone number and e-mail address must be 
        listed at the original operator's site), the name, address, 
        phone number and e-mail address of third-party collectors of 
        information at the site, the types of personally identifiable 
        information collected and whether information is collected 
        directly or passively;
5) Must disclose whether third-party contractors have agreed to 
        maintain confidentiality, security and integrity of 
        information;
6) Must disclose how the information will be used (including 
        fulfillment of a transaction, record keeping, marketing or 
        public disclosure) and the types of businesses to whom the 
        information may be disclosed;
7) Must list parents' rights under COPPA and procedures for providing 
        consent and obtaining access to their children's information;
8) Must disclose that the site or online service may not condition a 
        child's participation in an activity on the disclosure of more 
        personal information than reasonably necessary to participate 
        in the activity.
    b. Verifiable Parental Consent and Notice and Opt-out Requirement--
1. Parental Consent Requirement and Sunset for E-mail Consent--As a 
general rule, operators should obtain informed parental consent before 
the collection, use and disclosure of personal information collected 
online from a child.
    In the case of personal information that is part of public postings 
or disclosed to third parties, consent must be obtained through print-
and-send forms via postal mail or facsimile, the use of credit card 
numbers or toll-free phone numbers, digital signatures, or e-mails 
containing PINs or passwords obtained through any of these means. These 
consent methods must be used for ``activities involving chat rooms, 
message boards, disclosures to third parties, and other `disclosures.' 
''
    In the case of personal information that the operator makes only 
internal use of, consent may be obtained through any of the above 
means. At least until April 2002, consent may also be obtained for 
these purposes through e-mail accompanied by ``additional steps ...to 
provide assurances that the parent is providing the consent.'' These 
include ``sending a delayed confirmatory e-mail to the parent following 
receipt of consent, or obtaining a postal address or telephone number 
from the parent and confirming consent by letter or telephone call.'' 
The Commission will ``phase out'' the sliding scale in April 2002 
``unless presented with evidence showing that the expected progress in 
available technology has not occurred.'' The Commission intends to 
begin a notice and comment period with regard to this sunset in October 
2001.
    Operators must offer the parent the option of consenting to 
collection and internal use of personal information collected from the 
child without consenting to disclosure of the information to third 
parties. However, release of personal information to a person who uses 
the information solely to provide support for the internal operations 
of the Web site or service, including technical support and order 
fulfillment, is not considered a ``disclosure,'' and parents may not 
prevent these disclosures if they agree to collection and use of the 
information.
    2. Notice and Opt Out--Operators may provide direct parental notice 
and the opportunity to opt out of further retention of the information, 
instead of parental consent, in two circumstances:
    The first is for collection of a child's e-mail address for the 
sole purpose of responding more than once to a specific request of a 
child (such as subscription to an online newsletter, contest entry, or 
customer service request) where the e-mail address is not used for any 
other purpose. This exception is framed quite broadly and may be useful 
to operators in a significant range of circumstances.
    The second is for a limited child safety exception which permits an 
operator to collect a child's name and online contact information to 
the extent reasonably necessary to protect the safety of a child user 
(e.g., to report evidence of child abuse) where the information is used 
only for that purpose, not used to recontact the child for any other 
purpose, and not disclosed on the site or service.
    3. Exceptions to Consent and Notice and Opt Out--Operators may 
collect personal information without either obtaining parental consent 
or providing parental notice and an opportunity to opt out in the 
following circumstances:

<bullet> For collection of a child's e-mail address for the sole 
        purpose of responding on a one-time basis to a specific request 
        of a child, after which the address is deleted;
<bullet> For collection of the child's or parent's name and online 
        contact information for the sole purpose of obtaining parental 
        consent or providing notice of a parent's right to opt out, if 
        the information is deleted within a reasonable time after the 
        date it is collected;
<bullet> In a school-based setting in which the operator provides 
        notice of its collection, use and disclosure practices to the 
        school and the school provides consent in loco parentis (the 
        Commission also intends to issue guidance to the educational 
        community regarding the Rule's privacy protections); or
<bullet> To the extent reasonably necessary to protect the security or 
        integrity of the site or online service (e.g., to prevent 
        hacking), to take precautions against liability, to respond to 
        judicial process, or to the extent consistent with other 
        provisions of law, to provide information to law enforcement or 
        for an investigation related to public safety, provided that 
        the information is not used for other purposes.
    c. Access and Opt-out Requirements--Operators are required to 
provide parents with access to the types of personal information 
collected online from children, and with ``a means that is reasonable 
under the circumstances'' for the parent to obtain the specific 
personal information the operators have collected. Before providing 
access to the actual information collected, operators must make efforts 
to verify that the requester is in fact the child's parent. These 
efforts include not only secure procedures such as password protected 
e-mail, but any acceptable method for obtaining parental consent to 
third-party disclosures, discussed above. The Rule indicates that 
operators who follow one of these procedures acting in good faith to a 
request for parental access are protected from liability under federal 
and state law.
    The access requirement does not apply to information collected from 
offline sources or collected before the effective date of the Rule 
unless it cannot be distinguished from personal information covered by 
the Rule. In this instance, operators may be required to provide access 
to compilations of personal information merged or enhanced with other 
information.
    Operators must also afford parents the opportunity to have personal 
information collected from their child deleted from the operators' 
databases and to have the operator cease using or collecting the 
information. This opt out simply revokes consent that the parent has 
previously provided. It does not prevent the operator from seeking and 
obtaining parental consent in the future.
    d. Security Requirement--Web sites and online services that are 
covered by the Rule must establish and maintain reasonable procedures 
to protect the confidentiality, security and integrity of personal 
information. The Commentary to the Rule indicates that such procedures 
include secure Web servers and firewalls, deleting information once it 
is no longer used, limiting employee access to data, providing data-
handling training to employees who do have such access, and careful 
screening of third parties to whom the information is disclosed. Noting 
that security measures can be costly, the Commentary gives operators 
discretion ``to choose from a number of appropriate methods of 
implementing this provision.''
    e. Limiting Collection--The Rule also places some limits on the 
collection of personal information by covered Web sites and online 
services. These operators are prohibited from conditioning a child's 
participation in a game, the offering of a prize, or another activity 
on the child disclosing more personal information than reasonably 
necessary to participate in the activity. This measure is designed to 
prohibit tying a child's ability to participate in a prize or game to 
disclosure of personal information that is not necessary for the 
activity in question.
4. Methods of Complying
    a. Safe Harbor--COPPA allows operators to comply by following self-
regulatory guidelines approved by the Commission after notice and 
comment.
    The Rule provides that to qualify for the safe harbor, self-
regulatory guidelines need not be identical to the Rule, but must have 
``substantially similar requirements that provide the same or greater 
protection.'' Guidelines must include an effective, mandatory mechanism 
for independent assessments of operators' compliance with the 
guidelines through periodic reviews or any other equally effective 
mechanism. They must also include an effective incentive for compliance 
by operators who commit to follow the guidelines, including mandatory 
public reporting of disciplinary actions taken against operators who 
violate the guidelines, referrals to the FTC of operators who engage in 
a pattern and practice of violations, consumer redress, voluntary 
payments to the U.S. Treasury, or any other equally effective 
incentive.
    Self-regulatory organizations who obtain safe harbor treatment must 
retain for at least three years and make available to the FTC upon 
request all consumer complaints alleging violations of the guidelines, 
records of disciplinary actions taken, and the results of the 
independent assessments that are part of the self-regulatory program.
    b. Enforcement--The FTC will monitor the Internet for compliance 
with the Rule and bring law enforcement actions to deter violations 
where appropriate. Violations of the Rule are trade regulation 
violations and subject the violator to civil penalties of up to $11,000 
per day for each violation. The FTC also has authority under Section 5 
of the FTC Act to sue to obtain a final cease and desist order, 
temporary restraining orders with or without notice, restitution, 
disgorgement of profits, and other equitable relief.
    COPPA also provides states and other federal agencies with 
authority to enforce compliance with the Rule. State AGs can bring suit 
on behalf of citizens in their state to obtain appropriate relief 
including enjoining the practice, enforcing compliance, or obtaining 
compensation on behalf of residents of their state. A series of federal 
agencies that have jurisdiction over regulated industries receive 
enforcement authority over violations of the Rule by those industries. 
For example, the Office of the Comptroller of the Currency has 
authority over national banks, and the Department of Transportation has 
authority over air carriers.
                                 ______
                                 
                    Overview of Federal Privacy Laws
    Following is a brief description of laws adopted by Congress in 
response to the privacy issue.
                          a. internet privacy
1. Children's Online Privacy Protection Act (15 U.S.C. Sec. Sec. 6501 
        et seq.)
    This statute, adopted by Congress in 1998, is the only federal law 
that specifically regulates Internet privacy. It applies only to web 
sites and online services, and agents of web sites and online services, 
who have actual knowledge that they are collecting information from 
children under 13 (for example, by asking age), or who target a portion 
of their site or service to children under 13.
    COPPA requires these sites and services (``operators'') to post a 
notice of their privacy practices on the web site; to obtain verifiable 
parental consent for collection, use, or disclosure of a child's 
personally identifiable information; to provide parents with the 
opportunity to access the information collected from their children, as 
well as to have the information corrected or deleted from the company's 
databases; and to maintain data security and integrity procedures. 
Violations are enforceable by the FTC and state attorneys general as 
unfair and deceptive trade practices. Companies and trade associations 
may seek approval of self-regulatory guidelines that meet all the 
requirements of the law and the FTC's implementing rules. COPPA 
preempts inconsistent state laws.
                b. privacy in other communications media
1. Cable Privacy--Cable Communications Policy Act (47 U.S.C. Sec. 551)
    This act requires cable television operators to provide notice to 
their subscribers annually and at the time of initiating service about 
the nature of personal data collected, data use and disclosure 
practices, and subscriber rights under the statute. Prohibits a cable 
television company from collecting individually identifiable 
information about its subscribers over the cable system without their 
prior written consent. Generally bars cable operators from disclosing 
such data without prior written consent, except for disclosure of lists 
of subscriber names and addresses that do not reflect subscriber 
viewing habits or transactions over the cable system. Requires 
subscriber access to all personally identifiable information regarding 
the subscriber and a right to correct any errors. Enforcement is 
through a private right of action. Requires destruction of individually 
identifiable information when no longer necessary for the purpose for 
which it is was collected. Authorizes damage awards of $100 per day and 
at least $1,000 per violation, as well as awards of punitive damages, 
costs, and attorneys' fees against cable television companies that 
violate the Act's subscriber privacy provisions. Several multi-million 
dollar class action lawsuits have been filed under this statute.
    Also prohibits a cable operator from providing personal subscriber 
data in its possession to a governmental entity absent a court order 
reflecting a judicial finding of clear and convincing evidence that the 
data subject is reasonably suspected of criminal activity and that the 
information sought would be material. Subscribers must be notified and 
provided with an opportunity to contest the government's claims.
    The Administration recently proposed lowering this standard to 
reconcile it with access to subscriber information under the wiretap 
statute, which requires a lesser showing of suspicion of criminal 
activity and does not require notice to the subscriber.
2. Telecommunications Privacy--Customer Proprietary Network Information 
        (47 U.S.C. Sec. 222)
    Applies to data obtained by a telecommunications carrier concerning 
a subscriber's subscription to and use of telecommunications service 
(not Internet services). However, does not apply to subscriber name, 
address and phone number. Restricts private sector use or disclosure to 
third parties of this individually identifiable customer data without 
prior customer approval, except to provide services to which the 
customer has already subscribed. Requires telecommunications carriers 
to protect the confidentiality of the data, including restricting 
internal access to the information. Enforcement by the FCC.
    Telephone subscription and usage information is a significant 
competitive asset, and the statute has a second purpose of helping to 
advance telecommunications competition. Therefore, it applies not only 
to consumer data, but also to data of telecommunications companies and 
equipment manufacturers. It also requires disclosure of customer data 
to competitors at the customer's request, and prevents local telephone 
companies from using aggregate customer data unless they provide 
competitors with non-discriminatory access to those data.
3. Telephone Consumer Protection Act (47 U.S.C. Sec. 227)
    Requires entities that use the telephone to solicit individuals to 
provide such individuals with the ability to opt out of future 
telephone solicitations. Requires entities that engage in telephone 
solicitations to maintain and honor lists of individuals who request 
not to receive such solicitations for 10 years. Prohibits unsolicited 
commercial telephone calls using an artificial or prerecorded voice 
without consumer consent. Prohibits the sending of unsolicited 
advertisements to facsimile machines.
4. Electronic Communications Privacy Act (18 U.S.C. Sec. Sec. 2701 et 
        seq.)
    Prohibits persons from tampering with computers or accessing 
certain computerized records without authorization. The Act also 
prohibits providers of electronic communications services from 
disclosing the contents of stored communications. Usually requires that 
the customer be notified and given an opportunity to contest in court a 
government entity's request for access to electronic mail or other 
stored communications in the control of a provider of electronic 
communications services or remote computing services.
5. Wiretap Statutes (18 U.S.C. Sec. Sec. 2510 et seq.; 47 U.S.C. 
        Sec. 605)
    Prohibit providers of electronic communications services from 
disclosing the contents of electronic mail, radio communications, data 
transmission and telephone calls without consent or a court order. The 
Federal Communications Commission also has a rule and tariff 
prescription prohibiting the recording of telephone conversations 
without notice or consent. See 47 C.F.R. Sec. 64.501; 5 FCC Rcd 502 
(1987).
                         c. other entertainment
1. Video Privacy Protection Act (18 U.S.C. Sec. 2710)
    Affords users and purchasers of commercial videotapes rights 
similar to those of patrons of libraries. Prohibits videotape sale or 
rental companies from disclosing customer names and addresses and the 
subject matter of their purchases or rentals for direct marketing use, 
unless they provide customers with notice and the opportunity to opt 
out of such disclosures. Disclosure is also permitted with the 
customer's consent or court approval. Requires that subscribers be 
notified and provided with an opportunity to contest a data request 
prior to a judicial determination. Enforcement is through a private 
right of action. Video companies that violate the Video Privacy 
Protection Act may be liable for damage awards of at least $2,500, 
punitive damages, costs, and attorneys' fees.
                          d. financial privacy
1. Gramm-Leach-Bliley Act (15 U.S.C. Sec. Sec. 6801 et seq.)
    Regulates the privacy of personally identifiable, nonpublic 
financial information disclosed to non-affiliated third parties by 
financial institutions. Requirements also attach to non-affiliated 
third parties to which they transfer this information. Requires written 
or electronic notice of the categories of nonpublic personal 
information collected, categories of people to whom the information 
will be disclosed, consumer opt-out rights, and the company's 
confidentiality and security policies. Creates consumer right to opt 
out of disclosures to nonaffiliated parties before the disclosure 
occurs, subject to a long list of exceptions. Requires administrative, 
technical and physical safeguards to maintain the security, 
confidentiality and integrity of the information. Prohibits disclosure 
of account numbers and access codes for credit, deposit or transaction 
accounts to a nonaffiliated party for marketing purposes except to a 
consumer reporting agency subject to the Fair Credit Reporting Act. 
Enforcement is by the FTC or applicable banking or securities 
regulators.
    The notice and opt-out requirements do not apply unless an 
institution or one of its affiliates discloses the information to a 
nonaffiliated third party. However, once those requirements take 
effect, the institution must provide notice of its practices with 
regard to disclosures to both affiliates and nonaffiliated parties.
    The requirements apply directly to both financial institutions and 
the nonaffiliated third parties to which they disclose nonpublic 
information. Unless it complies with these requirements, a 
nonaffiliated third party that receives nonpublic information from a 
financial institution is prohibited from disclosing such information to 
anyone who is not affiliated with both the receiving third party and 
the financial institution.
2. Fair Credit Reporting Act (15 U.S.C. Sec. Sec. 1681 et seq.)
    Regulates the collection and use of personal data by credit 
reporting agencies. Requires that when a data broker is hired to 
prepare an ``investigative consumer report`` (an investigation into the 
consumer's ``character, general reputation, personal characteristics, 
or mode of living'' by means of interviews with friends, neighbors, and 
associates), the request for information must be disclosed to the 
subject of the report, who is then entitled to learn the nature and 
scope of the inquiry requested. Requires that, if a consumer report is 
used in any decision to deny credit, insurance, or employment, the 
report user must tell the consumer the name and address of the 
reporting agency.
    Requires credit reporting agencies to provide notice to consumers 
of their rights whenever a consumer requests access to the contents of 
the consumer's file. Prohibits disclosure of consumer reports 
maintained by consumer reporting agencies without consent unless such 
disclosure is made for a legitimate business purpose or pursuant to a 
court order. Requires consumer access to all information in the 
consumer's file, right to challenge accuracy of information in the 
file, and right of reinvestigation when a consumer disputes the 
accuracy of information in his or her file. Requires brokers to 
maintain security procedures, including procedures to verify the 
identity and stated purposes of recipients of consumer reports. 15 
U.S.C. Sec. Sec. 1681 et seq.
    Enforcement is through a combination of private lawsuits, agency 
enforcement and criminal penalties. Creates private right of action 
against credit reporting agencies who disclose or parties who obtain 
consumer reports in violation of the Act. Individuals may recover for 
actual damages suffered, as well as attorneys' fees and court costs. 
Punitive damages or criminal penalties may also be imposed for willful 
violations of the Act. The Federal Trade Commission and other federal 
agencies responsible for enforcing the provisions of this Act also are 
empowered to declare actions to be in violation of the applicable 
statute, issue cease and desist orders, and impose statutory penalties 
for noncompliance with agency orders.
    Requires reporting agencies to use procedures that will avoid 
reporting specified categories of obsolete information and to verify 
the accuracy of information in investigative consumer reports that are 
used more than once.
3. Electronic Funds Transfer Act (15 U.S.C. Sec. 1693, 1693m)
    Requires banks to make extensive disclosures to customers about 
specific electronic funds transfer (EFT) transactions, both at the time 
the transactions are made and in the form of periodic statements. 
Requires banks to provide notice to customers, at the time they 
contract for EFT services, of their rights, liabilities, charges, 
procedures, etc., connected with the services, and of whom to contact 
if an unauthorized transfer is suspected. In the case of pre-authorized 
periodic transfers--such as automatic bill paying--the bank must 
provide either positive or negative notice as to whether payments are 
being made on schedule. Mandates detailed procedures for the resolution 
of any inaccuracies in customer accounts, and imposes liability on the 
bank for errors in the transmission or documentation of transfers. 
Enforcement is through a combination of private lawsuits, criminal 
penalties and regulatory enforcement. An individual who prevails in a 
civil action for a violation of the Act may recover actual damages 
sustained, a penalty of $100 to $1,000, attorneys' fees and court 
costs, and in limited situations, treble damages. Criminal penalties 
may be imposed for deliberate violations of the Act. Numerous federal 
agencies also have administrative responsibility for enforcing the 
provisions of this Act.
4. Equal Credit Opportunity Act (15 U.S.C. Sec. Sec. 1691 et seq.)
    Restricts inquiries into a credit applicant's sex, race, color, 
religion, or marital status. Prohibits the retention and preservation 
of certain information by creditors and requires the preservation of 
certain specified records relating to credit transactions. Regulates 
the manner in which information collected by creditors may be used in 
making decisions regarding the extension of credit. Requires that, when 
credit is denied or revoked, the applicant must receive notice either 
of the reasons for the decision or of his right to learn the reasons. 
Enforcement is through private lawsuits and administrative enforcement. 
Private plaintiffs may recover actual damages, punitive damages, 
attorneys' fees, and court costs. Individual or class action suits may 
be maintained for administrative, injunctive, or declaratory relief. 
Numerous Federal agencies also have enforcement responsibility for the 
provisions of this Act.
                           e. medical privacy
1. Health Insurance Portability and Accountability Act and Regulations 
        (Pub. Law No. 104-191 Sec. Sec. 262, 264; 45 C.F.R. 
        Sec. Sec. 160-164)
    The Health Insurance Portability and Accountability Act of 1996 
gave the Department of Health and Human Services (``HHS'') authority to 
adopt privacy regulations if Congress failed to legislate in this area 
by December 31, 1999. On December 28, 2000, HHS released a highly 
regulatory final rule for implementing these privacy provisions, which 
goes into effect on February 26, 2003 and will be enforced by HHS's 
Office for Civil Rights.
    Requires health plans and health care providers to provide a 
written notice of how protected health information about an individual 
will be used, as well as an accounting of the circumstances surrounding 
certain disclosures of the information. Prohibits plans and providers 
from disclosing covered information in a manner inconsistent with the 
notice.
    Requires covered entities to obtain a patient's opt-in via a 
``consent'' form for both use and disclosure of protected information 
for treatment, payment or health care operations. Also requires covered 
entities to obtain a patient's more detailed opt-in via an 
``authorization'' form for both use and disclosure of protected 
information for purposes other than treatment, payment or health care 
operations.
    Permits several forms of marketing and fundraising uses of 
protected information subject to receipt of written consent. Requires 
separate patient authorization for transfers of protected information 
for routine marketing by third parties. Provides right to access, copy, 
and amend the information in designated record sets, including in a 
business associate's records if not a duplicate of the information held 
by the provider or plan. HHS would enforce the rules through a variety 
of sanctions, including denying federal funds to violators.
    Applies to individually identifiable health information that has 
been maintained or transmitted by a covered entity. Will apply directly 
to three types of entities: (a) health plans, (b) health care 
clearinghouses, and (c) health care providers. Also will require these 
covered entities to apply many of its provisions to their business 
associates, including contractors, third-party administrators, 
researchers, life insurance issuers, and employers.
                           f. student privacy
1. Family Educational Rights and Privacy Act (20 U.S.C. Sec. 1232g)
    Requires schools receiving public funds to provide notice to 
parents of minor students, or students over 18 years of age of their 
rights under the statute. Prohibits schools from using or disclosing 
individually identifiable contents of a student's records without the 
consent of the student or of the parent of a minor student. Provides 
exemptions from consent for disclosures for a variety of educational, 
statistical, and public safety purposes. Allows disclosure of data-
specific items including name, address, telephone number, date and 
place of birth, major, sports participation, dates of attendance, and 
degrees and awards received, if the school provides public notice of 
its disclosure policy and the opportunity to opt out of disclosures.
    Permits a student or the parent of a minor student to obtain access 
to and a hearing to challenge the accuracy or completeness of 
educational records that concern the student. Vests administrative 
enforcement of the Act in the Department of Education, and provides for 
termination of Federal funds if an institution violates the Act and 
compliance cannot be secured voluntarily.
    Prohibits government access to personal data in educational records 
without a court order or lawfully issued subpoena, unless the 
government is seeking access to the records for a specified education-
related purpose.
                 g. civil rights and polygraph privacy
1. Fair Housing Act (42 U.S.C. Sec. Sec. 3604, 3605)
    Restricts the collection and use of information that would result 
in housing discrimination on the basis of race, sex, religion, national 
origin and a variety of other factors.
2. Equal Employment Opportunity Act (42 U.S.C. Sec. Sec. 2000e et seq.)
    Restricts collection and use of information that would result in 
employment discrimination on the basis of race, sex, religion, national 
origin, and a variety of other characteristics. 42 U.S.C. Sec. 2000e, 
et seq.
3. Employee Polygraph Protection Act (29 U.S.C. Sec. Sec. 2001 et seq.)
    Prohibits employers from requiring a polygraph test as a condition 
of employment or using the results of such tests as the sole basis for 
disciplining employees or taking other adverse employment actions. Bars 
employers from publicly disclosing the results of polygraph tests 
unless disclosure is made to the government pursuant to a court order 
or for the purpose of providing the government with information on 
criminal conduct. Employers that violate the Act may be subject to a 
fine of up to $10,000, injunctive relief such as employee 
reinstatements, and awards of damages, costs, and attorneys' fees.

    Mr. Stearns. I thank the gentleman.
    Mr. Varn.

                    STATEMENT OF RICHARD VARN

    Mr. Varn. Thank you, Mr. Chairman. I've been involved with 
this issue also for about 25 years, chairing the Information 
Technology Policy Task Force of NCSL, National Conference of 
State Legislatures for 3 years, got them to create a committee, 
a standing committee to deal with this and was involved and 
currently chair NAISR which is people like me, CIOs of the 
state. They're a group on privacy and personalization of 
information.
    Provided to you also in your attachments to this material, 
a guide to help policymakers like yourself deal with these 
difficult issues and try to balance these and I'd commend it to 
you. It's a short read and it was designed with people--written 
for people like you.
    I certainly appreciate the deliberative approach you're 
taking here, the approach I think is warranted for these 
reasons. Information is a natural resource to the modern 
economy in a democracy and technological environment 
information is, in fact, the fuel of our future. We've learned 
from experiences like Y2K and the energy shortages we've 
experienced, that these systems are interconnected in ways that 
are very complex and we depend on them. Changes in one part 
tend to trigger changes, unattended consequences ripple 
throughout the economy in ways we can't even imagine since 
they're so tightly interconnected.
    In fact, the flow of information has become as vital as the 
flow of energy in our world, neither the benefits of this 
information flow nor the cost of its restrictions are fully 
apparent or even known, making this deliberative approach 
necessary and some watchful waiting advisable.
    To that end, I want to cover a few issues related to DPPA, 
a little bit to voter registration and specifically what local 
government and states are doing to relate to this issue and 
cover the rest in questions.
    Specifically, I want you to think of these things as four 
separate issues because to do otherwise leads to confusion in 
almost all discussions, when I was a lawmaker for 12 years and 
since I've been in the administrative branch. Split it into 
these talks. Privacy, the who, what, when, where, why and how 
of policies and date where our values are expressed as another 
congressman talked about, where our values are expressed and 
then codify it to the extent we can; security, where we 
actually enforce those privacy policies; integrity, where we 
guard against the accidental or purposeful changing or loss of 
our information; and finally, accuracy, the quality assurance 
and customer-friendly processes that lets people find and 
correct information errors in government records.
    With those four areas in mind, I've also provided a list to 
my testimony of other sort of methodical approach to trying to 
solve these problems. I hope the categories I have provided you 
allow you to target your solutions more accurately to the 
problems of bad actors or whoever is causing the problem and I 
encourage you also to consider some proactive measures. For 
example, our identify system is fundamentally broken. I'll talk 
a little bit more about that in a second. Consider also 
investment in law enforcement teams to go directly after 
identity theft and also services such as consider an identity 
theft advocate being something in an Attorney General's office 
or elsewhere that would help people repair their good 
reputation and their good credit.
    As we've noticed in the DPPA, the acts rely on trying to 
keep common facts like your address secret and that is then--
becomes this very weak and unreliable security method. It's 
supposed to be the firewall between you and evil. It can't work 
that way. Common facts are out of the bottle and they can't be 
put back in, things like address can't protect you from 
violence. Especially in that case, the very person, the private 
detective who actually found the information that led to the 
incident of killing the actress ended up being exempted, the 
very private detective that could have found it, could find the 
information after the law passed in the DPPA.
    I also note that voter registration, while it was well 
intended, the Motor Voter Act, as you encourage people to 
register to vote, I'd also note that underlying all that is an 
antiquated system of voter registration, that you do need to 
help us invest in and to change. Some matching grants from 
Congress will help legislators focus on that issue because it 
isn't so much in getting people to vote, it's actually having 
these systems work and talk to each other and I don't think 
that the issue there is privacy. I think you all want access to 
that type of information so our democracy will work.
    Local governments are just not keeping up in many cases. 
It's a patchwork. They are a drag on our privacy, security, 
access and e-government issues and we need to find ways to 
encourage them to establish and maybe just some voluntary 
guidelines to encourage them to bring those up. And why do I 
bring that? The very fact of civic and economic citizenship for 
Americans is established and extinguished by the birth, 
marriage and death records created at the State and local 
level. You all build off of those to create Social Security 
numbers and passports and we chime in to having actual driver's 
licenses and voter registration. This bedrock is a shaky one. 
It is not founded on things that are sound. Note this, if paper 
birth certificates, Social Security number, your mother's 
maiden name, your city of birth, your name and address are 
these crumbling pillars of identity, all of these things are 
easily stolen and forged and this is not going to get back in 
the bottle soon either. These facts and these paper systems are 
not going to work. These components of identity worked when 
everybody knew each other. This doesn't work any more. Many 
states, such as mine, are moving forward with things like 
public key encryption and also with digital signatures and 
biometrics to be able to allow our citizens choices to 
strengthen their identity. Things like DPPA that tried to keep 
simple facts away from people are not going to work in a modern 
era of modern commerce where we do business with people we 
never see or know.
    Finally, as we are engaged in a lot of these activities, I 
would say that states are a good laboratory for you to follow. 
I would note that in Congress and as with State legislators, to 
conclude, anecdotes are the catalysts for legislative policy. 
Stories tell it best to us.
    I'd also remind you that hard cases make very bad law and 
in the states we most have CIOs, there's no Federal CIO yet. 
There's no one committee of Congress who focuses on information 
policy. No wonder it's a patchwork. We haven't stacked up in 
each branch of government people to deal with these policy 
areas. Too much time and effects and not enough time, I think, 
on the bad actors.
    In conclusion, don't forget, there are many government 
functions that require personalization and use of every bit of 
information we collect to enforce the laws you pass on down to 
the states. So in order to be able to catch the person who is 
delinquent in their child support, we must relate various bits 
of information to other bits. The same thing happens in the 
private sector, to deliver good customer service.
    Thank you.
    [The prepared statement of Richard Varn follows:]
         Prepared Statement of Richard Varn, CIO, State of Iowa
         why a deliberative approach is warranted in this area
    Information is like a natural resource to a modern economy and 
democracy. Information is the raw material for the knowledge revolution 
of the Information Age. Without complete and reliable information, much 
of the benefit of information technology cannot be realized. Data 
warehousing and relational databases, geographic information and 
visualization systems, and extraordinary technological developments 
help us better understand our world and behavior of chaotic and complex 
systems that otherwise defy comprehensive human understanding. In such 
a technological environment, information is the fuel of our future. The 
benefits of the Information Age can only be realized if we have the raw 
materials on which it's essential systems depend: complete and accurate 
information used within the reasonable expectations of privacy.
    As we have learned from such experiences as Y2K and various oil and 
gas disruptions, our technology systems are complexly inter-related. 
Technologies even depend on each other as we depend on them. Changes in 
one part of them tend to send cascading effects that carry the echo of 
that change throughout out systems. We continue to be surprised by this 
at our peril.
    We also know that our government and the consumer economy is very 
info-dependent. 60% of our economy is consumer spending and marketing 
drives this. Our market economy itself depends on basic information 
equity and access or markets are not efficient. Government oversight 
and efficiency depends on enterprise wide data systems that cut across 
the traditional stovepipes of government agencies. The flow of 
information has become as vital as the flow of energy to our world. 
Neither the benefits of this information flow nor the costs of its 
restriction are fully apparent or even known, making necessary a 
deliberative approach to policymaking and some watchful waiting prior 
to action advisable.
how do we balance privacy and access in making public records policy in 
                   the era of electronic government?
    The following principles are a suggested starting place. The full 
text can be found in the attachment The Public Record: Information 
Privacy and Access, A New Framework for Finding the Balance by Cate and 
Varn.
1. Policymakers Should Identify and Evaluate Conflicting Interests
    Decisions regarding privacy and access inevitably affect and are 
affected by other important interests. These interests are often 
socially valuable and deeply held. It is therefore essential that any 
policymaking process identify and examine those interests carefully to 
determine how they are implicated by a proposed law or regulation and 
to what extent they can and should be accommodated. In addition to the 
broad concepts of ``privacy'' and ``access,'' those interests often 
include, but are not limited to, concerns about:
    Equality: Equal and open access to public records helps level the 
playing field in such endeavors as issue advocacy, lobbying, and 
elections. It also gives small and start-up businesses access to some 
of the same databases as large and established players.
    Freedom: Public records about the functioning of government, 
private individuals, and companies can be used to keep them in check so 
they do not impinge on the rights of others.
    Participation: The more people know about their world and about 
government in particular, the greater the likelihood that they will 
increase the quantity and quality of their contributions to 
participatory and representative democracy.
    Security: Public record security and integrity systems must be 
adequate to the task or their failure will defeat the goals of both 
privacy and access, cause explosive public reactions, and create 
governmental liability.
    Economic Opportunity: A substantial portion of the current economy 
is in part dependent on the free flow of public records and limiting 
their use or availability will have economic consequences. Moreover, 
public and private records are the raw materials for the emerging 
economy and for the knowledge revolution of the Information Age.
    Quality of Life: The use of information systems can free people 
from rote tasks and greatly speed transactions. Getting the amount of 
privacy one needs, however, also may affect quality of life.
    Intangible Values and Uncertain Fears: A catchall value for things 
people like and dislike. Often we dress up our likes and dislikes in 
more eloquent terms, but often decisions and opinions are really based 
on this simple amalgamation of our feelings.
    Efficiency: Efficient access to public records saves time, 
resources, and money. Without complete and reliable information, much 
of the benefit of information technology cannot be realized. However, 
we can also be so efficient as to impinge on individual freedoms.
    Fairness: Is the process by which a law or rule is enacted, or by 
which a decision is reached, fair, and is the outcome fair to all of 
the parties involved?
2. Privacy solutions must respond reasonably to defined problems
    Those privacy problems or harms used to justify restricting access 
to public records should be stated explicitly and should reflect 
reasonable expectations of privacy. The Supreme Court has long asked in 
the context of various constitutional issues, such as Fourth Amendment 
challenges to government searches and/or seizures: What expectation of 
privacy is implicated by access and how reasonable is that expectation? 
When evaluating wiretaps and other seizures of private information, the 
Court has inquired into whether the data subject in fact expected that 
the information was private and whether that expectation was reasonable 
in the light of past experience and widely shared community values.14 
The inquiry regarding the reasonableness of the privacy concern should 
take into account three specific issues: (1) the sensitivity of the 
information disclosed; (2) the use to which the information is to be 
put; and (3) privacy protection afforded similar information in the 
past. These inquiries help prospectively arrive at a common-sense value 
on the privacy side of the access-privacy balance. Furthermore, the 
solution should go no further than is necessary to solve the problem: 
Access should be limited no longer and to no more data than necessary 
to protect privacy. Laws that purport to stop a harm to privacy but are 
ineffective harm both privacy and access. Such laws at once constitute 
an empty promise and a restraint on openness and freedom of 
information.
3. Limits on access to protect privacy should be effective and no more 
        restrictive than necessary
    The accommodation between access and privacy needs to be carefully 
crafted, so that we continue to permit as much access as possible 
without unnecessarily invading privacy. For example, both access and 
privacy interests might be served by delaying access to certain law 
enforcement records until a pending investigation is completed. In 
other cases, removing (known as ``redacting'') particularly sensitive 
information from documents otherwise made public might protect the 
individual's privacy interests and be preferable to denying access 
altogether. In no event should limits be imposed on access to, or use 
of, public record information to protect privacy if those limits will 
not in fact be effective in solving identified problems. Government 
should not impose broad limits on access to protect information privacy 
where effective, extra-legal mechanisms exist that permit a more 
sensitive and individualized balancing of access and privacy interests. 
The development of privacy seals and certification programs, 
anonymizing software, user-determined browser privacy settings, 
prominent privacy policies, industry codes of conduct, and technologies 
that allow persons to opt out of specified uses of some types of 
government records are examples of market responses to privacy concerns 
generally that diminish the need for government action by allowing 
individuals to protect effectively the privacy of data about them. 
Clearly, these and similar developments will not eliminate the need for 
government attention to information privacy, but the number and variety 
of these initiatives, and the speed with which they are emerging, 
suggest that they may supplant the need for at least some government 
actions to protect information privacy.
4. Privacy interests are limited to personally identifiable records
    Access to government records that do not identify individuals 
should not be restricted on the basis of protecting privacy. Anonymous 
and pseudonymous records pose no meaningful privacy threat. Aggregate 
data can be used in ways offensive to the privacy concerns of some, but 
by far these concerns have been best addressed by market-based 
solutions and private sector codes of conduct. If government action is 
considered, it should be aimed at the behavior of the offenders and not 
the records themselves.
5. Enhancing state revenue is not a privacy problem
    The government should not use privacy claims as a pretense for 
raising revenue or enhancing the competitive position of state-
published information products. This principle does not suggest that 
the government cannot seek to recoup the marginal or even the 
operational cost of providing records. But levying excessive charges on 
citizens to use a public infrastructure that is already paid for with 
tax dollars is wrong. Moreover, the government should not use claims of 
protecting privacy as a justification for restricting access to 
information for other purposes. This principle would seem to many so 
obvious as to not warrant stating, but many calls for privacy 
protection today are in fact seeking protection from other harms or are 
unrelated schemes for generating revenue.
6. Public information policy should promote robust access
    Information policy should facilitate as much access as possible 
without harming privacy interests. The more robust the flow of data, 
the more robust the information infrastructure that supports both 
democratic processes as well as growth of our economy. This reflects 
the constitutional importance of open public records and the law in 
most U.S. jurisdictions today: access is presumed unless a specific 
privacy exemption applies. It also reflects the importance of the 
public record infrastructure to our polity and our economy. As noted 
above, it is often possible to target specific privacy harms and leave 
the public record infrastructure largely intact.
7. There should be no secret public records
    An informed citizenry is essential to all checks and balances 
systems and that includes public record systems. The public should be 
able to easily discover the existence and the nature of public records 
and the existence to which data are accessible to persons outside of 
the government. In many cases, it may be desirable and appropriate for 
the government to inform citizens about who is using their public 
records and for what purposes. Obviously, access to records is not 
appropriate in all cases (one notable exception in many jurisdictions 
is investigative files before a criminal case is brought), nor will it 
always be feasible or advisable to provide information to citizens 
about the uses made of their records. But this principle recognizes 
that access not only serves broad social purposes, but also helps build 
citizen confidence in the public record system, improve the accuracy of 
public records, helps sharpen citizen understanding of privacy and 
access implications of the uses of their records so that they may 
respond appropriately, and contributes to educating all of us about the 
actual costs and benefits of public record access.
8. Not every privacy/access issue can be balanced
    Despite the importance of balancing, it is not appropriate in every 
case. The courts have established that there are some instances where 
the societal interest in access is so great that it trumps all privacy 
concerns. For example, Congress recognized the overriding importance of 
access, irrespective of the significant privacy interests at stake, 
when it passed Megan's Law, requiring states to make publicly available 
the records of convicted child sex offenders for at least ten years 
after their release from prison. Congress believed that the societal 
interest in access to the record overwhelmingly outweighed the privacy 
interests, however great, of the convicted sex offenders. In other 
cases, information must be public to effectuate the public policy 
reasons for collecting it in the first place. One example of such a 
record is bankruptcy filings so that creditors have the opportunity to 
protect their interests and future creditors can accurately assess 
risk. Similarly, the privacy of some types of records is of such 
importance to our society that it outweighs access interests. Use of 
certain types of records, such as medical or individual tax records, 
causes such significant demonstrable harms that our society rejects 
that use even when there is a substantial desirable benefit. Productive 
use of other types of records causes such a visceral reaction that we 
restrict that use, as demonstrated by the recent outcry over digital 
driver's license photos. However, one must exercise caution in the 
application of this principle, as there are many false positives of 
this kind of reaction caused by sensationalistic journalism and 
unscientific or biased polling. It is also true that in most cases 
where a visceral reaction, rather than evidence of specific harms, 
prompts legislative action, that reaction precedes any understanding of 
the benefit of the use of the record so no true balancing process was 
used. Ultimately, policymakers must decide whether the harms are 
sufficiently clear and severe or the reaction sufficiently genuine and 
widespread to conclude that it is in the best interests of state or 
nation to close access to the public record.
9. Systems for accessing public records and, where appropriate, 
        controlling their use should not be burdensome
    The mechanisms for accessing the public records and for allowing 
individuals to protect the privacy of records concerning them should be 
easily accessible and no more burdensome than necessary. Information 
technology systems are emerging that may allow persons to opt out of 
specified uses of some of their government records. These important 
systems should not be exempt from the process of balancing the range of 
interests in the record against the privacy interests of the 
individual. Moreover, these systems can be costly to run and government 
must account for this as a spending priority and a societal concern. It 
must balance the cost of such privacy and who benefits against the 
other priorities of the government, the public, and of those parties 
directly affected by the loss of access. In using this test it is 
rarely, if ever, feasible or justifiable to require a person to 
affirmatively determine the uses of their non-confidential records 
(known as opting in). This would involve permissions from each of 
person in the 100 million households in America for each record and/or 
for each use. The process of responding to countless requests for 
permission would make the solution worse than the problem.
10. Information policy must ensure the security of the public record 
        infrastructure
    The government must ensure that public records are protected from 
unauthorized access, corruption, and destruction. Public record 
security and integrity systems must be adequate to the task or their 
failure will defeat the goals of both information privacy and access.
11. Education is key
    An informed citizenry is essential to the balancing process for 
both the individual choices they may make and in understanding the 
costs, risks, and benefits of privacy and access solutions. 
Government--assisted by industry, not-for-profit organizations, and the 
academic community--has a duty to educate the public about privacy and 
access issues. The more policymakers and the citizenry know about this 
issue, the more accurate and satisfying the balancing process will 
become.
12. The process for balancing access and information privacy should be 
        sound
    Government should have a process for balancing access and 
information privacy issues that is informed, consistent, and trusted by 
all parties. This process should be in place before one evaluates any 
new access or privacy issues.
 what are the information policy options and how can we categorize the 
                                choices?
    First, there are four distinct issues that are often discussed as 
one and confusion is the result. Keeping the following separated will 
aid policymaking. The four different issues are:

<bullet> Privacy--the who, what, when, where, why, and how policies on 
        data and records where our values are expressed and codified
<bullet> Security--the enforcement of privacy policies
<bullet> Integrity--maintenance and protection of records from 
        accidental or purposeful alteration or loss
<bullet> Accuracy--quality assurance and a customer-friendly process to 
        detect and correct errors
    Of these four, security is the ripest for action. Government and 
private entities are beefing up security and hiring chief security 
officers, but our investments are lagging behind what a good risk/
benefit analysis calls for. Better security programs, awareness, 
training, staffing, research, and so on are easy win-win areas for 
Congress and state and local government.The following are categories of 
other possible responses to any perceived gaps in our privacy or access 
policies.
Proactive Measures To Get Ahead Of Or More Directly React To The 
        Problems
    For example we could be investing more in law enforcement teams to 
directly combat identity theft and go after the bad actors instead 
focusing on restricting the information flows. Another area ripe for 
action is to fix our broken identity system by improving the birth, 
marriage, and death certificate issuance system and better coordinating 
them with our social security number issuance, driver's license, 
passport, and voter registration systems. The reason identity theft is 
rampant and many privacy problems occur is because we rely on an 
antiquated system of identity. A paper birth certificate, a social 
security number, your mother's maiden name, your city of birth, your 
name, and an address are the crumbling pillars of identity. All of 
these are easily stolen or forged and it is unlikely this genie will 
ever be put back in the bottle. These components of identity come from 
a time when people worked with and did business with their friends and 
neighbors, often on a handshake or a bare signature. There was no need 
to be able to prove you were whom you said: these people knew you. 
Today, we do business we people will never see or know. Many states, 
including mine, are moving forward with such systems as Public Key 
Infrastructure and digital signatures with optional biometrics to prove 
and repudiate identity. Iowa is also just beginning a project to 
strengthen our identity system to give our citizens greater security 
and more choices to prove and protect their identity. Congress should 
do the same. While this is not politically easy, we have made such 
moves successfully in the recent past. Remember when driver's licenses 
did not have photos? Our citizens often renewed early to get the new 
photo licenses to make it easier to cash or write checks. We are ready 
for the next steps.
Organizational Infrastructure
    There should be information policymaking entities in all three 
branches of government. These could be the CIO or another entity. The 
structures need to include both privacy advocacy and access advocacy in 
their makeup to provide a balanced approach. Privacy and policy 
enforcement entities are needed as well. Care needs to be given to 
creating policies that offer a hollow promise of protection because no 
effective enforcement policy, mechanism, and/or entity are created with 
the policy. Consideration must be given to likelihood of enforcement 
success and its cost to see if the information policy is cost effective 
or enforceable at all. A good question is: how far are you willing to 
go to detect violations? Will we use citizen trackers to help detect 
violations? Will we salt lists? Will we use stings, surveillance, and 
even undercover agents to detect violations? The allusion to the drug 
war is purposeful here as information is even more difficult to 
control. Be prepared for the cost of investment in money and in its 
invasiveness when you adopt information policy.
Services and Support
    Government could go a long way to solving some of these problems 
with some public services. An example would be an identity theft 
advocate for the victims of this crime. This advocate would help the 
victim restore their good name and credit and could determine the 
authenticity of the victims claims and place a stamp of authority on 
their requests for record corrections to speed that process. They can 
also act as guide to help use existing law to repair the damage. 
Another service is that of gatekeeper to shield those for whom ordinary 
open records laws pose a special threat. Keeping one's name and address 
secret cannot be the pillar of security on which build a safety system 
for most people in a democratic society with a market economy. However, 
some people need special protection such as a battered spouse and a 
service that mediates contact with them to facilitate the normal 
business of living in our society would help address that problem 
directly. A final service would be to support P3P and other software-
based solutions to make privacy choices practical and not unduly 
burdensome for transacting business with government.
Law and Policy
    When considering any law or policy, it is helpful to consider each 
step in the public records process and narrowly tailor your solution to 
that step or steps that best effectuates your policy. The key steps are 
as follows:

<bullet> Collect--Weigh the burdens and benefits of collecting, using, 
        managing, protecting, disseminating or keeping secret, storing, 
        archiving, and preserving or purging the information. If you do 
        not want the information in the public record, do not collect 
        it in the first place.
<bullet> Use--What use will be made of the information, keeping in mind 
        that not all uses nor their value can be judged in advance, and 
        what is the value of that use.
<bullet> Notice--What kind of notice should be required to properly 
        inform the customer. Consider more multimedia notices using , 
        for example, distance learning tools instead of just print 
        notices.
<bullet> Choice--If a choice is possible and if one is offered, how 
        should it be exercised? Keep in mind that the transactional 
        costs of opting in or out can be high and that for many 
        government records (bankruptcy filings for example), opting is 
        not an option.
<bullet> Knowledge and Education--Can you help people make more 
        knowledgeable choices? North Carolina build such education into 
        their K-12 curriculum.
<bullet> Access--To whom will access be granted and for what purposes?
<bullet> Secondary use--Many government programs such as the 
        enforcement of child support orders require the secondary use 
        of government records to work. For example, tax refunds and in 
        some states, professional licenses are withheld for 
        delinquency. Some unauthorized information reuse by government 
        is inevitable. Still, consider whether government or others 
        will be allowed such use.
<bullet> Downstream use--Most public records not restricted any more 
        than any free speech is in our society. Consider both the value 
        of this and the cost before restricting such use and how it 
        would be enforced.
<bullet> Dispose--You can deal with sensitive information such as 
        credit card numbers by making it a transactions collection only 
        and not keeping it after that step. Like the credit card 
        number, get rid of information that government does not need to 
        do business or administer the laws.
<bullet> Redact--Eliminate sensitive information from records instead 
        of restricting the entire record. This often solves the privacy 
        problem and preserves the benefits of robust access and 
        openness.
<bullet> Expunge--This tool has been used in the criminal history area 
        for both adults and juveniles. Consider whether other records 
        should be handled in the same way.
<bullet> Store--This is both a decision and a security issue: should 
        you store it, for how long, and how will it be protected?
<bullet> Archive--Finally, our archival policies should be considered 
        in light of both the interest of preserving history and in 
        protecting privacy. The change from paper to electronics may 
        lead one to make different archival decicions.
<bullet> Market Solutions--Consider whether government action is 
        necessary or whether the market has or can develop a solution. 
        Companies will react when their customers react and looking for 
        market failures may be a more productive use of precious 
        policymaking efforts. Remember also that good customer service 
        often requires use personal information and many people want 
        that kind of service. Those of us who grew up in small towns 
        expect our merchants to know their customer and what we need. 
        Technology makes that possible in mass markets and it is very 
        popular. Those who do not want to be treated this way usually 
        have an alternative if the company is smart. If they are not, 
        there is a burgeoning privacy industry that can help you stay 
        anonymous and even broker you personal information for your 
        gain.
<bullet> Rights--A final tool is all of the existing and newly created 
        statutory and constitutional rights. Consider whether people 
        can protect their own rights with civil suits and whether it 
        would be better to let the courts sort out some of the hard 
        questions case by case and later codify case law as we have in 
        many other areas.
    driver's license protection, voter registration, local records, 
            identity and state and local actions on privacy
    Finally, I have been asked to address some of the federal and state 
laws that relate to privacy. First, the DPPA has been implemented by 
the states as mandated. However, it is questionable whether the 
benefits were worth the cost. We must consider one of the main premises 
of the law and the impetus for its consideration: that a person's 
address can and should be a secret to ensure ones safety. As already 
noted, protecting one bit of commonly available information is not a 
good foundation for personal security for most persons. If you rely on 
such remedies alone you will not achieve the desired result and you 
will have cut off valuable uses of the information. DPPA has been 
educational for the citizens, but it is questionable whether informed 
choices are being made on the opt-in provisions. Furthermore, given the 
exceptions in the law and the commonness of some of the ``protected'' 
data, it is also questionable whether citizen expectations of privacy 
are realistic or accurate.
    Second, voter registration systems are being studied and updated 
nationwide. The Motor Voter provision has encouraged more citizens to 
register, but antiquated data systems have hindered the smooth or 
accurate addition of these voters in many states. Investment in the 
basic infrastructure of democracy continues to be a crying need, but 
the window of opportunity to act may be partially closed with the 
financial troubles many states are currently experiencing. Whether 
excuse or honest attention to other priorities (such as HIPAA 
compliance), voter registration modernization may slip through the 
cracks. Federal investment in matching grants would be a wise choice.
    As far as voter registration systems and privacy is concerned, 
consider that voter registration privacy may be an oxymoron. Without 
robust open access, our democracy does not work. Without adequate 
identity controls, it cannot be trusted. If the addresses of your 
constituents are secret, how can you serve them, persuade them, or 
reach them?
    Third, local records are bedrock of government's information 
infrastructure. The basic building blocks of our data are made and kept 
there. Yet, the level of investment in these systems, their security, 
and their modernization is extremely varied. Much is made of countering 
threats to our national infrastructures but little attention is paid 
this vital link in our government system and our economy. Those local 
governments who are not keeping up are a drag on privacy, security, 
access, and e-government. Consider ways to encourage them, help them, 
and establish basic voluntary minimum requirements to give local 
records advocates and administrators a spur to action.
    Fourth, to reinforce the importance of non-federal records, it 
should be noted that the very fact of civic and economic citizenship 
for most Americans is established and extinguished by the birth, 
marriage, and death records created by state and local government. 
These foundational elements of our society are badly in need of 
modernization, coordination, and sound policy making around their 
creation and use.
    Finally, most states are now fully engaged in privacy, security, 
access, and e-government efforts. Substantial work remains, but much is 
being accomplished. Federal pre-emption while attractive for reasons of 
uniformity would cut Congress off from these laboratories of democracy 
in a case where they are needed most. Let them work. Offer financial 
encouragement and assist them to share best practices. Let them achieve 
and make mistakes and learn from both. The issue of information 
integrity (which includes disaster recovery and business continuity) 
constantly suffers from a classic risk management dilemma: how much do 
you spend to avoid a catastrophe and how do you convince people to 
spend the money today when there are so many pressing needs. We all 
worry about our other infrastructure--sewers, water, highways, and 
buildings--a lot more than we worry about our information 
infrastructure. We need to continue to grow our investment and 
partnerships in this area. Finally, a federal-state-local-private-
sector partnership is warranted in the area of accuracy. We do not have 
as many good models nor are the investments being made in either 
quality assurance or systems for finding and fixing inaccurate 
information held in public and private records.

    Mr. Stearns. Thank the gentleman.
    Mr. Torres, you are recognized for 5 minutes.

                    STATEMENT OF FRANK TORRES

    Mr. Torres. Mr. Chairman, Congressman Towns, Congressman 
Shimkus, on behalf of Consumers Union, thank you for this 
opportunity to speak with you about privacy today. I'm going to 
try to put a little different perspective on it, looking at it 
from a consumer's perspective.
    The state of privacy in America today is not very good. 
Every day, consumers are forced to give up their privacy to get 
products and services. Often consumers don't even know the 
information about them is being collected and even if they did, 
they couldn't do anything to stop it. Soon, as we found out, 
your TV will now be watching, your cell phone will give others 
your location, your computer software may even turn on you, 
sending out data about you and your family to the world. Web 
bugs and cookies are already the norm. The filters used by 
parents and schools have turned out to be data collection 
devices. Kids on their home computers and students in their 
classrooms aren't even safe from prying eyes.
    Industry was unable to keep its promise to self-regulate 
when it came to kids, so Congress passed COPPA. Now we find 
that some websites don't like the law and are ignoring it. The 
Annenberg School at the University of Pennsylvania came out 
with a very compelling study showing that people simply aren't 
complying with the law. To us, there's a problem in the 
marketplace when Congress can't even protect America's kids 
from these prying eyes in the classroom and at home. Simply 
put, the marketplace will not provide adequate privacy 
protection for America's consumers. So if consumers want 
privacy, Congress must act. But for the most part, it really 
hasn't.
    We've talked a lot today, there's been a lot of discussion 
about a comprehensive approach to privacy and something came 
out time and time again. And as the gentleman from AT&T pointed 
out, their philosophy is let consumers choose. Well, that would 
be a foundation for a comprehensive privacy law. Let consumers 
choose. Notice isn't enough. As Richard Smith testified, the 
notice that you got on the TiVo didn't fully explain what they 
did.
    Consent shouldn't be looked at as a restriction, rather it 
would help foster competition. If a company is so confident in 
its products then why not convince the consumer to allow it to 
have access to the consumer's information to collect it to 
provide even better products and services?
    Unfortunately, there are no laws today protecting privacy 
on-line. There are no laws that begin to contemplate emerging 
technologies like spyware. Gramm-Leach-Bliley is weak and full 
of loopholes and the medical privacy protections that should 
have been put in place by now have now been put on hold after 
industry resistance.
    Now thanks to happenstance, and perhaps we need some more 
Supreme Court nominations to come before Congress to get better 
privacy protections. Consumer cable and video viewing habits 
are now better protected than sensitive medical and financial 
records, but the laws protecting what we watch are subject to 
attack.
    We've been told by industry that there are savings to be 
had by all this flow of data and that goes into the cost 
benefit analysis that I want to address briefly because what's 
happening in reality for consumers doesn't kind of match what 
we're being told.
    We're being told information flow will allow for targeted 
marketing. Well, just because it's targeted doesn't mean that 
it's not still junk mail for the consumer and again, it's not 
that a consumer couldn't agree to accept this, to agree to have 
their information being used for targeted marketing, but why 
not ask for the consumer's consent first?
    The Washington Post reports today that more and more of our 
Nation's children are being targeted with credit card 
solicitations. They're trying to hook our kids early on credit. 
Is this the benefit of information sharing? Is this what Gramm-
Leach-Bliley was all about? Is this what targeted marketing is 
all about? This is the benefit that they're targeting our kids 
with credit card offers?
    We are told that data is also needed to determine risk and 
yet Freddie Mac and Fannie Mae and industry sources themselves 
estimate that up to 50 percent of consumers in the higher price 
subprime market could actually qualify for less expensive 
products. What good is information sharing doing those 
consumers?
    Companies say information is needed to avoid identity 
theft, if there's nothing today preventing companies from using 
the vast amounts of information that they already have to deter 
fraud. Instead, information seems to be given to just about 
anyone who calls up, including a dishwasher who is 
impersonating private investigators or whatever he was doing 
and therefore getting credit extended to him in the names of 
Oprah Winfrey, Warren Buffet. Tiger Woods recently had his 
identity stolen. I would have loved to have been a fly on the 
wall listening to somebody call up saying I'm Tiger Woods, 
please send me a credit card with no checks being done and the 
credit card being sent.
    In some cases, a simple phone call could have prevented 
this identity theft. Instead, the victims are now spending 
years trying to clear their good names. If companies can't use 
the information that they already have, how is increasing their 
ability to collect more information going to help stop this 
problem?
    Companies also say information will help lower prices for 
consumers, but we're not seeing this. Banks are constantly 
raising fees. They're partnering with PayDay and predatory 
lenders to offer, in fact, higher cost products. When banks 
find out that you're late on your electric bill or your gas 
bill, they can actually jack up your interest rate on your 
credit card, even though you've made all your credit payments 
on time. This isn't a good use of this information flow.
    In conclusion, let me say that we believe Congress needs to 
take a comprehensive look at privacy legislation. Otherwise, 
it's an information grabbing free-for-all, with little benefit 
to consumers. So in the end, consumers are waiting to see what 
Congress is doing and we appreciate these series of hearings. 
We're also wondering what the new Administration will do to 
protect our privacy.
    A new survey by the Pew Foundation finds that the majority 
of Americans, 70 percent of on-line users want Congress to pass 
on-line privacy laws. Consumers Union hopes that Congress will 
act and the President will keep his word when he said that he 
believes in strong privacy protections and the need to put 
consumers in control of their information.
    Thank you, Mr. Chairman. I'd be happy to answer any 
questions.
    [The prepared statement of Frank Torres follows:]
  Prepared Statement of Frank Torres, Legislative Counsel, Consumers 
                                 Union
    Consumers Union <SUP>1</SUP> appreciates the opportunity to testify 
before the Subcommittee on Commerce, Trade, and Consumer Protection. 
This hearing on An Examination of Existing Federal Statutes Addressing 
Information Privacy provides a needed forum to discuss the lack of 
meaningful privacy protections for American consumers.
---------------------------------------------------------------------------
    \1\ Consumers Union is a nonprofit membership organization 
chartered in 1936 under the laws of the State of New York to provide 
consumers with information, education and counsel about goods, 
services, health, and personal finance; and to initiate and cooperate 
with individual and group efforts to maintain and enhance the quality 
of life for consumers. Consumers Union's income is solely derived from 
the sale of Consumer Reports, its other publications and from 
noncommercial contributions, grants and fees. In addition to reports on 
Consumers Union's own product testing, Consumer Reports with 
approximately 4.5 million paid circulation, regularly, carries articles 
on health, product safety, marketplace economics and legislative, 
judicial and regulatory actions which affect consumer welfare. 
Consumers Union's publications carry no advertising and receive no 
commercial support.
---------------------------------------------------------------------------
    The first part of this testimony discusses privacy in general. The 
second part goes into greater detail on specific issues: online 
privacy, children and student privacy, subscriber privacy, financial 
privacy, and medical privacy.
                          the state of privacy
    Consumers are fed up with aggressive intrusions on their private 
lives. Often a consumer is forced to provide personal information to 
obtain products or services. Many times information that has been 
provided for one purpose is then used for another reason, unbeknownst 
to the consumer. Financial institutions, Internet companies, and 
marketers have been caught crossing the line.
    Some members of Congress are not only shining spotlight on privacy, 
but also working to ensure that consumers are told about how and why 
personal information is collected and used, provided access to that 
data, and given a choice in the matter. But real protections have been 
slow in coming.
    Instead, the right to be left alone appears to have been trumped by 
the pressure exerted by businesses to protect and expand their ability 
to gather personally identifiable information from consumers. No part 
of life is left untouched by data collection activities. Financial and 
medical records, what you buy, where you shop, your genetic code, are 
all exposed in a privacy free-for all. Complete strangers can, for a 
price, have access to your most intimate secrets.
    This means that consumers have lost control over the ability to 
being left alone. Often, consumers have no choice in whether or not 
information is collected and no choice in how it is used. Today, any 
information provided by a consumer for one reason, such as getting a 
loan at a bank, can be used for any other purposes with virtually no 
restrictions.
    Do consumers care? You bet they do. According to a Forrester 
Research survey of online users, 67 percent said they were 
``extremely'' or ``very'' concerned about releasing personal 
information over the Internet. It is estimated that those fears may 
have resulted in as much as $2.8 billion in lost sales for Internet 
retailers in 1999. The lack of privacy is costing business. AARP found 
that 93% of those surveyed believe that any personal information 
provided during a financial transaction should remain the property of 
the consumer and that the information should not be shared with other 
businesses without the permission of the consumer.

    Last year, a Business Week/Harris poll shows that 92% of Internet 
users are uncomfortable about Web sites sharing personal information. 
57% favor the government passing laws on how personal information is 
collected and used. And many people are uncomfortable with the creation 
of profiles. 82% said they were not comfortable with linking their 
identity with personal information like income, credit data, and 
medical information.
    The ability to collect, share and use data in all sorts of ways 
boggles the mind. Consumers, in many cases, aren't even aware that data 
is being collected, much less how profiles about them are created. The 
information collection overload is particularly troublesome when it 
becomes the basis for decisions made about an individual--like how much 
a product or service will cost.
    What protections do consumers have today? Not many. For all the 
talk about giving their customers what they think they want, the 
marketplace is not willing to give their customers what they really 
want--privacy. Privacy laws are either non-existent or are so riddled 
with loopholes that in most cases consumers will not have to be told 
that their sensitive information is being shared, or be given the 
ability to stop the sharing of their information.
    Privacy invasion isn't only happening online. Cross industry 
mergers and consolidations have given financial institutions 
unprecedented access to consumers' personal data. Technology has made 
it possible and profitable to mine that data. No law prevents financial 
institutions from using data to choose between desirable borrowers and 
less profitable consumers the institutions may want to avoid. Special 
software helps guide sales staff through scripted pitches that draw on 
a customer's profile to persuade the account holder to buy extra, and 
in some cases junk products
    The much ballyhooed privacy provision of the Gramm Leach Bliley Act 
does not protect consumers' privacy. And because the underlying bill is 
bad, the implementation of regulations provides little hope for 
consumers seeking to keep their personal information private. While 
states were given the ability to enact stronger protections, those 
efforts have met fierce resistance by the financial services industry.
    Consumers across the country are receiving privacy notices from 
their financial institutions. These notices were required under GLB. 
Consumers should respond by opting out of the use of information to 
send a message that they care about their privacy. Unfortunately these 
opt outs, in reality, will do little or nothing to prevent the sharing 
of your information with others.
    We need stronger laws to put power and choice in the hands of 
consumers regarding the collection and use of their personal 
information.
    Some web-based businesses already seem to be willing to move beyond 
the privacy wasteland where GLB left consumers. There no longer appears 
to be a question, for some, of whether consumers should get notice, 
access, and control over their information. The challenge is how to 
effectively put these principles into practice.
    What about privacy policies? Won't those do the trick? Privacy 
policies are not a substitute for privacy protections, especially when 
some companies don't even follow what is in their policies. Just 
because a company has a privacy policy does not mean that they follow 
Fair Information Practices. And consumers are skeptical about self-
regulation. Only 15% of those surveyed in the Business Week poll 
supported letting groups develop voluntary privacy standards. Nor has 
industry shown the will power to adopt adequate self-regulatory 
programs.
    Some tout the use of technology to allow consumers to choose their 
preferences--even ``opting-in'' using a privacy thermometer. Will the 
technology allow a consumer to shut-out all intrusions? Unfortunately, 
the usefulness of technology often depends on knowledge of the user. 
Technology may be of some use, but may prove lacking where it unfairly 
pushes the burden on the often-unsuspecting consumer. If you are not in 
the know, you will likely lose your privacy because you won't know how 
to keep it private. And if the preferences can be circumvented, then 
the usefulness of a technological solution without baseline protections 
will be completely lost.
    Where is all this going? The marketplace is changing daily. The 
Wall Street Journal reports that Time Warner has the names, addresses 
and information on the reading and listening habits of 65 million 
households. USA Today says Time Warner has access to information about 
its 13 million cable subscribers and from its other businesses, like 
Time and People magazine. With so much information, how will the 
competitiveness of the marketplace be impacted by this merger? Will 
companies who seek to operate under a higher privacy standard be at a 
competitive disadvantage and unable to compete against a larger entity 
that is able to make unrestricted use of the personal information it 
obtains? Is this the future? Now imagine a Time Warner/AOL/Bank of X.
    Will consumers benefit from all this data sharing? Financial 
institutions promised that in exchange for a virtually unfettered 
ability to collect and share consumers' personal information, that 
consumers would get better quality products and services and lower 
prices. This is why, they claimed, consumers shouldn't have strong 
privacy protections like the ability to stop the sharing of their 
information among affiliates, or access to that information to make 
sure its accurate. Let's look at reality.
    Bank fees for many consumers continue to rise. Information about 
financial health may actually be used to the consumer's determent if it 
is perceived that the consumer will not be as profitable as other 
customers. Both Freddie Mac and Fannie Mae say between 30 and 50% of 
consumers who get subprime loans, actually qualify for more 
conventional products, despite all the information that is available to 
lenders today. Credit card issuers continue to issue credit cards to 
imposters, thus perpetuating identity theft, even when it seems like a 
simple verification of the victim's last known address should be a 
warning. Instead of offering affordable loans, banks are partnering 
with payday lenders. And when do some lenders choose not to share 
information? When sharing that information will benefit the consumer--
like good credit histories that would likely mean less costly loans.
    Chase Manhattan Bank, one of the largest financial institutions in 
the United States, settled charges brought by the New York attorney 
general for sharing sensitive financial information with out-side 
marketers in violation of its own privacy policy. In Minnesota, U.S. 
Bancorp ended its sales of information about its customers' checking 
and credit card information to outside marketing firms. Both of these 
were of questionable benefit for the bank's customers. Other 
institutions sold data to felons or got caught charging consumers for 
products that were never ordered.
    Maybe the right approach is to let institutions that want a 
consumer's information to be put in a position to convince that 
consumer that some benefit will be derived from a willingness to give 
that information up to the institution. Such an approach may increase 
trust in financial institutions and let consumers have control and 
choice over their own personal information. The same technology that 
enables vast amounts of data to be collected can be used to give 
consumers access to that data. It is a simple thing to tell consumers 
what is collected and how it is used.
    Sound and comprehensive privacy laws will help increase consumer 
trust and confidence in the marketplace and also serve to level the 
playing field. These laws do not have to ban the collection and use of 
personal data, merely give the consumer control over their own 
information.
                        specific privacy issues
The Lack of Online Privacy
    A May 2000 Consumer Reports survey of web sites, Consumer Reports 
Privacy Special Report, Big Browser is Watching You, shows that 
consumers' privacy is not being protected online. The report also shows 
that privacy notices at several popular sites are inadequate and vague. 
This data, as do other recent web surveys, shows the state of consumer 
privacy online continues to be dismal. Not much has changed since that 
survey was first done.
    Consumers Union has urged Congress and the regulators to reverse 
their prior reliance on industry self-regulation and recommend that 
legislation is both appropriate and necessary to protect the privacy of 
on-line consumers.
    The Consumer Reports survey evaluated the placement of tracking 
devices at 28 sites. The privacy policies at six heavily trafficked 
commercial web sites were also examined.
    Among the findings of the report:

<bullet> Even the activities of the most casual Internet users are 
        carefully monitored by advertisers--often without the users 
        knowledge or consent. Marketers are able to amass personal data 
        about what you buy, what you read, what ails you and what you 
        are worth.
<bullet> Most web site visitors may be unaware that the simple act of 
        viewing a site's home page can trigger the placement of a 
        cookie by an ad network with whom they never consented to have 
        a relationship.
<bullet> Trying to block cookies resulted in some sites generating as 
        many as 28 attempts to implant a cookie before displaying the 
        home page of the site.
<bullet> There are troubling shortcomings in the privacy policies of 
        popular sites: inadequate notice, vague disclosures, and 
        unproven ``seals of approval.''
    It is apparent that self-regulation has done little to protect 
privacy. Companies continue to pursue ever more invasive collections of 
personal information. And there is no legal safeguards that limit what 
data collectors can gather. Inadequate notice of privacy policies that 
may or may not address fundamental Fair Information Practices leave 
consumers vulnerable and ill-equipped to make informed choices. Lack of 
strong privacy laws has resulted in continued intrusions into consumer 
privacy, little accountability, and no assurance that other firms will 
not engage in similar practices in the future.
    Because of the failure of the industry to police itself, Consumers 
Union supported the Federal Trade Commission recommendations to 
Congress that legislation is needed to protect the privacy of consumers 
on the Internet. Strong protections now will not only curb privacy 
intrusions, but also have the benefit of increasing consumer confidence 
when choosing to go online.
Protecting Children
    Consumers Union recognizes the benefits of the World Wide Web, 
especially in opening doors to the world through access to a variety of 
sites containing a lifetime of information. But it is also a medium 
where children can be placed at risk, especially when asked to provide 
personal information about themselves, their family and friends. With 
the ever expanding and increasing use of the World Wide Web, by both 
adults and children, it was appropriate and timely that Congress passed 
the Children's Online Privacy Protection Act of 1998 (COPPA), 
specifically placing the control of information collected from and 
about children with parents.
    COPPA said that online protection for kids must:

<bullet> Not exploit kids' inexperience and vulnerability. Attempts to 
        do research or glean personal information shouldn't be 
        disguised as entertainment, and prices shouldn't be used to 
        induce kids to provide personal information.
<bullet> Be widely available and easily implemented, even by adults who 
        aren't computer literate.
<bullet> Provide a foolproof way to communicate directly with parents, 
        rather than rely on having kids get permission to visit a site.
    As the Federal Trade Commission adopted rules to implement COPPA, 
Consumers Union made the following comments:

<bullet> Children must be protected against the online collection of 
        personal information without a parent's prior informed and 
        verifiable consent.
<bullet> Close potential loopholes in the proposed rule that could 
        allow operators to circumvent the intent of COPPA.
<bullet> Ensure that parents receive a simple and comprehensive notice 
        of policies, that information on the collection, use and 
        dissemination of the information be complete and accurate, and 
        that there be a means to verify parental consent in cases where 
        a parent makes an informed choice.
<bullet> Ensure that information previously collected from children is 
        given the same protection as future collected information.
<bullet> Exercise care in providing a safe harbor for self-regulatory 
        efforts
    Consumers Union fails to see any compelling commercial interest to 
allow a website to collect personal information about children without 
their parent's knowledge or consent. A commercial website, under the 
proposed regulations will, in fact, be able to collect and use such 
information. It simply has to inform the child's parents about what 
type of information will be collected, how it will be used, whether it 
will be shared, and then obtains the parent's consent. Congress was 
clear in it's intent when it passed COPPA--that the interests of 
children and not that of industry should be protected.
    A recent study by the Annenberg Public Policy Center of the 
University of Pennsylvania found the most children's websites are not 
following the spirit of COPPA. Moreover, the study found that the 
privacy policies that exist on many sites are often very difficult to 
read and are missing key elements. While children's sites that 
collected personal information had a link from their home page to their 
privacy policy, many skirt COPPA by not prominently displaying those 
links.
    Even more troubling was that the researchers found the policies too 
complex to understand. Many were determined to be either too short and 
vague or too long and confusing to be read in a brief period of time. 
The researchers questioned whether companies expect or want parents to 
read their policies.
    The lack of compliance with COPPA highlights the need for further 
Congressional action. If children are not safe when they go online 
despite the passage of COPPA, something more needs to be done. Failure 
to comply with COPPA should not be taken as sign that children using 
the Internet should not be protected. Rather, it shows that Congress 
should demand swift enforcement of the law, strengthen it's provisions, 
and send a strong message to industry groups who go after America's 
kids.
    In addition to protecting children online, students in our 
classrooms should not be forced to submit to data collection of 
personal information by business interests so that those businesses can 
then turn around and use that data to target kids. Today, companies are 
being allowed easy access to America's children through our schools:

<bullet> A California company provides schools with free computers, 
        software, and access to certain web sites. In exchange, the 
        company monitors students' web browsing habits and sells the 
        data to other companies.
<bullet> Children in a Massachusetts elementary school spent two days 
        tasting cereal and answering an opinion poll to help the 
        company sell to kids.
<bullet> Children in a New Jersey elementary school filled out a 27-
        page booklet called ``My All About Me Journal'' as part of a 
        marketing survey for a cable television channel.
    Schools should not usurp parent's authority when it comes to the 
privacy of children weighed against purely business interests. The 
taking of information for non-educational commercial purposes effects 
students outside the classroom, especially because no guarantees can be 
given about how the information collected may eventually be used and by 
what types of companies.
Protection of Subscriber Privacy
    The privacy of personal information is a growing concern with the 
integration of various technologies. Consumers Union agrees with the 
Federal Communications Commission (FCC) that the privacy provisions of 
the Communications Act apply to cable operators and their affiliates.
    The Communications Act provides that at the time a cable operator 
enters into an agreement to provide any cable service ``or other 
service'' to a subscriber, and annually thereafter, the cable operator 
shall inform the subscriber of, among other items, the nature of 
personally identifiable information the cable operator will be 
collecting, the nature of the use of the information, and the nature 
and purpose of any disclosures of that information.
    The Communications Act also provides that a cable operator may not 
use the cable system to collect personally identifiable information. 
The cable operator cannot disclose personally identifiable information 
without the prior written or electronic consent of the subscriber. The 
statue defines ``other service'' to include any wire or radio 
communication service provided using any of the facilities of a cable 
operator that are used in the provision of cable service.
Financial Privacy Not Yet a Reality
    The Gramm-Leach-Bliley Act (GLB) falls far short of providing 
meaningful privacy protections. Loopholes in the law and in this draft 
rule allow personal financial information to be shared among affiliated 
companies without the consumer's consent. In many instances, personal 
information can also be shared between financial institutions and 
unaffiliated third parties, including marketers, without the consumers 
consent. Other loopholes allow institutions to avoid having to disclose 
all of their information sharing practices to consumers. In addition, 
the GLB does not allow consumers to access to the information about 
them that an institution collects.
    With the passage of the GLB, the financial marketplace is poised to 
undergo rapid and profound changes, including the consolidation of 
industries. One consequence is that personal financial information has 
become a marketable commodity, with banks, insurance companies and 
securities firms knowing, and having the capacity to know, more about 
an individual consumer than ever before. Not only is this information 
used to market products and services to consumers, it can be used to 
make decisions about the cost and availability of those products and 
services.
    Consumers have reason to be concerned about how their private 
financial information is being collected, used, shared and sold. Under 
the GLB there are no limits on the ability of a financial institution 
to share information about consumers' transactions, including account 
balances, who they write checks to, where they use a credit card and 
what they purchase, within a financial conglomerate. Because of 
loopholes in GLB, in most cases sharing a consumer's sensitive 
information with a third party is allowed too. All the exceptions 
created by GLB make it difficult to come up with a list of 
circumstances where personal financial information cannot be shared.
    Here is why the GLB fails to provide privacy protections:

<bullet> Limited notice provisions. The notice provisions merely 
        require that an institution provide consumers with the 
        institution's privacy policy, which could simply say ``We share 
        your information with affiliates and third parties.'' Financial 
        institutions would only have to provide general information 
        about the type of information that is collected and with whom 
        it is shared. A consumer would not have to be told how their 
        information is being used. In some cases the proposed 
        regulations do not require that an institution provide a 
        consumer with any notice at all, such as when the information 
        collected is used to service an account.
<bullet> Opt-out to ``nonaffiliated third parties'' only. GLB's limited 
        third party opt-out does not apply at all to internal affiliate 
        sharing--affiliates can still share and sell information. 
        Consumers will have no ability to stop it.
<bullet> Loopholes gut the already limited opt-out requirement by 
        allowing information to be shared with ``nonaffiliated third 
        parties'' under most circumstances. Even if a consumer wants to 
        opt-out, information may still be shared with third parties 
        offering financial products on behalf of or endorsed by the 
        institution or pursuant to a joint agreement between financial 
        institutions. Thus, financial institutions can share customers' 
        information without notice to the customer or permission from 
        the customer.
<bullet> No consumer access. The law does not allow a consumer to have 
        access to the information collected, or the ability to correct 
        erroneous information.
    Here is what consumers should have when it comes to privacy 
protections:

<bullet> Notice: Financial institutions should inform their customers 
        in a clear and conspicuous manner when they plan to collect, 
        use and/or disclose personally identifiable information, and 
        customers should be told the intended recipient of the 
        information and the purpose for which is will be used. Notice 
        should be about the sharing of information with all entities, 
        both internal and external, and for any reason, including the 
        servicing of accounts.
<bullet> Access: A customer should have access to all personally 
        identifiable information held by the financial institution to 
        make sure it is accurate, and complete and customers should the 
        ability to correct erroneous information. These rights should 
        not only be limited to account information, but should extend 
        to any dossiers, profiles or other compilations prepared for 
        sale or sharing with third parties.
<bullet> Consent: A financial institution should receive prior 
        affirmative consent of the customer before it uses and/or 
        discloses that customer's information for any other purpose 
        than for which it was originally given. No customer should be 
        denied, or forced to pay a higher price for, any product or 
        services by a financial institution for refusing to give 
        consent to the disclosure of the customer's personal 
        information except where necessary to determine eligibility for 
        a specific financial product or service.
    Consumers should have the right to be fully and meaningfully 
informed about an institution's practices. Consumers should be able to 
choose to say ``no'' to the sharing or use of their information for 
purposes other than for what the information was originally provided. 
Consumers should have access to the information collected about them 
and be given a reasonable opportunity to correct it if it is wrong. In 
addition to full notice, access, and control, a strong enforcement 
provision is needed to ensure that privacy protections are provided.
Medical Privacy
    When Congress passed the Health Insurance Portability and 
Accountability Act of 1996 (HIPAA) the Department of Health and Human 
Services (the ``agency'') was directed to develop and implement rules 
to protect the privacy of Americans' health information by February 
2000. More than a year later regulations have not been implemented. The 
rule followed normal rulemaking procedures. All interested parties had 
ample opportunity to provide comment. In fact, the comment period was 
extended to provide additional time to submit views. The comments were 
given due consideration and a final rule was published. The agency has 
now used a procedural technicality to reopen the rule for additional 
comments.
    The Final Standards for the Privacy of Individually Identifiable 
Health Information, 65 FR 82462 (December 28, 2000) is a significant 
step towards restoring the public trust and confidence in our nation's 
health care system. Critics of the rule are urging the agency to scrap 
the rule or otherwise delay its implementation. The agency is being 
urged to weaken it by taking away the rights of patients to consent to 
the sharing of their information, denying patients the right to access 
their own records, creating larger loopholes in the rule, and allowing 
holders of medical information to share their patients' data with 
others without any responsibility or accountability. The rule should 
not be scrapped or delayed. If changes are made to the rule those 
changes should strengthen, not weaken, the medical privacy protections.
    But nothing has changed since the rule was finalized that 
diminishes the need for strong medical privacy protections. Medical 
information continues to be used for inappropriate purposes. The rule 
itself highlights a number of cases where private medical information 
was released for profit and marketing purposes--completely unrelated to 
the treatment of those patients. A recent USA Today editorial further 
highlights the consequences of a failure to protect medical privacy--an 
employer firing an employee when they got the results of a genetic 
test; release of medical records to attack political opponents; and 
hackers getting access to health records from a major University 
medical center (USA Today, March 20, 2001).
    Patients should not be put in the position of withholding 
information or even lying about their medical conditions to preserve 
their privacy. Those seeking medical treatment are most vulnerable and 
should be allowed to focus on their treatment or the treatment of their 
loved ones, rather than on trying to maintain their privacy. It is 
unfair that those citizens must be concerned that information about 
their medical condition could be provided to others who have no 
legitimate need to see that information.
    The rule is simple.

<bullet> Patients are told in plain English how their medical 
        information is used, kept and disclosed.
<bullet> Patients are allowed to see their medical records and get 
        copies of those records if they want. Patients are also allowed 
        to have inaccurate information corrected.
<bullet> Patients are allowed to consent to the disclosure of their 
        health information in most circumstances, including non-medical 
        or non-treatment related purposes. Companies should have to 
        defend their reasons for wanting access to that data. If those 
        companies are unable to convince patients to consent to the use 
        of their information, they should not be able to circumvent the 
        patient's choice.
<bullet> The rule limits the use of an individual's health information 
        to health purposes only with few exceptions.
<bullet> The rule says that hospitals and other providers must adopt 
        privacy procedures, train employees about those procedures, and 
        provide a process if those procedures are violated.
<bullet> The rule holds the hospital and other health care providers 
        accountable if patient health information is misused.
<bullet> The rule only requires that reasonable safeguards be used. 
        Hospitals will not have to erect soundproof walls, as some 
        critics have charged.
<bullet> The rule is flexible. People will still be allowed to pick up 
        prescriptions for family members. If further clarification is 
        needed, the rule allows the agency to simply issue guidance. 
        Because the agency is allowed to act if needed, this issue and 
        similar issues can be resolved without weakening or delaying 
        the rule.
<bullet> The rule allows information sharing for treatment purposes. 
        The quality of patient care will not suffer. In fact, by 
        increasing trust between the doctor and patient, the rule will 
        likely increase the quality of care.
    Medical information in the context of financial services has also 
been considered. Last year, Congressman Leach, then chair of the House 
Banking and Financial Services Committee introduced the Medical 
Financial Records Privacy Protection Act that would have prevented 
financial institutions from sharing medical financial records without 
customer consent. Further, the bill would have prohibited financial 
institutions from using consumer's medical information in providing 
credit. The bill was voted out of the House Banking Committee but 
Congress failed to act on the bill prior to their adjournment.
    The Leach Medical Financial Privacy Protection Act would have:

<bullet> Required financial institutions to obtain customer's 
        affirmative consent before disclosing individually identifiable 
        health information to an affiliate or non-affiliated third 
        party.
<bullet> Prohibited a financial institution from obtaining or using 
        individually identifiable health information in deciding 
        whether to issue credit, unless the prospective borrower 
        expressly consents.
<bullet> Provided consumers the right to inspect, copy, and correct 
        individually identifiable health information that is under the 
        control of a financial institution.

    Mr. Stearns. Thank you.
    Mr. Zuck, your opening statement.

                   STATEMENT OF JONATHAN ZUCK

    Mr. Zuck. Mr. Chairman, members of the subcommittee, thank 
you very much for allowing me to be here. Since they're not 
here to defend themselves, I'd just like to go on record and 
say I love my TiVo. So if anybody wants to talk endlessly about 
the benefits of TiVo, I'm happy to do that.
    I am currently the head of a high tech trade association 
that represents mostly small businesses, a voice that's often 
not heard and often a constituency that's most affected by 
compliance costs with regulation, etcetera because those same 
economies of scale, when applied to small businesses often put 
them out of business. My background is actually as a software 
developer though and I've built applications for Freddie Mac, 
American Express and in fact, the program that authorizes the 
majority of the checks written by the Federal Government is 
something of my creation. So I can affirm that privacy and data 
security is certainly not a new issue to the on-line world.
    One of the things we learned in the software industry is 
that for everything we try to do there are goals, a process and 
an outcome associated with what we're trying to create. And one 
of the things that we learned is that sometimes when we slip up 
on the process, it creates a disparity between the goals and 
the outcome of the project at hand. One example of that was the 
Children's On-line Privacy Protection Act and that's what I've 
been asked to talk about here today.
    Mr. Plesser talked a little bit about what some of the 
tenets of that act are, so what I want to do is just talk a 
little bit about what some of the unintended consequences were 
associated with the passage and then also the follow-on 
rulemaking associated with COPPA.
    I'd like to refer to that Annenberg study that's actually 
come up a couple of times today that talks about noncompliance. 
If you look at it, there's actually some contradictory things. 
This notion that sites are not complying actually says that 
while 90 percent have privacy policies, but some of them are 
too short and vague, others are too long and complex. So what 
you have is a situation, a Catch-22 in which creating something 
which is clear is not enough information. Something which is 
not enough information is unclear. And so what we find is that 
in a regulatory environment, compliance alone is not actually 
going to get you to what you're trying to accomplish. You're 
not actually affording the protections that you were attempting 
to afford and instead, creating complexity because of people 
wanting to cover themselves down the road. So it's not 
necessarily a true protection to have compliance.
    The other issue associated with COPPA has to do with the 
sort of exclusion of adult sites. It actually creates a bias 
against sites that were legitimately trying to create 
children's content and I don't envy your position as lawmakers 
in trying to balance different objectives, but one of the 
objectives at the outside is to increase consumer confidence in 
children's sites, etcetera and to protect children on-line. 
It's hardly a protection of children to push them toward lying 
about their age on an adult site, where it's actually easier 
for them to go on-line, easier to get an e-mail account than it 
is on a site that was actually set up specifically for 
children. So these authentications that are required from 
parents present another interesting issue. You want to require 
to parents, authenticate that they're parents and that they're 
adults, etcetera, which requires sharing a lot of information 
that sites weren't otherwise ordinarily collecting. So in fact, 
it actually forces the collection of additional information in 
order to protect the privacy of people that were otherwise 
operating anonymously on-line.
    The other issue that's important always to raise in the 
cost benefit analysis that you raised, Mr. Chairman, is some of 
the costs of compliance with COPPA. FreeZone estimated that 
their costs were ranging about $100,000 a year; Zeeks, 
something like $200,000 a year. And ZD News did an overview 
study and said that costs could range as high as half a million 
a year to comply with these regulations that were imposed by 
COPPA and the follow-on rulemaking. What that has done is 
actually led businesses to drop their practices or go out of 
business again, not necessarily furthering the goals of 
creating the law in the first place.
    The other issue associated with process is that we saw an 
overboard definition of collection of information. The law 
specifies that before sites can collect and use information, 
they need to get parental consent, but when that was handed 
over to the FTC it actually turned into the monitoring of chat 
rooms and things and so sites that, in fact, were not 
collecting much less looking at information, are now required 
to have monitors in chat rooms and people on phones with 
respect to different sort of peripheral information that they 
weren't even trying to collect, which again creates costs that 
I don't think were intended by the original language of the 
law.
    So finally, you have to talk about what are some of the 
things that are happening in the industry that can help to 
protect privacy and empower consumers. One thing is that 
there's technologies that are coming into being. You've heard a 
little bit about the platform for privacy preferences or P3P 
that's actually an industry-wide standard that allows a browser 
essentially to read the privacy policy of a website, so that if 
you've set preferences in a browser, the browser then 
identifies whether or not those preferences match up to the 
policy of the website so that you're not left reading through 
the legalese of a privacy policy. And there are also on-line 
wallets and on-line information brokers, things like 
Microsoft's Kids Passports. There's kids' credit cards, 
etcetera that facilitate the central use of information and 
then the choice about how that information is used by 
individual sites. And finally, something that we at the 
Association for Competitive Technology have always tried to 
promote is just plain old consumer education. The more that 
people know about the on-line world, the more they use the on-
line world, the more consumer confidence rises. We have to ask 
ourselves whether consumer confidence is best increased through 
the empowerment and education of consumers or through 
regulation that might not, in fact, protect their interests.
    So while the modus operandi of the high tech industry is 
often listen and learn, I hope that in the future we can take a 
little bit more time in the process of creating legislation so 
some of the unintended consequences can be avoided.
    Thank you.
    [The prepared statement of Jonathan Zuck follows:]
    Prepared Statement of Jonathan Zuck, President, Association for 
                         Competitive Technology
                              introduction
    Good afternoon, Mr. Chairman and members of the Subcommittee. I am 
Jonathan Zuck, President of the Association for Competitive Technology, 
or ACT. ACT is a national, Information Technology industry group that 
represents the full spectrum of tech firms, many of which are small and 
midsize business, that are software developers, IT trainers, technology 
consultants, dot-coms, integrators and hardware developers.
    While ACT members vary in their businesses, they share a common 
desire to maintain the competitive nature of today's vibrant technology 
sector that has been responsible for America's ``new economy.''
    It is my sincere honor to testify before this subcommittee today. 
As a professional software developer and technology educator who spent 
fifteen years speaking at technical conferences around the world, I am 
humbled by this opportunity and appreciate greatly your interest in 
learning more about the effects of information privacy statutes on the 
information technology (IT) industry. I am here to discuss the effects 
of the Child Online Privacy Protection Act (COPPA) and related 
regulations.
    I think I'm the token ``techie'' on this panel--so I look forward 
to getting into some real life experiences that have arisen under 
COPPA. I want to begin by saying that protecting a child's privacy is 
of paramount importance to the IT industry and me. I do not want to 
suggest that there we should diminish our efforts to protect children's 
privacy. My testimony today is focused on the events surrounding the 
development of COPPA and the subsequent rulemaking as well as the 
impacts they, and in particular the final COPPA rulemaking, have had on 
small IT business. The unintended consequence of COPPA's implementation 
I believe is that rather than providing a marked increase in privacy 
protection, that the cost to comply with COPPA has led some ``kid 
friendly'' sites to have to curtail operations or shut down completely.
The Development of COPPA
    As you are aware, Congress enacted COPPA in late 1998 after a 
recommendation by the Federal Trade Commission (FTC). It was made part 
of the Omnibus Consolidated and Emergency Supplemental Appropriations 
bill for fiscal year 1999. Notably, the legislation was passed without 
mark-up hearings in either the House or the Senate. In other words, 
there was none of the detailed deliberation or scrutiny of the 
legislation's language that ordinarily accompanies a bill's passage 
through Congress. Consequently, there is no committee report on the 
bill, either from the House or from the Senate. During the course of 
1998, government officials and private industry representatives 
expressed concern about children's privacy, and their statements appear 
in the Congressional record. FTC Chairman Robert Pitofsky testified 
before the Telecommunications, Trade, and Consumer Protection 
Subcommittee of the House Commerce Committee on July 21, 1998, on 
Privacy in Cyberspace. The Center for Democracy and Technology, America 
Online, the American Library Association, and Chairman Pitofsky 
submitted testimony to the Communications Subcommittee of the Senate 
Commerce Committee on September 23, 1998. However, only two statements 
by Sen. Richard Bryan (D-Nev.) form the authoritative legislative 
history of the Act--one statement introducing the legislation, and 
another as a part of the conference report for the Omnibus 
bill.<SUP>1</SUP> As I will discuss further, I believe that many now 
realize that there are lessons to be learned from how quickly COPPA 
moved through the legislative process.
---------------------------------------------------------------------------
    \1\ See 144 Cong. Rec. S8482-03 (July 17, 1998) (Statement of Sen. 
Bryan) and 144 Cong. Rec. S12741-04, S12787 (Oct. 21, 1998) (Statement 
of Sen. Bryan).
---------------------------------------------------------------------------
    COPPA contains a requirement that the FTC issue and enforce rules 
concerning children's online privacy. The FTC issued a notice of 
proposed rulemaking on August 11, 1999 and received 132 comments during 
the 45-day comment period. During its deliberations, the FTC also held 
a public workshop aimed at helping the agency understand how industry 
might try to implement the rule. The final rule was issued on November 
3, 1999 and became effective April 21, 2000.<SUP>2</SUP>
---------------------------------------------------------------------------
    \2\ 16 C.F.R. part 312.
---------------------------------------------------------------------------
COPPA Requirements
    As I mentioned before, it is the COPPA rule that has had the 
greatest impact on small IT companies. The COPPA rule applies to 
operators of commercial websites and online services directed to 
children under age 13, where personal information is collected. The 
rule also applies to operators of general interest sites with actual 
knowledge that they are collecting information from children under 13. 
Those covered by the COPPA rule must (1) post a privacy policy and 
links to the policy; (2) give parents notice of its information 
practices; (3) with certain exceptions, obtain verifiable parental 
consent before collecting, using or disclosing personal information 
from children; and (4) provide parental access to information collected 
from children, and the opportunity to delete such c information and to 
opt out of future collection.
    Privacy Policy and Notice--The Rule requires operators to post a 
policy that includes: (a) the names and contact information for all 
operators; (b) the types and amount of personal information collected 
through the site; (c) how personal information would be used; (d) 
whether the personal information would be disclosed to third parties, 
the types of business in which those third parties are engaged, whether 
those third parties have agreed to take steps to protect the 
information and a statement that parents have the right to refuse 
consent to the disclosure of information to third parties; (e) that the 
operator may not condition a child's participation in an activity on 
the provision of more personal information than is necessary to 
participate in the activity; and (f) that parents may review, amend or 
delete a child's personal information.<SUP>3</SUP> This policy and 
links must be in a place where ``a typical visitor [to the site] would 
see the link without having to scroll down form the initial viewing 
screen.'' <SUP>4</SUP>
---------------------------------------------------------------------------
    \3\ 16 CFR 312.4(b)(2).
    \4\ 16 CFR 312.4(b)(1).
---------------------------------------------------------------------------
    Verifiable Parental Consent--Operators are required to obtain 
verifiable parental consent before the use or disclosure of a child's 
personal information, including consent to material changes in the 
collection or use of the information.<SUP>5</SUP> In addition, 
operators must give the parent the option to consent to the collection 
and use of the child's information without automatically consenting to 
its disclosure to third parties.<SUP>6</SUP> The operator must use 
reasonable mechanisms to verify that the consent is actually from the 
child's parent.<SUP>7</SUP> These mechanisms include: (a) providing a 
consent form; (b) requiring a parent to use a credit card in connection 
with the transaction; (c) having a toll free telephone number staffed 
by trained personnel; (d) using a digital certificate that uses public 
key technology; and (e) using an e-mail accompanied by a PIN or 
password obtained through one of the aforementioned 
methods.<SUP>8</SUP> There are four exceptions to the prior consent 
requirement.<SUP>9</SUP> The exceptions are situations (a) where the 
operator collects the child's name or online contact information solely 
for providing notice under section 314.4 of the Rule, (b) where the 
operator collects online contact information solely to respond to a one 
time specific request from the child and is not used to recontact the 
child, (c) where the operator collects the online contact information 
to respond directly to more than one request from a child provided the 
information is use for no other purpose and (d) where the operator 
collects the name and online contact information to protect the safety 
of a child participant on a site or online service provided that 
reasonable efforts were made provide a parent notice per section 
312.4(c).
---------------------------------------------------------------------------
    \5\ 16 CFR 312.5(a)(1) (emphasis added).
    \6\ 16 CFR 312.5(a)(2)
    \7\ 16 CFR 312.5(b)(1)
    \8\ 16 CFR 312.5(b)(2)
    \9\ 16 CFR 312.5(c).
---------------------------------------------------------------------------
    Right of Parent to Review a Child's Personal Information 
<SUP>10</SUP>--Once a child has provided personal information, a parent 
may request the following: (a) a description of the specific types or 
categories of personal information collected by the operator (e.g., 
name, address, telephone number, e-mail and hobbies); (b) the 
opportunity at any time to refuse to allow the operator to further use 
or collect a child's personal information and direct the operator to 
delete the information and (c) a reasonable means to review any 
personal information gathered from the child.
---------------------------------------------------------------------------
    \10\ 16 CFR 312.6 et seq (emphasis added).
---------------------------------------------------------------------------
The ``Net'' Effects of COPPA
    Many commentators, while sensing the importance of protecting a 
child's privacy, objected to complex and burdensome nature of the COPPA 
Rule.<SUP>11</SUP> Indeed, some comments suggested that confusion based 
on the complexity of these regulations could diminish their 
effectiveness. Further comments noted, and I agree, that the rule as 
promulgated places barriers (e.g., costs) that can inhibit the growth 
and development of the Internet. Given this, the question that must be 
asked is: How effective have the COPPA rules been at protecting 
children's online privacy, and at what price?
---------------------------------------------------------------------------
    \11\ See, e.g., comments of the American Advertising Federation and 
National Retail Federation,
---------------------------------------------------------------------------
COPPA's Effectiveness
    One way to measure COPPA's effectiveness is to look at compliance. 
The FTC has completed random ``sweeps'' of web sites to check for 
compliance. The FTC has found that approximately half are in compliance 
with COPPA's requirements. Those who are not are receiving e-mails 
urging them to comply and that the FTC will ``will monitor web sites to 
determine whether legal action is warranted.''
    The private sector is also looking at the effectiveness of COPPA 
compliance. A study released last month by Joseph Turow of the 
Annenberg School of Communication at University of Pennsylvania titled, 
Privacy Policies on Children's Websites: Do They Play By the Rules? 
found that of 162 top children's web sites, 114 (or 70%) linked to a 
privacy policy as envisioned under section 312.4 of the 
Rule.<SUP>12</SUP> The study noted that of the 48 sites that did not 
post a privacy policy, 32 (or 20%) did not collect personal information 
from children and only 17 sites posted no policy yet collected personal 
information. The study thus concluded that because 90% of sites 
``correctly followed COPPA in posting or not posting a link'' this 
component of the rule is successful.<SUP>13</SUP> One success story in 
this vein is MaMaMedia.com which allows children to participate in 
``engaging activities help them gain technological fluency and expand 
their minds through playful learning.'' This site has a link to its 
privacy policy on its home page and on the registration page. The 
policy explains why it asks kids to register, what information it 
collects, tells parents that members can change information or cancel 
an account, allows members to opt out of receiving e-mail from 
MaMaMedia, explains its use of cookies, provides the name, phone 
number, postal address and e-mail address of someone to contact 
regarding its privacy policy, and asks parents to provide a parental e-
mail address on the kids' registration page.
---------------------------------------------------------------------------
    \12\ Joseph Turow, Privacy Policies on Children's Websites: Do they 
Play By the Rules? At 9.
    \13\ Id. at 10.
---------------------------------------------------------------------------
    Despite the high level of compliance, the study points out the flaw 
in relying on compliance as the sole measure of effectiveness. The 
study found that ``the biggest problem with privacy policies was the 
time to figure out what they said.'' <SUP>14</SUP> Clearly, this is an 
unintended consequence of the COPPA rule. However, the depth of the 
rule's requirements made this result inevitable. The enforcement 
provisions of the rule obviate the creation of a simple, clearly 
understandable privacy policy that may inadvertently end up costing 
hundreds of thousands of dollars.<SUP>15</SUP> This would lead me to 
question the overall effectiveness of the privacy policies and suggest 
that this is not a model for future legislation or regulation.
---------------------------------------------------------------------------
    \14\ Id. at 17.
    \15\ Web site owners that don't comply with COPPA face civil 
penalties of up to $11,000 per incident.
---------------------------------------------------------------------------
    Another unintended but practical result that undermines COPPA's 
effectiveness is that it is aimed at children's sites that provide 
educational and fun experiences for children while missing adult sites 
that could do real harm. Steven G. Bryan, President and CEO of 
Zeeks.com made the following analogy in his public comments on the 
Rule, which I find persuasive:
          ``Imagine a child walking down a street and arrives at 2 
        movie theaters, one across the street from the other. The one 
        on the left side is well lit, plays only G-rated movies, is 
        staffed by adults who monitor and supervise behavior, and 
        serves good wholesome food in the snack bar (I consider Red 
        Vines to be Wholesome). The theater on the right side plays R-
        rated movies, has little adult presence, is dark, and serves 
        junk food. This law, if applied to my metaphorical world, would 
        require parental permission before entering the G-Rated 
        theater, but would require none whatsoever to enter the R-rated 
        one. Where do you think the kids will go? We will drive 
        children away from the very sites designed for them.''
    Moreover, as California Computer News noted:--While the drafters of 
COPPA appear to have had good intentions, it's unfortunate that their 
lack of foresight into the law's affects could mean an end to many of 
the most educational, creative and fun websites available to kids.'' 
<SUP>16</SUP>
---------------------------------------------------------------------------
    \16\ Justine Kavanaugh-Brown, New Law Sends Children's Sites 
Scrambling, California Computer News, June 2000.
---------------------------------------------------------------------------
The Costs of Compliance
    While much is unknown as to what benefits will come from regulating 
privacy, there is already evidence of harm. The FTC concluded in its 
certification to avoid a Regulatory Flexibility analysis that, ``any 
additional costs of complying with the Rule, beyond those imposed by 
the statute or otherwise likely to be incurred in the ordinary course 
of business, are expected to be comparatively minimal.'' <SUP>17</SUP> 
Were they ever wrong. Each and everyday, small IT companies make 
decisions critical to their survival. The complexity and costs 
associated with a regulatory scheme such as COPPA force these companies 
to forgo other needed investments or incur significant additional 
costs. For example, Wall Street Journal Interactive reported that 
FreeZone, a web portal for kids between 8 and 14, estimates it will 
spend about $100,000 per year to comply with COPPA. Another company 
that I previously mentioned, Zeeks.com, pulled all of its interactive 
content because the $200,000 per year cost to employ chat-room 
supervisors, monitor phone lines to answer parents' questions, and 
process COPPA permission forms was ``the straw that broke the camel's 
back.''
---------------------------------------------------------------------------
    \17\ 64 Fed. Reg. 22761 (Apr. 27, 1999).
---------------------------------------------------------------------------
    ZDNet News has reported that complying with COPPA could cost as 
much as $500,000. One of our members tells us that they spend 10% of 
their total resources complying with COPPA requirements. The brunt of 
the costs mentioned above are associated with hiring and continually 
training personnel to program and monitor the site as well as to answer 
parents' questions and requests for access. There are also direct 
costs, including ongoing programming and tracking to meet the notice, 
consent and access provisions of the Rule.It is also worth noting that 
not all of the COPPA requirements, as interpreted by the FTC, seem to 
flow directly from the legislative language. For instance, the COPPA 
legislation generally prohibits Web site operators and online service 
providers from ``collecting'' personally identifiable information from 
children without parental consent. I am not a lawyer, but to me, this 
general rule makes sense if you are a business and you affirmatively 
and actively are trying to gather information from children. To me, 
that is what ``collecting'' information means.
    However, under Section 312.2 of the FTC's Rule, the act of 
collecting includes ``enabling children to make personal information 
publicly available through a chat room, message board or other means'' 
(except where the operator deletes any personal information before it 
is made public).<SUP>18</SUP> This is an extraordinarily broad 
definition of what it means to ``collect'' information. Taken to its 
extreme, it means that every Web site that offers a bulletin board 
service or a chat room is ``collecting'' information about its visitors 
(even if the site operator never stores or, let alone, looks at the 
information). It also means that, under the COPPA rule, all those sites 
arguably would have to institute blocking or monitoring and parental 
consent mechanisms if the operator learns that a single child has used 
the bulletin board service or chat room. To address this possibility, 
the FTC has said that ``the Commission likely will not pursue an entity 
that is an ``operator,'' but has not facilitated or participated in, 
and has no reason to know of, any Rule violation.'' <SUP>19</SUP> But 
even that statement does not alter the fact that COPPA could affect 
every site on the Web that offers some form of bulletin board service. 
This outcome is all the more troublesome when, in my mind, it is not at 
all clear that that is what Congress intended.
---------------------------------------------------------------------------
    \18\ 16 C.F.R. 312.2(b) (emphasis added).
    \19\ FTC's Statement of Basis and Purpose at fn. 55.
---------------------------------------------------------------------------
    Moreover, any site that implements a parental consent mechanism 
must also have a means for authenticating children and their parents; 
otherwise, the site has no way of knowing either who a child is or who 
is granting consent on behalf of this child or seeking access to the 
child's personal information. Indeed, authentication is essential to
    the COPPA compliance scheme since nothing could be more detrimental 
to children's' on-line privacy than allowing the wrong person to gain 
access to a child's data. As noted in the ``Final Report of the FTC 
Advisory Committee on Online Access and Security,'' however, 
authentication always involves a tradeoff between security and ease of 
access--strong authentication often makes it burdensome and difficult 
to establish an account or set up a profile.<SUP>20</SUP> In complying 
with COPPA, therefore, sites that do not ordinarily ``collect'' 
personal information about children must also take on the additional 
burden and costs of implementing appropriate authentication techniques.
---------------------------------------------------------------------------
    \20\ See Final Report of the FTC Advisory Committee on Online 
Access and Security, May 15, 2000, Section 2.6; available online at 
http://www.ftc.gov/acoas/papers/finalreport.htm.
---------------------------------------------------------------------------
The Role of Technology and Consumer Empowerment
    The softening economy has already caused venture capital funds to 
dry up and created a rash of layoffs among IT start-ups that are 
working hard to carve a niche in the e-commerce sector. Burdening these 
entrepreneurs with more laws would squeeze out many hundreds of smart 
people with sound business models.
    Using rich technology and empowering consumers (i.e., parents), in 
addition to sound public policy is perhaps the most effective way to 
protect a child's online privacy. There are products available to 
parents to assist them in protecting their child's online experience. 
For example, Microsoft offers ``Kids Passport'' which is a service that 
helps you conveniently protect and control your children's online 
privacy. You can control what information your children can share with 
participating Web sites, and what those sites can do with that 
information. In addition, you have the flexibility of making specific 
choices for each child and for each site, all in one convenient, 
centralized location.
    One of the most interesting technologies coming down the pike is 
the platform for privacy preferences (P3P), which is an extension of 
some of the technology that exists today. Sponsored by the World Wide 
Web Consortium (W3C), P3P is a framework for products and practices 
that will let World Wide Web users control the amount of personal 
information they share with Web sites. It's described as a ``privacy 
assistant.'' Using a P3P application, a parent can work with their 
child to enter appropriate personal information once and not have to 
repeatedly reenter it at different Web sites. The P3P application can 
inform the user of a Web site's practices with regard to gathering and 
reusing its visitors' personal information. Parents will thus be able 
to limit the information that a specific site can obtain.
    There are software products on the market that allow you to 
generate a privacy policy that can be read by a browser as well as one 
which can be read by humans. It is therefore very easy to participate 
in the P3P movement and become a good actor on the Net. Once the 
standards have ironed themselves out, it will be possible for a browser 
to detect the privacy policy of the site you are about to visit and 
compare it to the preferences you have set. The browser can then warn 
you of a difference and help you to decide what sort of information you 
should and shouldn't share with the site. Sometimes, it's just this 
sort of friendly reminder that is all that is needed to help consumers 
remain conscious of this issue and protect their information 
accordingly.
    ACT advocates a third prong to our online privacy position, which 
perhaps is the most important one--consumer education and empowerment. 
Industry must do its part to provide the necessary tools and 
information to consumers so they feel educated and empowered when using 
the Internet.
          conclusion--avoid the law of unintended consequences
    In my discussion today, we've hit upon some of the key factors that 
I see as a software developer and a tech futurist that determine how 
effective a privacy regulation like COPPA is at providing children with 
safe and personal Internet experiences. COPPA was the product of a 
rushed process and I want to commend the Chairman and this committee on 
taking the time to thoroughly think about and discuss the small 
business perspective before crafting a comprehensive privacy law. COPPA 
and its regulations are limited in scope yet have significant impacts 
on the IT industry. I urge you to keep this in mind when debating 
whether to enact sweeping privacy laws that will impact every industry. 
Industry and Congress must work together to address parental demands 
and weed-out the bad actors in the privacy space thereby enhancing 
consumer privacy, safety, and confidence.

    Mr. Stearns. I thank the gentleman.
    Mr. Mierzwinski.

                 STATEMENT OF EDMUND MIERZWINSKI

    Mr. Mierzwinski. Thank you, Chairman Stearns, Mr. Towns, 
members of the committee. My name is Ed Mierzwinski. I'm with 
the U.S. Public Interest Research Group which is national 
association of State PIRGs. Although my testimony today is only 
on behalf of the PIRGs, I want to point out that U.S. PIRG, 
along with Consumers Union are founding members of the new 
privacy coalition. The privacy coalition is a broad group of 
consumer privacy, civil liberties, family based and 
conservative organizations that share strong views about the 
right to privacy. We had previously worked together against the 
intrusive know your customer rules and for a number of pieces 
of legislation offered last year by members of the 
congressional privacy caucus, co-chaired by members of the 
Energy and Commerce Committee, Mr. Barton and Mr. Markey. And 
you can look at our website of the coalition and find out the 
broad range of organizations in the United States that support 
strong privacy protections at privacypledge.org.
    The emphasis of my testimony today is going to be on the 
relationship between the Fair Credit Reporting Act and the 
Gramm-Leach-Bliley Act, two laws which consumer groups worked 
very hard to update the Fair Credit Reporting Act in 1996 and 
to ensure that in 1999, Gramm-Leach-Bliley included a privacy 
provision, Title V.
    It's important to note that both these pieces of 
legislation were enacted against a backdrop of privacy 
nightmares. Prior to passage of the Fair Credit Reporting Act 
in 1970, consumers had no control over the accuracy of their 
credit records and other consumers who were the subjects of 
what are known as investigative consumer reports under the act, 
were the subjects of hearsay and subjective interviews with 
their neighbors that were often very abusive of consumers' 
private rights. And as a result, the Congress worked very hard 
and enacted the Fair Credit Reporting Act. But then the 
industry merged from a number of local companies into a set of 
national companies. As the companies merged into national data 
bases, the error rates skyrocketed in the 1990's and credit 
reporting became the No. 1 complaint to the Attorneys General 
and the Federal Trade Commission. The result was a coalition of 
consumer groups starting in 1989, worked with Members of 
Congress to try to strengthen the bill. We ultimately succeeded 
in 1996, although there were compromises made. Among those 
compromises was the notion added, at the insistence I should 
say we will not let this bill to give consumers greater rights 
become a law unless we are given the following exemption and 
the financial industry in 1996 obtained the exception from the 
definition of Fair Credit Reporting Act's definition of a 
credit report for the sharing of information among affiliates, 
which then became an issue in the Gramm-Leach-Bliley Act, of 
course.
    The second problem primarily that we have had with the Fair 
Credit Reporting Act is the notion that it fails to encompass 
all information under its umbrella and the exception that FTC 
granted in 1993 for credit headers is our example there.
    Then we move to 1999, the Gramm-Leach-Bliley Act, the 
privacy nightmares that were described to the Congress, first 
among the affiliates of the NationsBank Company, Nation 
Securities was shared information about CD account holders 
which had then tried to get buy derivatives, very sophisticated 
financial instruments normally purchased by people like Warren 
Buffet. And the second privacy nightmare that was exposed right 
before passage of that bill was the U.S. Bank sharing of 
information, confidential consumer information with the 
telemarketer Member Works which then billed consumers for 
products they hadn't ordered, because guess what, U.S. Bank 
gave Member Works the account number of the consumers.
    Now the principal problem that consumer groups have with 
Gramm-Leach-Bliley is that it does not, in fact, meet all of 
what are known as the code of fair information practices which 
is a broad set of consumer rights originally drafted by HEW and 
that then applied to the Privacy Act of 1974 that governs 
information use by the Federal Government. And our view is that 
notice is not enough. The bulk of the privacy protection in 
Gramm-Leach-Bliley is primarily notices. These notices are very 
long. They're very uninteresting. They're very dull, actually. 
They don't provide meaningful privacy protection. Ultimately, 
companies have the right to share information among their 
affiliates and with numerous third parties, even if a consumer 
chooses to opt-out. And consumer groups and privacy 
organizations believe that privacy laws should be based on all 
of the fair information practices, not only on the notice 
practice. Consumers should provide consent, meaningful consent 
before information is shared with either affiliates or third 
parties and that is the primary recommendation that we have to 
improve the Gramm-Leach-Bliley Act is that the loophole for 
information sharing, among affiliates and third parties that 
are providing services on behalf of the bank, be closed and 
that consumers always have a right to consent and that the 
current opt out right be changed to an opt-in right.
    The testimony that I've provided to the committee goes into 
greater detail on all of these matters. I want to close by 
saying that a number of the witnesses have talked about 
preemption and the industry has launched a campaign around the 
country and herein Washington to convince Congress not to go 
farther and not to pass stronger privacy laws. As you know, the 
Gramm-Leach-Bliley Act allows the states to go further and 
enact stronger laws. Disappointingly, the industry is also out 
in the states not only trying to block passage of stronger 
laws, but trying to roll back existing laws and I would suggest 
that that is the wrong way to go and I would urge you to look 
closely at protecting the right of the states in any 
legislation that you consider to continue to pass stronger 
laws.
    Thank you very much.
    [The prepared statement of Edmund Mierzwinski follows:]
 Prepared Statement of Edmund Mierzwinski, Consumer Program Director, 
                  U.S. Public Interest Research Group
    Chairman Stearns, Representative Towns and Members of the 
Committee, thank you for the opportunity to testify before you today. 
As you know, U.S. PIRG serves as the national lobbying office for state 
Public Interest Research Groups, which are independent, non-profit, 
non-partisan research and advocacy groups with members around the 
country.
    U.S. PIRG is also a founding member of the Privacy Coalition, 
established this year by a broad range of consumer, privacy, civil 
liberties, family-based and conservative organizations that share 
strong views about the right to privacy. The groups had previously 
worked together on a more informal basis in opposition to the intrusive 
Know-Your-Customer rules and in support of financial privacy proposals 
offered in the 106th Congress by members of the Congressional Privacy 
Caucus, co-chaired by Energy and Commerce Committee members Joe Barton 
and Ed Markey. Groups endorsing the coalition's legislative candidate 
Privacy Pledge are listed at the website PrivacyPledge.Org.
    The emphasis of my testimony today is on the two major laws 
affecting financial privacy--the 1999 Gramm-Leach-Bliley Financial 
Services Modernization Act [Public Law 106-102, 15 U.S.C. Sec. 6801, et 
seq. enacted November 12, 1999 and its interrelationship with the 1970 
Fair Credit Reporting Act [Public Law No. 91-508, 15 U.S.C. Sec. 1681 
et seq. (October 26, 1970)]. We concur with the testimony today of 
Consumers Union on information privacy issues more broadly.
                                summary
    The 1970 Fair Credit Reporting Act (FCRA), its major 1996 
amendments, and Title V, Privacy, of the Gramm-Leach-Bliley (GLB) Act 
were all enacted in response to privacy nightmares. Unfortunately, the 
1996 FCRA amendments included an affiliate-sharing exception to the 
definition of credit report, allowing companies to share confidential 
consumer information subject to very few consumer protections. This 
meant the Congress had to consider privacy issues related to affiliate-
sharing when it enacted GLB.
    Although GLB does not go as far as consumer and privacy groups 
wanted, it should not be weakened. The federal financial regulatory 
agencies correctly interpreted statutory intent when they included 
Social Security Numbers in the definition of Non-Public Personal 
Information under the act. The lawsuit seeking to overturn the rule, 
filed by several firms that sell credit headers (previously unregulated 
locater products that include Social Security Numbers obtained from 
financial institution customers) should be dismissed. In addition, the 
federal financial regulatory agencies correctly defined the term 
``financial institutions'' broadly to encompass all firms engaged in 
financial activities.
    The Gramm-Leach-Bliley Act should be strengthened by extending and 
expanding its current opt-out choice provision. Consumers should be 
granted an opt-in consent right before non-public personal information 
is shared with either affiliates or third parties.
    Providing informed consent is one of a set of Fair Information 
Practices that give consumers control over the use of their 
confidential information. Efforts by industry groups to ``dumb-down'' 
the Fair Information Practices should be resisted. Notice is not 
enough.
                               background
    The basic structure of information privacy law is to place 
responsibilities on organizations that collect personal data and to 
give rights to individuals that give up their data. This is sensible 
for many reasons, including the fact that it is the entity in 
possession of the data that controls its subsequent use. Information 
privacy law also promotes transparency by making data practices more 
open to scrutiny and encourages the development of innovative technical 
approaches.<SUP>1</SUP>
    Privacy laws, particularly in the United States, are widespread and 
have invariably come about in response to new technologies and new 
commercial practices. From the telephone, to the computer database, to 
cable television, electronic mail, videotape rentals, and the Internet, 
the American tradition is to establish a right of privacy in law to 
enable the development of new commercial services.
    While it is true that the U.S. has recently relied on a sector-by-
sector approach to privacy, rather than an over-arching privacy law, 
the convergence of industry sectors that is occurring has accelerated 
the need for consideration of an over-arching privacy law, which would 
protect consumers both online and offline in all transactions. An 
example of this convergence is the changes in the financial marketplace 
that necessitated enactment of the Gramm-Leach-Bliley Act. As privacy 
expert Marc Rotenberg has noted, it is now time to consider such an 
over-arching privacy law:
        Those who argue that the United States has typically protected 
        privacy by self-regulation and industry codes know very little 
        about the long tradition of privacy legislation in this 
        country. It is, however, correct to say that the United States, 
        over the last twenty years, has taken a sectoral approach as 
        opposed to an omnibus approach to privacy protection in the 
        private sector. But it is also important to note that the 
        sectoral approach has several weaknesses. For example, we have 
        federal privacy laws for video records but not for medical 
        records. There are federal privacy laws for cable subscriber 
        records but not for insurance records. I think the problems 
        with the sectoral approach will become increasingly apparent as 
        commerce on the Internet grows. The Internet offers the ideal 
        environment to establish uniform standards to protect personal 
        privacy. For the vast majority of transactions, simple, 
        predictable uniform rules offer enormous benefits to consumers 
        and businesses. It is also becoming increasingly clear that the 
        large industry mergers in the telecommunications and financial 
        services sectors have made the sectoral approach increasingly 
        obsolete. Firms now obtain information about individuals from 
        many different sources. There is a clear need to update and 
        move beyond the sectoral approach.<SUP>2</SUP>
                 the code of fair information practices
    Ideally, consumer groups believe that all privacy legislation 
enacted by either the states or Congress should be based on Fair 
Information Practices, which were originally proposed by a Health, 
Education and Welfare (HEW) task force and then embodied into the 1974 
Privacy Act. That act applies to government uses of 
information.<SUP>3</SUP> Consumer and privacy groups generally view the 
following as among the key elements of Fair Information Practices:

<bullet> limitation to collection of necessary information (purpose 
        specificity),
<bullet> notice of the existence of all databases to data subjects who 
        are then granted a concomitant right of disclosure of their 
        record to review, dispute and correct errors,
<bullet> a restriction on secondary uses without consumer consent,
<bullet> a guarantee that data collectors maintain the accuracy and 
        security of databases,
<bullet> no preemption of state or local laws affording greater 
        protection,
<bullet> and, a private right of action for data subjects if the other 
        rights have been violated.
    Consumer groups disagree with industry organizations over whether 
certain self-regulatory or statutory schemes are adequately based on 
Fair Information Practices. Industry groups often seek to block 
legislation or offer substitute legislation intended to ``dumb-down'' 
the Fair Information Practices:

<bullet> First, industry groups seek to substitute a weaker opt-out 
        choice, instead of providing opt-in consent before secondary 
        uses,
<bullet> Second, industry groups claim that notice is enough. They 
        claim that disclosure and correction rights are unnecessary.
<bullet> Third, they support preemption of stronger state laws and also 
        contend that either agency enforcement or self-regulation is an 
        adequate substitute for a consumer private right of action.
 history of consideration of fair credit reporting act and gramm-leach-
                       bliley privacy provisions
(1) The Need For a Fair Credit Reporting Act
    U.S. PIRG has long been interested in financial information privacy 
issues. In 1989, we first testified before the Congress on the need for 
amendments to the 1970 Fair Credit Reporting Act (FCRA). At that time, 
in a series of hearings, Congress noted a shocking rise in the number 
of complaints about credit report inaccuracies to state attorneys 
general and the Federal Trade Commission.
    The 1970 act had been enacted in response to two major problems. 
First, consumers had no control over the use or accuracy of their 
factual credit reports (called ``consumer reports'' in the statute). 
Second, job, credit and insurance applicants had been victimized by 
abusive collection of information, by credit bureaus, for the 
preparation of ``investigative consumer reports.'' An investigative 
consumer report is a credit report that is based on subjective and 
hearsay interviews with neighbors and co-workers.<SUP>4</SUP>
    In 1991, we published the first of a series of PIRG reports on the 
accuracy and privacy of consumer credit reports. To date, we have 
published six reports on credit reporting and identity theft issues. 
Three reports have evaluated the accuracy of credit reports:

<bullet> A PIRG report based on a Freedom of Information request to the 
        FTC found credit reporting inaccuracies were the leading 
        complaint to the FTC from 1991-93.
<bullet> A second key finding is that as many as one in three credit 
        reports may contain serious errors that could cause the denial 
        of credit, housing, insurance or even a job. This finding has 
        been duplicated in Consumers Union studies.
    Three other reports in the series have investigated the growing 
crime of identity theft, which affects hundreds of thousands of 
consumers each year. Our latest report found that victims spend two 
years or more removing an average of $18,000 in fraudulent charges from 
their credit reports. The crime is made easier by easy access to the 
bits and pieces of personal information that make up a consumer's 
financial persona. Just last month, newspaper stories reported on how 
sloppy financial industry security practices enabled a high-school 
dropout to steal the identities of numerous celebrities:
        Using computers in a local library, a Brooklyn busboy pulled 
        off the largest identity-theft in Internet history, victimizing 
        more than 200 of the ``Richest People in America'' listed in 
        Forbes magazine, authorities say. Abraham Abdallah, 32, a 
        pudgy, convicted swindler and high-school dropout, is suspected 
        of stealing millions of dollars as he cunningly used the Web to 
        invade the personal financial lives of celebrities, 
        billionaires and corporate executives, law enforcement sources 
        told The Post.<SUP>5</SUP>
    U.S. PIRG's reports on identity theft and the hassles victims are 
put through by financial firms include a detailed legislative platform 
of reforms needed to prevent identity theft and improve the accuracy of 
credit reports <SUP>6</SUP>. Among the key reforms we have identified 
would be legislation to close the so-called credit header loophole 
<SUP>7</SUP>, which has been partially closed by the Gramm-Leach-Bliley 
financial privacy rule approved by the 7 federal financial agencies. We 
discuss the controversial credit header loophole below.
(2) The Need For Title V (Privacy) In Gramm-Leach-Bliley
    The Gramm-Leach-Bliley Financial Services Modernization Act was 
enacted to respond to changes in the marketplace. Banks, insurance 
companies and securities firms were more and more selling products that 
looked alike. The firms wanted the privilege of and synergies derived 
from selling them all under one roof. Yet, the Gramm-Leach-Bliley Act 
was also enacted against a backdrop of financial privacy invasions, and 
members wanted to ensure that the new law wouldn't make things worse. 
Consumer and privacy groups argued that if the Congress was going to 
create one-stop financial supermarkets, then privacy protections ought 
to extend to all information sharing, whether with affiliates or with 
third parties. At the time, two examples were given of the need for 
stronger privacy laws.
    One of these examples involved an affiliate-sharing arrangement:
    The Nationsbank/NationsSecurities case resulted in a total of $7 
million in civil penalties. Nationsbank shared detailed customer 
information about maturing CD holders with a securities subsidiary, 
which then switched the conservative investors into risky derivative 
funds.<SUP>8</SUP>
    The second example involved a bank sharing confidential customer 
information with a third party telemarketer:
    In June 1999 the Attorney General of Minnesota sued US Bank for 
sharing confidential customer ``experience and transaction'' 
information with third-party firms for telemarketing and other 
purposes. The telemarketer doing business with US Bank, 
Memberworks,<SUP>9</SUP> had contracts with numerous other banks, as 
did at least one other competitor, BrandDirect,<SUP>10</SUP> which has 
also been the subject of consumer complaints. In the U.S. Bank 
litigation, it was determined that not only was U.S. Bank sharing 
detailed customer dossiers with the telemarketer, it was also sharing 
account numbers. This allegedly allowed Memberworks to use deceptive 
telephone scripts to convince consumers to take trial offers. The 
consumers didn't think they had ordered any goods, but since the bank 
had shared their account numbers, it turns out that they had. U.S. 
Bank, in 1999, signed a multi-million dollar settlement with the state 
of Minnesota.
    In addition to providing for an nonaffiliated third-party opt-out, 
Gramm-Leach-Bliley included a specific provision purporting to prevent 
future U.S. Bank debacles. The new law prohibits sharing account 
numbers for marketing purposes. Unfortunately, the agencies have 
interpreted that law to allow sharing of ``encrypted'' account numbers, 
if there is no way for the telemarketer to ``un-encrypt'' the number. 
In our opinion, this protection is a ``virtual,'' or meaningless, 
protection, since a telemarketer could ``push a button on a computer'' 
connected to the bank and authorize the billing of a consumer who 
didn't actually order anything.
    In December 2000, the Minnesota Attorney General filed yet another 
suit, this one against Fleet Mortgage, an affiliate of FleetBoston, for 
substantially the same types of violations as U.S. Bank engaged in. 
While some consumers may presume that their credit card company, as a 
matter of routine, is going to attempt to pitch junky, over-priced and 
tawdry products such as credit life insurance, credit card protection 
and roadside assistance, the practice is now spreading to mortgage 
affiliates as well. The state's complaint succinctly explains the 
problem that occurs when your trusted financial institution shares 
confidential account information with third party telemarketers. The 
complaint states that when companies obtain a credit card number in 
advance, consumers lose control over the deal:
        Other than a cash purchase, providing a signed instrument or a 
        credit card account number is a readily recognizable means for 
        a consumer to signal assent to a telemarketing deal. Pre-
        acquired account telemarketing removes these short-hand methods 
        for the consumer to control when he or she has agreed to a 
        purchase. The telemarketer with a pre-acquired account turns 
        this process on its head. Fleet not only provides its 
        telemarketing partners with the ability to charge the Fleet 
        customer's mortgage account, but Fleet allows the telemarketing 
        partner to decide whether the consumer actually consented. For 
        many consumers, withholding their credit card account number or 
        signature from the telemarketer is their ultimate defense 
        against unwanted charges from telemarketing calls. Fleet's 
        sales practices remove this defense.<SUP>11</SUP>
    This complaint alleges that the company was providing account 
numbers to the telemarketer. In our view, Gramm-Leach-Bliley needs to 
be amended so that telemarketers cannot initiate the billing of a 
consumer who has not affirmatively provided his or her credit card or 
other account number. Whether this case stems from pre-Gramm-Leach-
Bliley acquisition of full account numbers, or post-Gramm-Leach-Bliley 
encrypted numbers or authorization codes, is not the question. In 
either case, consumers have lost control over their accounts.
    do either the fcra or glb meet fair information practices tests?
    Although U.S. PIRG generally believes that consumer rights in 
credit reporting need to be strengthened to prevent errors and to 
prevent privacy invasions, the FCRA is largely based on Fair 
Information Practices. Companies cannot access credit reports without a 
permissible purpose (providing both for security and a limited form of 
consent), consumers have strong dispute and correction rights, and 
consumers have a modest private right of action. Where the FCRA largely 
falls short is where it interfaces with the Gramm-Leach-Bliley Act, the 
subject of the hearing today <SUP>12</SUP>:
    1) First, the 1996 FCRA amendments exempted the sharing of 
``experience and transaction'' information between affiliates from the 
definition of credit report. Under the Gramm-Leach-Bliley Act, 
information shared between and among affiliates (and even some third 
parties) for secondary purposes is not subject to either an opt-in or 
an opt-out. The act does provide that when financial institutions 
obtain so-called ``other'' information, that consumers must be granted 
a right to opt-out of sharing, even among affiliates. This right must 
be disclosed on GLB privacy policies.
    2) Second, the 1996 amendments failed to close the so-called 
``credit header'' loophole, established by the FTC in a 1993 consent 
decree with TRW (now Experian). The credit header loophole allowed 
credit bureaus to separate a consumer's so-called header or identifying 
information--including his name, address, Social Security Number and 
date of birth--from the remainder of his credit report and sell it 
outside of the FCRA's consumer protections. In March 2000, the FTC held 
that dates of birth are used to calculate credit scores and are 
therefore credit-related information. It removed them from headers. The 
final Gramm-Leach-Bliley financial privacy rules issued later that 
spring by the 7 federal financial agencies defined Social Security 
Numbers as non-public personal information. Although the issue is 
currently in litigation, the agencies are, in our view, correctly 
interpreting the law to prevent the sharing of Social Security Numbers 
unless consumers are given notice of the practice and a right to opt-
out.
    The Gramm-Leach-Bliley Act falls short of meeting Fair Information 
Practices in several areas as well.

<bullet> First, it fails to require any form of consent (either opt-in 
        or opt-out) for most forms of information sharing for secondary 
        purposes, including experience and transaction information 
        shared between and among either affiliates or affiliated third 
        parties.
<bullet> Second, while consumers generally have access to and dispute 
        rights over their account statements, they have no knowledge 
        of, let alone rights to review or dispute, the development of 
        detailed profiles on them by financial institutions.
<bullet> The act does provide for disclosure of privacy policies, 
        although a review of a sample of privacy policies suggests that 
        companies are not following the spirit of GLB. None are fully 
        explaining all their uses of information, including the 
        development of consumer profiles for marketing purposes. None 
        are listing all the types of affiliates that they might share 
        information with. None are describing the specific products, 
        most of which are of minimal or even negative value to 
        consumers, that third party telemarketers might offer for sale 
        to consumers who fail to opt-out. Yet all the privacy policies 
        make a point of describing how consumers who elect to opt-out 
        will give up ``beneficial'' opportunities.
           the affiliate sharing loophole in the fcra and glb
    In 1996, when the Congress finally enacted comprehensive amendments 
to the FCRA, a fundamental dispute between consumer groups and the 
Federal Trade Commission, on one side, and the financial industry, on 
the other, concerned whether or not confidential consumer information 
shared between and among financial affiliates would be subject to the 
FCRA's consumer protection provisions. In 1996, the Congress chose to 
grant an exception to the definition of consumer report, for 
transaction and experience information shared between and among 
``companies affiliated by common control.'' The Congress also allowed 
companies to share information obtained from third parties (third 
parties such as the consumer herself, her credit report, and her job 
references) but granted the data subject a right to opt-out of the 
sharing of this information, even among affiliates. This right must be 
disclosed on GLB privacy policies.
    Consumer groups contend that as financial firms get larger and 
contain more subsidiaries and affiliates, they may no longer need to 
contact credit bureaus for their own underwriting and marketing 
decisions. Consumers will not be able to shop around for credit (let 
alone for privacy policies). Gramm-Leach-Bliley can only be expected to 
expand the capabilities of financial services holding companies to make 
credit decisions without using credit bureaus. Consumers will then face 
credit denials, or increases in the cost of credit, without benefit of 
the full panoply of FCRA rights.
    Basically, if affiliate A directly obtains a credit report and 
denies you a loan, you have full FCRA rights. If you fail to opt-out of 
``other'' information sharing, and your credit report and application 
information are retained by the bank, affiliate B could make credit 
decisions without contacting a credit bureau. A consumer does not then 
have FCRA rights. If these practices grow, and if more financial 
institutions begin to make decisions based on their own internal 
profiles, or even establish internal subsidiary credit bureaus exempt 
from the FCRA's coverage, the effects not only on privacy, but also on 
competition and credit allocation, will be significant. Some consumers 
will not even be told they have been denied credit.
    Consumer groups and other privacy proponents generally contend that 
information should not be shared for secondary purposes without the 
subject's affirmative (opt-in) consent and that this protection should 
apply to both affiliate and outside (third-party) transactions. During 
consideration of the bill that became GLB, HR 10, the full Commerce 
Committee, in its wisdom, chose to support by acclimation, a bi-
partisan financial privacy amendment supported by privacy groups 
offered by Reps. Markey and Barton. The compromise amendment would have 
granted consumers an ``opt-out'' right whether confidential information 
was shared between affiliates or with third parties. The Markey-Barton 
amendment would have given consumers the right to an opt-out that would 
have protected all their financial information from being used for 
secondary purposes by either an affiliate or any third party. As 
Representative Barton stated on the floor during consideration of HR 
10:
        The question I ask this body and this country is: If we are 
        concerned about the selling and sharing of information to third 
        parties, should we not be just as concerned about the selling, 
        sharing, transmitting, or accessing that information inside of 
        these affiliates if there are going to be dozens or hundreds of 
        these affiliates? ...Until we solve the riddle of handling 
        information within the affiliate structure, we do not have 
        privacy. We do not have privacy.<SUP>13</SUP>
    Unfortunately, neither the Banking Committee, nor the House 
leadership, nor the Senate, agreed. The Commerce Committee privacy 
amendment was not passed in the Banking Committee and was not even 
considered on the floor of either House, even though it passed the full 
Commerce Committee.
    The final version of Gramm-Leach-Bliley defines non-public personal 
information that is to be protected under the act. It then bifurcates 
third party companies into two groups. The first, affiliated third 
parties, are treated as affiliates for information-sharing purposes. 
Companies can share experience and transaction information (including 
non-public personal information) between and among both affiliates and 
affiliated third parties, which may be providing services on behalf of 
the bank, regardless of a consumer's opt-out preference. However, after 
the effective date (1 July 2001) of GLB, such information can only be 
shared with nonaffiliated third parties if the consumer has been 
granted notice and been given an opportunity to opt-out. There are two 
primary implications of this limited protection. First, consumers will 
have the ability to limit access by third party telemarketers to their 
confidential financial information. Second, they may be able to protect 
their Social Security Numbers from secondary use by information 
brokers.
     the lawsuits over the narrowing of the credit header loophole
    Consumer and privacy groups strongly contend that easy access to 
consumer identifying information leads to stalking and identity theft. 
Even if it did not, groups strongly support restrictions on the 
secondary use of Social Security Numbers, which were never intended as 
a national identifying number yet form the key for establishing 
someone's location or identity. In other areas, such as Drivers' 
License privacy, the Congress has sought to narrow the availability of 
Social Security Numbers.<SUP>14</SUP> In the 106th Congress, Social 
Security Number protection legislation named for Amy Boyer, the first-
known victim of an Internet stalker, was defeated after it was seen 
that the proposal actually was a Trojan Horse that expanded the 
availability of Social Security Numbers, primarily to customers of the 
Individual References Services Group. IRSG member companies include 
credit bureaus and other information firms engaged in the sale of non-
public personal information to locater services, debt collectors, 
information brokers, private detectives and others.<SUP>15</SUP>
    In 1993, the Federal Trade Commission granted an exemption to the 
definition of credit report when it modified a consent decree with TRW 
(now Experian). The FTC said that certain information would not be 
regulated under the Fair Credit Reporting Act. The so-called credit 
header loophole allowed credit bureaus to separate a consumer's so-
called ``header'' or identifying information from the balance of an 
otherwise strictly regulated credit report and sell it to anyone for 
any purpose.<SUP>16</SUP> The FTC's theory was that credit headers 
included information that ostensibly did not bear on creditworthiness 
and therefore was not part of the information collected or sold as a 
consumer credit report. The sale of credit headers involves stripping a 
consumer's name, address, Social Security Number and date of birth from 
the remainder of his credit report and selling it outside of the FCRA's 
consumer protections. Although the information, marketing and locater 
industries contend that header information is derived from numerous 
other sources, in reality, the primary source of the most accurate and 
best credit header data is likely information provided by financial 
institutions with monthly credit updates.
    In March 2000, the FTC held that dates of birth are credit-related 
information and removed them from headers.<SUP>17</SUP> The final 
Gramm-Leach-Bliley financial privacy rules issued later that spring by 
the 7 federal financial agencies defined Social Security Numbers as 
non-public personal information. Although the issue is currently in 
litigation, the agencies are, in our view, correctly interpreting the 
law. Since Social Security Numbers are held to be non-public personal 
information, the rule acts to prevent the sharing of Social Security 
Numbers unless consumers are given notice of the practice and a right 
to opt-out. As the FTC explains in the preamble to its Gramm-Leach-
Bliley Financial Privacy Rule:
        The Commission recognizes that Sec. 313.15(a)(5) permits the 
        continuation of the traditional consumer reporting business, 
        whereby financial institutions report information about their 
        consumers to the consumer reporting agencies and the consumer 
        reporting agencies, in turn, disclose that information in the 
        form of consumer reports to those who have a permissible 
        purpose to obtain them. Despite a contrary position expressed 
        by some commenters, this exception does not allow consumer 
        reporting agencies to re-disclose the nonpublic personal 
        information it receives from financial institutions other than 
        in the form of a consumer report. Therefore, the exception does 
        not operate to allow the disclosure of credit header 
        information to individual reference services, direct marketers, 
        or any other party that does not have a permissible purpose to 
        obtain that information as part of a consumer report. 
        Disclosure by a consumer reporting agency of the nonpublic 
        personal information it receives from a financial institution 
        pursuant to the exception, other than in the form of a consumer 
        report, is governed by the limitations on reuse and 
        redisclosure in Sec. 313.11, discussed above in ``Limits on 
        reuse.'' Those limitations do not permit consumer reporting 
        agencies to disclose credit header information that they 
        received from financial institutions to nonaffiliated third 
        parties ...If consumer reporting agencies receive credit header 
        information from financial institutions outside of an 
        exception, the limitations on reuse and redisclosure may allow 
        them to continue to sell that information. This could occur if 
        the originating financial institutions disclose in their 
        privacy policies that they share consumers' nonpublic personal 
        information with consumer reporting agencies, and provide 
        consumers with the opportunity to opt out.[Emphasis added, 
        Footnotes omitted] <SUP>18</SUP>
    In their lawsuits filed to block the inclusion of Social Security 
Numbers in the Gramm-Leach-Bliley definition of non-public personal 
information, the credit bureaus and other IRSG members the firms make 
any number of kitchen-sink arguments against the rule.<SUP>19</SUP> 
Among the most important are their claims that the Gramm-Leach-Bliley 
Act does not affect the FCRA, that the breadth of the agencies' rules 
goes beyond statutory intent, and that the agencies should not be 
granted any deference under the Supreme Court's Chevron <SUP>20</SUP> 
test.
    First, the firms argue that Gramm-Leach-Bliley includes a savings 
clause (Section 6806) that the law does not ``modify, limit, or 
supersede the operation of the Fair Credit Reporting Act.'' This view 
is without merit, since no part of the Fair Credit Reporting Act allows 
the sale of credit headers. As the FTC points out in its preamble to 
the rule, ``To the extent credit header information is not a consumer 
report, it is not regulated by the FCRA and a prohibition on its 
disclosure by a consumer reporting agency consistent with the statutory 
scheme of the G-L-B Act in no way modifies, limits or supercedes the 
operation of the FCRA.<SUP>21</SUP>''
    Second, the firms argue that the agencies went too far in defining 
non-public personal information and that the rule should be rejected on 
these grounds. They further argue that the agencies are not entitled to 
deference in their statutory interpretations under the Chevron test 
<SUP>22</SUP>. The consumer groups strongly disagree with the firms on 
these counts. First, it was very clear from the legislative history of 
GLB that the Congress intended confidential information provided to 
financial institutions as a condition of obtaining an account should be 
construed as non-public personal information. Second, seven separate 
federal financial agencies, all with expertise in financial industry 
matters, concurred on identical regulations.
    Based on the record, then, if anything, the seven agencies that 
issued an identical joint rule agencies should be granted sweeping 
Chevron deference ``ultra.'' The seven agencies have done an admirable 
job of determining that GLB requires the deletion of Social Security 
Numbers from credit headers, unless consumers are given notice and an 
opportunity to opt-out. When credit bureaus sell credit reports, they 
are entitled to the FCRA savings clause of GLB. When credit bureaus 
sell credit headers, they are clearly nonaffiliated third parties 
selling non-public personal information. Disappointingly, rather than 
comply with Congressional intent, the firms have chosen to roll the 
dice in the courts.
      assault on state laws and the so-called ``costs'' of privacy
    The 1996 amendments to the Fair Credit Reporting Act partially 
preempt the right of the states to enact stronger laws, especially in 
the area of prohibiting affiliate sharing, until 2004. Although Gramm-
Leach-Bliley, overall, is sweepingly preemptive, Title V includes a 
state law savings clause, the so-called Sarbanes amendment that allows 
states to enact stronger privacy laws (Section 6807). We disagree with 
industry groups that this provision's applicability to affiliate 
sharing is trumped by Title V's FCRA savings clause. Unfortunately, the 
financial industry has not only sent lobbyists out en masse to oppose 
enactment of stronger state financial privacy laws under consideration 
in numerous states, it has also sent them out to attack existing laws. 
This week, North Dakota apparently was convinced to gut an existing 
financial privacy law and Vermont is under extreme pressure to do so as 
well. We urge the states to reject the financial industry's unfounded 
and blackmail-like claims that they stop selling products in your state 
unless you accede to their wishes and eviscerate your consumer laws.
    The financial services and other information industries have also 
unleashed a massive public relations assault purporting that privacy 
costs too much money and, incredibly, according to some news stories, 
may bring down the economy. U.S. PIRG intends to review the industry-
funded studies that form the alleged basis for these claims in greater 
detail. We urge the committee to evaluate the claims made in these 
industry-funded studies in great detail before acting on them, if at 
all. The American people have demonstrated strong support for strong 
privacy protections. In our view, the costs of not protecting privacy--
increased identity theft and stalking, sale of unsatisfactory 
telemarketed products, loss of the right to be left alone--easily 
outweigh these purported costs to industry. We will provide the 
committee with more analysis as it becomes available.
                               conclusion
    We appreciate the opportunity to testify before you on the 
important matter of financial privacy. Although neither the Fair Credit 
Reporting Act nor the Gramm-Leach-Bliley Act go as far necessary to 
protect consumer privacy, the laws together play an important role in 
establishing a minimal framework of financial privacy protection. We 
look forward to working with the committee to strengthen the laws.

                               Footnotes

    <SUP>1</SUP> See the ``Privacy Law Sourcebook, 2000: United States 
Law, International Law and Recent Developments,'' by Marc Rotenberg, 
Electronic Privacy Information Center, for a comparision of all 
important privacy laws.
    <SUP>2</SUP> Testimony and Statement for the Record of Marc 
Rotenberg, Director, Electronic Privacy Information Center and Adjunct 
Professor, Georgetown University Law Center, on The European Union Data 
Directive and Privacy Before the Committee on International Relations, 
U.S. House of Representatives May 7, 1998 <http://www.epic.org/privacy/
intl/rotenberg-eu-testimony-598.
html>
    <SUP>3</SUP> As originally outlined by a Health, Education and 
Welfare (HEW) task force in 1973, then codified in U.S. statutory law 
in the 1974 Privacy Act and articulated internationally in the 1980 
Organization of Economic Cooperation and Development (OECD) Guidelines, 
information use should be subject to Fair Information Practices. Noted 
privacy expert Beth Givens of the Privacy Rights Clearinghouse has 
compiled an excellent review of the development of FIPs, ``A Review of 
the Fair Information Principles: The Foundation of Privacy Public 
Policy.'' October 1997. <http://www.privacyrights.org/AR/fairinfo.html> 
The document cites the version of FIPs in the original HEW guidelines, 
as well as other versions: Fair Information Practices U.S. Dept. of 
Health, Education and Welfare, 1973 [From The Law of Privacy in a 
Nutshell by Robert Ellis Smith, Privacy Journal, 1993, pp. 50-51.]
    1. Collection limitation. There must be no personal data record 
keeping systems whose very existence is secret.
    2. Disclosure. There must be a way for an individual to find out 
what information about him is in a record and how it is used.
    3. Secondary usage. There must be a way for an individual to 
prevent information about him that was obtained for one purpose from 
being used or made available for other purposes without his consent.
    4. Record correction. There must be a way for an individual to 
correct or amend a record of identifiable information about him.
    5. Security. Any organization creating, maintaining, using, or 
disseminating records of identifiable personal data must assure the 
reliability of the data for their intended use and must take 
precautions to prevent misuse of the data.
    <SUP>4</SUP> Consumer groups oppose legislation, HR 3408, 
introduced in the 106th Congress (and expected to be re-introduced) by 
Rep. Pete Sessions to exempt workplace misconduct reports from the 
FCRA. We recognize that an unintended consequence of the 1996 
amendments to the FCRA unwisely gives investigatory subjects a warning 
that they are under investigation. The solution is not to exempt 
workplace investigations, a major area of abuse of workers, from the 
FCRA. See 4 May 00 testimony of the National Consumer Law Center and 
U.S. PIRG, with an appendix provided by the AFL-CIO, that details the 
problem: <http://www.house.gov/financialservices/5400sau.htm>
    <SUP>5</SUP> See New York Post, 20 March 2001, ``HOW NYPD CRACKED 
THE ULTIMATE CYBER
FRAUD'' <http://dailynews.yahoo.com/htx/nypost/20010319/lo/
how__nypd__cracked__the__ulti
mate__cyberfraud__1.html>
    <SUP>6</SUP> See ``Nowhere To Turn: A Survey Of Identity Theft 
Victims,'' May 2000, CALPIRG, U.S. PIRG and the Privacy Rights 
Clearinghouse, for the latest version of the platform: <http://
www.pirg.org/calpirg/consumer/privacy/idtheft2000/>
    <SUP>7</SUP> In the 106th Congress, bi-partisan legislation 
approved by the Ways and Means Committee (HR 4857, Shaw-Matsui-Kleckza) 
would have eliminated Social Security Numbers from credit headers. 
Several other bills would close the credit header loophole.
    <SUP>8</SUP> See SEC Release No. 7532 And Release No. 39947, May 4, 
1998, Administrative Proceeding Against NationsBank, NA And 
NationsSecurities, File No. 3-9596, In The Matter Of : Order 
Instituting Cease-And-Desist Proceedings Pursuant To Section 8a Of The 
Securities Act Of 1933 And Sections:15(B)(4) And 21c Of The Securities 
Exchange Act Of 1934 And Findings And Order Of The Commission. See 
<http://www.sec.gov/enforce/adminact/337532.txt> (Note, total civil 
penalties of nearly $7 million includes fines paid to other state and 
federal agencies, as well as to the SEC.) From the order:``NationsBank 
assisted registered representatives in the sale of the Term Trusts by 
giving the representatives maturing CD lists. This provided the 
registered representatives with lists of likely prospective clients. 
Registered representatives also received other NationsBank customer 
information, such as financial statements and account balances. These 
NationsBank customers, many of whom had never invested in anything 
other than CDs, were often not informed by their NationsSecurities 
registered representatives of the risks of the Term Trusts that were 
being recommended to them. Some of the investors were told that the 
Term Trusts were as safe as CDs but better because they paid more. 
Registered representatives also received incentives for their sale of 
the Term Trusts.''
    <SUP>9</SUP> On Friday, 16 July 1999, the Minnesota Attorney 
General filed suit against Memberworks. At least four other states 
(Florida, California, Washington and Illinois ) are investigating the 
firm. See The Washington Post,. ``Telemarketer Deals Challenged in 
Suit, Sale of Consumer Financial Data Assailed,'' by Robert O`Harrow 
Jr, Saturday, July 17, 1999; Page E01.
    <SUP>10</SUP> For articles on BrandDirect and Chase Manhattan, see 
for example, The Seattle Post-Intelligencer, ``You may be a loser--
buying something you didn't want'', by Jane Hadley, Thursday, April 8, 
1999 or Newsday, ``Company Had Her Number/Woman discovers to her 
surprise card issuer gave out account data'' by Henry Gilgoff, 9 May 
1999.
    <SUP>11</SUP> 28 December 2000, Complaint of State of Minnesota vs. 
Fleet Mortgage, see <http://www.ag.state.mn.us/consumer/news/pr/Comp--
Fleet--122800.html>
    <SUP>12</SUP> FCRA also preempts state laws in most respects, until 
2004, and fails to provide free access to credit reports except in 
limited circumstances. We oppose these two provisions.
    <SUP>13</SUP> Floor debate on HR 10, Congressional Record, Page 
H5513, 1 July 1999.
    <SUP>14</SUP> See enacted 2000 amendments to the Drivers Privacy 
Protection Act by Senator Shelby. For more information about privacy 
invasions caused by access to Social Security Numbers, see the new 
book, ``War Stories III,'' by Robert Ellis Smith, Publisher, Privacy 
Journal, <http://www.privacyjournal.net>
    <SUP>15</SUP> See the U.S. PIRG Fact Sheet, ``Why The Amy Boyer Law 
Is A Trojan Horse'' at <http://www.pirg.org/consumer/
trojanhorseboyer.pdf>
    <SUP>16</SUP> The industry has since established an association, 
the Individual References Services Group, which purports to manage a 
voluntary self-regulation that regulates sale of non-public personal 
information included in credit headers to what it terms ``authorized 
commercial and professional users.'' In our view, information brokers 
can easily slip through IRSG's net.
    <SUP>17</SUP> See Trans Union Order, March 2000.
    <SUP>18</SUP> Excerpted from pages 80-83, Federal Trade Commission, 
16 CFR Part 313, Privacy Of Consumer Financial Information, Final Rule 
<http://www.ftc.gov/os/2000/05/glb000512.pdf>
    <SUP>19</SUP> Several lawsuits have been filed, including by Trans 
Union, Individual References Services Group, and other credit bureaus. 
Although cross-motions for summary judgments have been filed by both 
sides in the U.S. District Court for the District of Columbia, no oral 
argument has been scheduled.
    <SUP>20</SUP> Chevron USA vs. Natural Resources Defense Council, 
467 US 837 (1984).
    <SUP>21</SUP> Pages 81, Federal Trade Commission, 16 CFR Part 313, 
Privacy Of Consumer Financial Information, Final Rule <http://
www.ftc.gov/os/2000/05/glb000512.pdf>
    <SUP>22</SUP> See Pages 14-18, Memorandum in Support of Trans Union 
LLC's Motion For Summary Judgment, Trans Union vs. Federal Trade 
Commission, Civil Action No 1:00 CV 02087 (ESH), 1 Nov 00.

    Mr. Stearns. I thank the gentleman.
    Let me start the round of questioning with Mr. Plesser. 
Some people have advocated an opt-in regime for future privacy 
protection. In COPPA, the law doesn't require an opt-in for use 
of further information. Am I correct in that?
    Mr. Plesser. Well, it does have verifiable consent of a 
parent for the collection of use. There are four exemptions to 
it, so it owes its opt-in/opt-out terminology gets a little 
vague, but it does have a pretty strong consent basis for it. 
So it could be called opt-in and then it has some exceptions to 
opt-out.
    Mr. Stearns. The question could it be considered opt-in or 
opt-out, yes or not? Can it be considered opt-in or opt-out?
    Mr. Plesser. I would primarily call it an opt-in 
legislation.
    Mr. Stearns. Okay. So you have to consent to go in. If we 
adopt some type of opt-in regime for general privacy 
protection, it may seem unusual if we provided a weaker 
standard for children than non-children. I mean we're trying to 
get some consistency, whether opt-in or opt-out. Do you have a 
way that you look at this that you could tell us that this opt-
in would be for this kind of policy and this opt-out would be 
for this type of policy?
    Mr. Plesser. Well, I think there's room for both. I do 
think as was discussed before that it varies on the type of 
information. I think for medical information, some detailed 
financial information, information collected from kids, a 
consent or opt-in is appropriate. I think for general 
information, marketing information, material generally 
collected from websites, I think an opt-out is sufficient and I 
think one has to examine the information.
    Mr. Plesser. Mr. Torres, I'd ask this question and you were 
probably here when I talked to Panel 1 about the Gramm-Leach-
Bliley bill. And you have criticized in your opening statement 
the current privacy statute, HIPAA, COPPA, Gramm-Leach-Bliley. 
Do you believe that we should revisit every one of these and 
redesign them or is it that you think it's okay the way it is 
and perhaps is it politically possible to do it?
    Mr. Torres. Mr. Chairman, if I could be clear, I think that 
Consumers Union believes that the privacy provisions in Gramm-
Leach-Bliley Act are completely inadequate and should be 
revisited.
    Mr. Stearns. Completely inadequate and should be revisited.
    Mr. Torres. And should be revisited. With respect to the 
medical privacy provisions of HIPAA, while we think there are 
some shortcomings that need to be addressed, we don't agree 
that the rule should be gutted and we don't believe that the 
rule shouldn't be implemented.
    With respect to COPPA, I think for the most part the intent 
of that legislation was right on target, the fact that parents 
should have some control over the information collection, 
information collected from their children when they go on line. 
Is it appropriate to address some of the problems with it? 
Probably so. Do we need to roll the protections back? No.
    Mr. Stearns. In the Gramm-Leach-Bliley, I guess you heard 
there's going to be almost 21 notices in a year given to all 
the people. Don't you think that's sufficient?
    Mr. Torres. It was interesting. I spoke not to long after 
that law was passed to a group of members of the insurance 
industry and they started blasting me for getting such a bad 
law passed.
    Mr. Stearns. yeah.
    Mr. Torres. I said actually I'm not the one who drafted 
that. The consumer groups aren't the ones that put that 
together. It was something agreed to by the financial services 
industry and put in the bill. What we simply wanted was and 
when you think about it what's so troublesome about telling 
consumers about your information collection practices? Now I've 
taken a look at some of the notices. I haven't seen notices 
from everyone and I think you'll probably see the full gamut of 
notices, but some of them spend five pages telling you what a 
great job they're doing about, you know, they care about your 
privacy and they will take great steps to protect it, but at 
the end of the day what consumers end up with under Gramm-
Leach-Bliley is virtually nothing. The reason why companies can 
say well, we'll not even share information with third parties, 
is because those financial institutions don't want to deal with 
third parties. What would be interesting is to ask a financial 
institution what information they currently do or would want to 
do would be prohibited under the exceptions of Gramm-Leach-
Bliley. That's how big the exception is.
    Mr. Stearns. Okay. Mr. Varn, as I understand it, you were a 
prior elected official, a State Representative or State 
Senator?
    Mr. Varn. Both.
    Mr. Stearns. So you understand the whole process here. I 
thought it was interesting your comment that a set of visceral 
reaction that occurs and prompts legislative action. I mean 
only a person who had been elected can understand that. And 
that reaction precedes any understanding of the benefit of the 
use of the record so that not true balancing was used.
    Let me just go to your--you tried to definitize this when 
you talked about the four issues of privacy: security, 
integrity, accuracy and privacy. What you say are distinct 
issues in your mind, yet last time all of us discussed them as 
one and the confusion results. You might just want to elaborate 
for the record the significance of such resultant confusion.
    Mr. Varn. Oftentimes people will call something a privacy 
problem when it's, in fact, a security problem. People will 
say, for example, people's credit cards have been revealed from 
a website being hacked and they'll call it an invasion of 
privacy. Well, yes, that is, but the problem, the core problem 
in that case was a lack of proper security----
    Mr. Stearns. In the first place.
    Mr. Varn. In the first place. The lack of investment by our 
Nation in security infrastructure. You started with the FBI in 
trying to expand a web across our country to enforce, to help 
our security people deal with this problem. But confusion 
between those two, for example, other people will say my 
records aren't accurate or I can't get access to them and I 
have a privacy concern about that. Well, that's more easily 
addressed by going right after the accuracy and access issue. 
So my point is these particular areas have more specific 
solutions that can address them better when we aim right. So if 
it's an accuracy problem, especially when public records are at 
stake and someone says that's not me, I didn't do that. You can 
go after that problem not calling it a privacy issue or 
restricting the record, go right after fixing the record.
    The last part of this is also enforcement. Besides just 
breaking these up into security and integrity--and integrity is 
the one that's ignored. Losing your records is pretty serious 
and we'd have under-invested in that. But enforcement underlies 
all these things. We pass these laws, I've been part of that 
and we don't pass the regimen. We don't pass the funding. We 
don't put in place the methodology to actually enforce them and 
they end up being a hollow promise, so I'd say those are your 
five areas to focus on, trying to keep them distinct and aim 
your solutions better.
    Mr. Stearns. Just one last question for Mr. Zuck. I 
understand some companies have opted not to market to children 
under 13 years of age because of restrictions contained in the 
Child On-Line Privacy Protection Act. Is there a right balance 
or how do we find the right balance between quality, privacy 
protection and unbearable commercial limitations. Is there such 
a thing?
    Mr. Zuck. Mr. Chairman, that's a really good question. 
Finding that balance is the real challenge and I think part of 
it is by engaging in a much more open process than creating 
legislation in the first place. I think some of the 
deficiencies associated with COPPA are a function of the lack 
of vetting and mark-up processes that normally goes into bills 
and it kind of went through as a omnibus budget bill and so a 
lot of where the forethinking about where some of the costs 
that outweigh some the benefits might have arisen might have 
come to the surface with a better process being in place.
    Mr. Stearns. My time has expired. Mr. Towns?
    Mr. Towns. Mr. Chairman, let me start right on that point 
because I think there's a piece that you sort of left out there 
and I don't want you to indict the Congress without us being 
guilty. I mean I want to make certain that what happened there 
is that I would point out as a matter of clarification that 
before passing the House and Senate as part of the 
appropriations bill, both the Child On-line Protection Act and 
the Children's On-line Privacy Protection Act were passed by 
both the committee and the full House under suspension of the 
rules. In both cases, the legislation was passed by voice vote. 
So I take exception to your characterization regarding that 
particular matter, and of course, to say to you that the fact 
that it passed by a voice vote I think points out that we took 
it very seriously and we did know what we were doing in that 
particular instance because it went through that process.
    Mr. Zuck. I mean obviously I wasn't trying to indict 
Congress, and as a programmer, I'm sure that I'm misspeaking as 
I speak about these processes. But I think that while the law 
passed one kind of language, for example, collection of data, 
on-line was a part of the language of the law and it was handed 
over to the FTC for rulemaking and that collection of data was 
extended to include data that wasn't, in fact, being collected 
by the companies, but instead, things like chat rooms, 
etcetera, where people were sharing data with each other and 
that's one of the biggest sources of costs has arisen. So I 
guess my point was simply that in a process of mark-ups, 
etcetera, that I've gotten used to seeing is that some of those 
things may have come to the forefront and been left less to the 
discretion of the FTC.
    Mr. Towns. We do enough bad stuff so when I get a chance to 
defend the Congress, I want to do so, you know? That's what 
we're talking about here.
    Mr. Zuck. Yes sir.
    Mr. Towns. Thank you. Mr. Torres, I left the room for a 
moment, I don't know whether this was dealt with or not. The 
University of Pennsylvania study concerned the Children's On-
Line Privacy Protection Act, seems to say the law is being 
under-enforced and not complied with. Is that because--I think 
it was Mr. Zuck who said the law is flawed and not able to be 
complied with.
    Mr. Torres. I'm not sure if the Annenberg Study draws that 
particular conclusion, but what it does say is that they 
question whether or not some of the companies who are targeting 
their sites to children actually ever fully expect parents to 
be able to read these privacy policies that they put out. 
They're either too vague or not complex enough. They did cite 
to some sites that seemed to get that right balance where 
they're actually understandable. In fact, what the Annenberg 
Study found was that they had college educated researchers 
taking a look at this and it took them a little bit of time to 
understand what the privacy policies were all about. Why 
couldn't it be simple and if we want to educate parents, let's 
not do away with the law and say let's educate parents. Why not 
educate parents about what to look at on these website policies 
to enhance their ability to make the decisions when they go on 
line. That would be the thing to do, not to say oh, it's too 
complicated, we can't comply or we've got to draft our privacy 
notices in such a complex or vague way that parents don't know 
what's going on.
    Mr. Towns. Mr. Plesser?
    Mr. Plesser. Yes, I would just like to comment quickly on 
the Annenberg Study. I think it is is the glass half full or 
half empty? It showed that there were 17 sites that didn't have 
notices on them, kids' notices, but we looked at a fair number 
of those 17 sites where we looked at them and I think there's 
legitimate argument that some of those sites were not directed 
at children. And I think there may be a disagreement and 
lawyers can disagree, people can disagree, but I think it's a 
pretty good argument. And I think most of what else they said 
was that they were concerned with graphics, with presentation. 
They saw one site, MaMaMedia that they thought was great and 
they graded other sites in kind of comparison to this, what 
they thought was the best.
    I don't think the implication and the way I read it, was 
some of the sites whose graphics weren't as good or color 
contrast was good were illegal, it was just simply they could 
do better. I think that's not the same thing as saying that 
those sites were bad. I think its actually compliance looked 
pretty good and of course, the FTC and the Attorney Generals 
now have full authority to enforce those statutes, so Congress 
did provide enforcement and teeth behind that statute.
    Mr. Towns. Mr. Zuck?
    Mr. Zuck. I think Mr. Torres brought up a point that 
actually underscores the irony of the situation to some extent 
when he said that some of these privacy policies don't appear 
to be written for parents. In a competitive marketplace in 
which children's sites are trying to compete for the confidence 
of parents, they're going to be really aiming the language to 
be simple, to be easy to read, to interpret. In a regulatory 
environment, these policies are actually aimed to be read by 
lawyers, because those are the people that are now the ones 
that these sites feel they answer to rather than the parents. 
And I think that is part of the irony of having such a 
restrictive environment is that these privacy policies are 
written for lawyers, instead of for parents.
    Mr. Towns. My time has expired, but let me say Mr. 
Mierzwinski, what are those industry groups who have challenged 
the FTC's rule believe they need access to a person's Social 
Security number and mother's maiden name?
    Mr. Mierzwinski. Well, I think that the FTC in 1993 said 
that the Fair Credit Reporting Act definition of credit report 
did not include information in your header, that is, 
information about your demographics, including your name, 
address, Social Security number, date of birth and sometimes 
mother's maiden name. The FTC, consumer groups and privacy 
groups believe, made a big mistake when it did that. However, 
the Gramm-Leach-Bliley Act has classified Social Security 
numbers as non-public, personal information and the FTC is 
interpreting that to mean that if a consumer opt-out of 
information sharing with a non-affiliated third party, he or 
she deserves the right to have their Social Security number 
protected. So ultimately, I think that's one of the most 
important predictions in the limited number of protections 
other than notice that Gramm-Leach-Bliley provides. The 
companies believe that the Social Security number, I don't 
speak for them, but I think they believe that in addition to 
believing that Congress overstepped or--excuse me, that the 
agencies and the Congress overstepped their authority in 
interpreting Social Security numbers to be nonpublic personal 
information, the companies believe that the Social Security 
number is the key to your identity and that it is the key to 
your location in the computerized world and they want the 
Social Security number to establish your credit header more 
accurately. Consumer and privacy groups believe that consumers 
shouldn't have their Social Security number used for secondary 
purposes like this without our consent. In the Drivers Privacy 
Protection Act amendments that Mr. Shelby supported and passed 
last year, we, in fact, get greater protection of Social 
Security numbers in other circumstances whereas the information 
sales industry wants the right to sell Social Security numbers 
and we simply disagree with them over that.
    Mr. Towns. Thank you for your generosity. Thank you, Mr. 
Chairman.
    Mr. Stearns. Sure. Mr. Terry?
    Mr. Terry. Thank you, Mr. Chairman. Mr. Mierzwinski, sorry 
about mispronouncing your name. Let me ask you a few questions. 
First of all, you mentioned a couple Omaha folks. I represent 
Omaha, Nebraska. By the way, Warren Buffet's real name is 
Warren Buffet of Omaha, if you read the article, so please note 
that for the record.
    You also mentioned another corporate citizen that's been in 
the news lately, Member Works. So I want to talk a little bit 
about some of the accusations you've laid on the table during 
your testimony. They had some difficulties with the Attorney 
General in Minnesota and some other states. That's duly noted, 
but I want to kind of work through where you think the problems 
are and if you are just acting on misinformation or you have 
facts that I don't have.
    First of all, you said U.S. Bank gave the telemarketers 
account information. Now as I understand when we looked into 
this in our office, what they gave the telemarketers were name, 
address, phone number, but the telemarketer, the 20-year-old 
college student who is making the phone call, didn't have 
access to that person's credit card number. That part was 
encrypted. Is that your understanding? Because you criticized 
U.S. Bank for transferring to these telemarketers account 
information or credit card information.
    Mr. Mierzwinski. I think that the privacy invasion and I 
base all of my testimony on the complaints and the settlement 
agreements that have been filed by the Attorney General of 
Minnesota in those cases. When I say that the credit card 
numbers or checking account numbers or in the new lawsuit 
recently filed by the Attorney General of Minnesota against 
Fleet Mortgage or the mortgage number of banks' customers were 
provided to the telemarketing company. Whether or not the 
individual telemarketer sitting at the computer kiosk who is 
making the call to the consumer has the credit card is not the 
privacy invasion.
    Mr. Terry. That's what I wanted----
    Mr. Mierzwinski. The company has it and we still contend 
that that's an invasion. And I understand in some of the 
circumstances it was not encrypted, but may have been 
unencrypted.
    Under Gramm-Leach-Bliley, they're still allowing, they the 
regulators, are still allowing the transfer of encrypted credit 
card numbers and other account numbers to telemarketers which 
we believe still allows telemarketers to deceive consumers into 
buying products they did not think they had bought and I 
excerpt from the recent Fleet Mortgage case that explains that.
    Mr. Terry. So just in this process, whether the information 
is encrypted and not readable to the telemarketer, it's still 
an invasion of privacy?
    Mr. Mierzwinski. In our view, it is, because as the 
Attorney General articulates in his complaint in Fleet 
Mortgage, the consumer loses control over the transaction when 
he or she essentially is trapped into making a trial offer 
purchase without ever having provided his or her credit card 
number.
    Mr. Terry. Giving biographical data to the telemarketer is 
or is not an invasion of privacy according to your feelings?
    Mr. Mierzwinski. Well, in addition, I think consumer groups 
believe that nonpublic personal information, in general, ought 
not to be provided to third parties, however, we find it 
especially a problem when the credit card number is either 
encrypted or not are provided to telemarketers in such a way 
that manipulative telemarketing scripts can be used to deceive 
consumers.
    The Fleet Mortgage case, the Attorney General says 
according to interviews done with the telemarketing 
representatives themselves, they believe that up to 20 percent 
of their complaints are about these telemarketing products.
    Mr. Terry. I'm still trying to work through any sharing of 
information, just name, address and phone numbers is an 
invasion.
    Would it still be an invasion of privacy if U.S. hired 
these telemarketers in-house and they were paid by U.S. Bank or 
is the invasion of privacy in your mind that it was transferred 
to an affiliate or a company unrelated to U.S. West or the fact 
that they're even selling something, is that what you're----
    Mr. Mierzwinski. Well, I think you raise a very good point, 
Congressman, and that point is, is there a difference between 
sharing of information with affiliates or with third parties. 
And actually, consumer groups don't think that there is. 
Unfortunately, the Gramm-Leach-Bliley bill only provides for a 
consumer to have any right of even weak consent when the 
information is shared with third parties, that is, not 
affiliated third parties. You have no right to say no to the 
sharing of experience and transaction information with 
affiliates. We obviously, that's what we support as a solution 
as to close that loophole.
    Mr. Terry. All right, well, I appreciate that and for the 
record, as I understand the transaction from the telemarketers, 
regardless of what most of us think of telemarketing, in the 
process, as I understand with Member Works and Fleet, I don't 
know about Fleet or whatever you're talking about there, but 
they asked several times if they understand it's going to be 
billed to their credit card. And if they're being asked that 
succinctly, I'm having difficulty understanding the invasion of 
privacy.
    Mr. Mierzwinski. Again, Congressman, according to--I've 
spoken with the Attorney General's staff and I've read their 
complaints. I've actually listened to the tapes that were 
provided as exhibits in the lawsuits and prior to at least in 
the Member Works case, prior to their settlement with the 
Attorney General, the Attorney General alleged, contended, 
whichever, that the scripts were extremely misleading and 
deceptive.
    Mr. Terry. Have you listened to the tapes?
    Mr. Mierzwinski. I have copies of the tapes, yes.
    Mr. Terry. You didn't answer whether you listened to them.
    Mr. Mierzwinski. Yes, I listened to them, yes, I'm sorry.
    Mr. Terry. My time is up.
    Mr. Stearns. The gentleman's time has expired. I would want 
to thank the second panel.
    Mr. Varn, I had talked to Vice President Cheney about a 
Chief Information Officer for the U.S. Government. He's looking 
at that.
    When did the State of Iowa institute or initiate a Chief 
Information Officer?
    Mr. Varn. It began as a division of our General Services 
about three and a half years ago. It became a Department a year 
ago May. It's only the 28th State to have one.
    Mr. Stearns. The United Kingdom has it on the Secretary 
level, an e-commerce type of person.
    Mr. Varn. Right.
    Mr. Stearns. I want to thank the second panel. I want to 
thank the members. I think this has been a balanced hearing. 
It's been very informative on the issues and I think we've seen 
that privacy is a very complex issue. Thank you, and the 
committee is adjourned.
    [Whereupon, at 4:29 p.m., the committee was adjourned.]
</pre></body></html>
